APPENDIX

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the United States Court
of Appeals for the Eighth Circuit
(July 27, 2020) .................................... App. 1a
Appendix B Order of the United States District
Court for the District of Minnesota
(July 19, 2018) .................................. App. 17a
Appendix C Order of the United States District
Court for the District of Minnesota
(September 21, 2017) ...................... App. 36a
Appendix D Second Amended Consolidated
Class Action Complaint filed in the
United States District Court for the
District of Minnesota
(October 27, 2017) ............................ App. 53a

-App. 1a-

APPENDIX A

United States Court of Appeals
For the Eighth Circuit
No. 18-2781
Francesca Allen, individually and on behalf of all others
similarly situated and on behalf of the Wells Fargo &
Company 401(k) Plan; John Sterling Ross, and all
other individuals similarly situated; Mary Lou Shank
Plaintiffs – Appellants
v.
Wells Fargo & Company; Wells Fargo Bank NA; Wells
Fargo Director of Human Resources; Wells Fargo
Director of Compensation and Benefits; Wells Fargo
Employee Benefits Review Committee; Lloyd H. Dean;
Susan E. Engel; Donald M. James; Stephen W. Sanger;
John Does, 1-30; John G. Stumpf; Hope A. Hardison;
Justin C. Thornton; Greatbane Trust Company; John
Does; Richard Roes; Hope Hardison; Timothy J. Sloan;
David A. Hoyt; Michael J. Heid; Frank Codel; Justin C.
Thornton; John Shrewsberry; Kevin Oden; Patricia
Callahan; Stanhope Kelly; Dawn Martin Harp; Suzanne
Ramos; James Steiner; George Wick; Martin Davis;
Thomas Wolfe
Defendants – Appellees

-App. 2a-

Appeal from United States District Court
for the District of Minnesota
Submitted: April 15, 2020
Filed: July 27, 2020
Before: SHEPHERD, GRASZ, and KOBES, Circuit
Judges.
SHEPHERD, Circuit Judge.
Appellants Francesca Allen, John Sterling Ross, and
Mary Lou Shank appeal the district court1 order
dismissing their second amended complaint brought
pursuant to sections 409 and 502 of the Employee
Retirement Income Security Act (ERISA), 29 U.S.C.
§§ 1109 and 1132, against Appellees Wells Fargo &
Company (Wells Fargo) and fiduciaries of Wells Fargo’s
401(k) plan. Having jurisdiction pursuant to 28 U.S.C.
§ 1291, we affirm.
I.
We recite the facts as alleged in the second amended
complaint, viewing them in the light most favorable to
Appellants. Davenport v. Farmers Ins. Grp., 378 F.3d 839,
841 (8th Cir. 2004).

1

The Honorable Patrick J. Schiltz, United States District Judge
for the District of Minnesota.

-App. 3aA.
Wells Fargo sponsors a 401(k) plan (the Plan) that
allows its employees to save for retirement by investing a
portion of their compensation in one or more investment
funds. The Plan is a “defined contribution” benefit plan
and is tax qualified under the Internal Revenue Code as
both an employee stock ownership plan (ESOP) and a
401(k)-qualified cash or deferred arrangement. Eligible
employees participate in the Plan by contributing a
percentage of their compensation to the Plan, and Wells
Fargo matches employee contributions up to a specified
percentage.
Plan participants may invest their contributions in any
of the investment funds offered by the Plan. Among those
investment fund options are the Wells Fargo ESOP Fund
and the Wells Fargo Non-ESOP Fund (together, the
Wells Fargo Stock Funds), both of which invest primarily
in Wells Fargo stock. In addition, all employer matching
contributions are automatically invested in the Wells
Fargo Stock Funds. Accordingly, at any given time, a
large portion of the Plan’s assets is invested in Wells
Fargo stock.
B.
This appeal arises out of the unauthorized-accounts
scandal at Wells Fargo. As early as 2004, Wells Fargo, at
its senior management’s direction, engaged in a practice
of imposing unreasonably high sales quotas on its branch
employees and then threatening those employees with
termination if they failed to meet those unrealistic quotas.
Through this aggressive sales program, Wells Fargo
pressured and induced thousands of its employees to
engage in widespread unlawful and unethical sales
practices, including using confidential, personal financial
information of Wells Fargo customers to open over 3.5

-App. 4amillion unauthorized customer bank accounts and credit
cards.
The Wells Fargo fraud was not disclosed to the public
until September 8, 2016, when federal banking regulators
announced that Wells Fargo had been fined $185 million.
The initial public disclosure of the fraud caused the
market value of Wells Fargo’s stock to drop drastically—
with Wells Fargo losing more than $18 billion in market
capitalization between the close of market on September
7, 2016 and September 15, 2016—and Plan participants
consequently suffered significant losses.
Following the public disclosure of the fraud,
Appellants—former and current employees of Wells
Fargo and participants in the Plan—brought an action on
behalf of themselves, the Plan, and all persons who were
participants of the Plan “at any time between January 1,
2014 through September 15, 2016 . . . and whose Plan
accounts suffered losses . . . through investments in Wells
Fargo” Stock Funds. In their first amended complaint,
Appellants brought claims of breach of the duty of
prudence and breach of the duty of loyalty pursuant to
sections 409 and 502 of ERISA, as well as derivative
claims of co-fiduciary liability and breach of the duty to
monitor fiduciaries. Specifically, they alleged Appellees
knew as early as 2005 that Wells Fargo’s incentive
structure was inducing the company’s employees to
engage in widespread and ongoing unethical and unlawful
sales practices, and that such practices were artificially
inflating the market value of Wells Fargo’s stock.
Appellants also alleged that Appellees knew as early as
2013 that a government regulator was investigating Wells
Fargo’s possible misconduct and, thus, Appellees knew or
should have known that public disclosure of the fraud was
inevitable. Appellants alleged that, by failing to take

-App. 5acorrective measures to protect the Plan participants, such
as publicly disclosing Wells Fargo’s unethical sales
practices prior to September 2016, freezing investment in
the Wells Fargo Stock Funds, or purchasing a hedging
product, Appellees breached their duties of prudence and
loyalty under ERISA.
The district court granted Appellees’ motion to dismiss
the first amended complaint. The court found that
Appellants’ allegations with respect to their claim of
breach of the duty of prudence did not satisfy the pleading
requirements under Fifth Third Bancorp v.
Dudenhoeffer, 573 U.S. 409 (2014), because Appellants
failed to plausibly allege that a prudent fiduciary in
Appellees’ position could not have concluded that
Appellants’ proposed alternative actions would do more
harm than good to the Wells Fargo Stock Funds. Thus,
the court dismissed that claim with prejudice. The court
also found that Appellants had not pled a freestanding
claim of breach of the duty of loyalty and dismissed that
claim without prejudice.
Appellants then filed a second amended complaint,
alleging that Appellees breached their duty of loyalty by
failing to disclose the unethical sales practices, freeze
investment in the Wells Fargo Stock Funds, or avoid
conflicts of interest.2 Appellees moved to dismiss, arguing
that the court should apply the Dudenhoeffer pleading
standard not only to the claim of breach of the duty of
prudence, but also to the claim of breach of the duty of
loyalty. They argued that, under that standard, the court
should dismiss Appellants’ claim of breach of the duty of
loyalty for the same reasons it dismissed their claim of
2

Appellants also re-plead their claim of breach of the duty of
prudence and their derivative claims.

-App. 6abreach of the duty of prudence. Further, they argued that,
even if the Dudenhoeffer pleading standard does not apply
to the claim of breach of the duty of loyalty, the court
should nonetheless dismiss that claim.
The district court granted the motion to dismiss the
second amended complaint, finding that, although
Dudenhoeffer does not apply to a claim of breach of the
duty of loyalty, Appellants’ allegations are nonetheless
insufficient to plausibly plead that Appellees breached
their duty of loyalty. Further, the court found that,
because Appellants fail to plausibly allege that Appellees
breached their fiduciary duties under ERISA, their
derivative claims also fail. This appeal follows.
II.
Appellants challenge the district court’s grant of
Appellees’ motion to dismiss the second amended
complaint pursuant to Fed. R. Civ. P. 12(b)(6).
Specifically, they argue that the district court erred in
finding that Appellants fail to plausibly allege claims of
breach of the duty of prudence and of breach of the duty
of loyalty under ERISA. We review de novo a district
court’s grant of a motion to dismiss for failure to state a
claim, assuming all factual allegations as true and
construing all reasonable inferences in the light most
favorable to Appellants, the nonmoving party. Usenko v.
MEMC LLC, 926 F.3d 468, 472 (8th Cir. 2019).
A.
ERISA imposes a duty of prudence on plan fiduciaries,
including ESOP fiduciaries, which requires that they
manage their plans with “care, skill, prudence, and
diligence[.]” 29 U.S.C. § 1104(a)(1)(B); see Dudenhoeffer,
573 U.S. at 411-12. But when ESOP fiduciaries are alleged
to have inside information that a stock is overpriced, they

-App. 7aconfront a unique conflict between securities laws and
their duty of prudence. See Amgen Inc. v. Harris, 136 S.
Ct. 758, 759 (2016) (per curiam). Thus, the Supreme Court
has established a demanding pleading standard for
situations in which inside information forms the basis of
an imprudence claim:
To state a claim for breach of the duty of prudence
on the basis of inside information, a plaintiff must
plausibly allege an alternative action that the
defendant could have taken that would have been
consistent with the securities laws and that a
prudent fiduciary in the same circumstances
would not have viewed as more likely to harm the
fund than to help it.
Dudenhoeffer, 573 U.S. at 428. Three considerations
“inform the requisite analysis.” Id. First, in deciding
whether a complaint states a claim, courts must bear in
mind that ERISA’s duty of prudence cannot require the
ESOP fiduciary to perform an action that would violate
securities laws. Id. Second, “courts should consider the
extent to which an ERISA-based obligation. . . could
conflict with the complex insider trading and corporate
disclosure requirements imposed by the federal securities
laws or with the objectives of those laws.” Id. at 429.
Third, lower courts faced with such claims should
also consider whether the complaint has plausibly
alleged that a prudent fiduciary in the defendant’s
position could not have concluded that [the
alternative action]. . . would do more harm than
good to the fund by causing a drop in the stock
price and a concomitant drop in the value of the
stock already held by the fund.
Id. at 429-30 (emphasis added). In Amgen, the Supreme
Court reaffirmed that a complaint must “‘plausibly

-App. 8aallege[]’ that a prudent fiduciary in the same position
‘could not have concluded’ that the alternative action
‘would do more harm than good.’” 136 S. Ct. at 760
(quoting Dudenhoeffer, 573 U.S. at 429-30) (finding the
Ninth Circuit failed to properly evaluate complaint
because it failed to assess whether complaint plausibly
alleged that a prudent fiduciary in same position could not
have concluded that alternative action would do more
harm than good). Determining whether a plaintiff has met
this pleading standard is a fact-based inquiry that
“focuses on the information available to the fiduciary at
the time of the relevant investment decision.” Usenko, 926
F.3d at 473.
On appeal, Appellants limit their argument to two
proposed alternative actions: public disclosure of the
unethical sales practices, and freezing purchases in the
Wells Fargo Stock Funds. Because Appellees could not
have implemented a purchase freeze without also
disclosing Wells Fargo’s unethical sales practices, we
focus our analysis on the public-disclosure alternative. See
Saumer v. Cliffs Natural Res. Inc., 853 F.3d 855, 864-65
(6th Cir. 2017) (noting that implementing a purchase
freeze without explanation might be even worse than just
disclosing the negative information because it signals to
the market that something may be deeply wrong inside
the company without giving the market enough
information to gauge the stock’s true value).
Most circuit courts to consider an imprudence claim
based on inside information post-Dudenhoeffer have
rejected the argument that public disclosure of negative
information is a plausible alternative, finding that a
prudent fiduciary could readily conclude that disclosure
would do more harm than good “by causing a drop in the
stock price and a concomitant drop in the value of the

-App. 9astock already held by the fund.” Singh v. RadioShack
Corp., 882 F.3d 137, 149 (5th Cir. 2018) (per curiam)
(quoting Dudenhoeffer, 573 U.S. at 430); see Saumer, 853
F.3d at 864 (finding that the “fiduciaries could have
concluded that divulging inside information . . . would
have collapsed Cliffs’s stock price, hurting participants
already invested in the ESOP”); Whitley v. BP, P.L.C.,
838 F.3d 523, 529 (5th Cir. 2016) (finding “that a prudent
fiduciary could very easily conclude that [disclosure of
such information] would do more harm than good”).
Appellants argue that the present case is
distinguishable, however, because they allege Appellees
knew or should have known that public disclosure of the
fraud was inevitable and that, based on general economic
principles, the longer the fraud is concealed, the greater
the harm to the company’s reputation and stock price. In
Martone v. Robb, the Fifth Circuit considered allegations
and arguments similar to those presented by Appellants.
902 F.3d 519 (5th Cir. 2018). Specifically, the Martone
plaintiff argued that a prudent fiduciary in the defendants’
position could not conclude that earlier disclosure of the
fraud would do more harm than good because it is a
“widely-known and generally-applicable” economic
principle that “the longer the fraud persists, the harsher
the correction tends to be, usually because a prolonged
fraud necessarily means that long-term damage is also
done to a fraudster’s reputation for trustworthiness.” Id.
at 526-27 (internal quotation marks omitted). In rejecting
this argument, the Fifth Circuit reasoned that if such a
principle were as widely known and generally applicable
as the plaintiff suggested, then it would apply in virtually
every fraud case. But, the court explained, such a principle
cannot apply in virtually every fraud case because, in
Whitley, the Fifth Circuit had already found that a
prudent fiduciary could easily conclude that taking an

-App. 10aaction that might expose fraudulent conduct would do
more harm than good. Id.; see Whitley, 838 F.3d at 529.
Accordingly, the court found that the plaintiff failed to
plausibly allege that a prudent fiduciary in the defendants’
position could not conclude that earlier disclosure of
negative information would do more harm than good to
the fund.
Similarly, in Laffen v. Hewlett-Packard Co., the Ninth
Circuit rejected the plaintiff’s proposed alternative action
of early disclosure of fraud, finding that a prudent
fiduciary in the same circumstances as the defendant
could conclude that earlier disclosure, as opposed to later
disclosure following a full investigation, would do more
harm than good. 721 F. App’x 642, 644 (9th Cir. 2018) (per
curiam)
(“Laffen’s
proposed
alternative
faults
Defendants-Appellees for first investigating the
whistleblower’s allegations before taking action, but a
prudent fiduciary must first investigate problems before
acting.”).
The sole instance in which a circuit court has found
that a plaintiff plausibly alleged that a prudent fiduciary
in the defendant’s position could not conclude that earlier
disclosure of fraud would do more harm than good is
Jander v. Retirement Plans Committee of IBM, 910 F.3d
620 (2d Cir. 2018), vacated and remanded, 140 S. Ct. 592,
reinstated, 962 F.3d 85 (2d Cir. 2020). In fact, Jander is
the only case in which a circuit court has found the
Dudenhoeffer pleading standard to be satisfied. In
Jander, the Second Circuit found persuasive the plaintiff’s
allegation that “the eventual disclosure of a prolonged
fraud causes reputational damage that increases the
longer the fraud goes on,” noting that the plaintiff had
“cit[ed] economic analyses that show that reputational
harm is a common result of fraud and grows the longer the

-App. 11afraud is concealed[.]” Id. at 629 (internal quotation marks
omitted). The court also found particularly important the
plaintiff’s allegation that the defendant knew that
disclosure was inevitable because IBM was likely to sell
the business and would be unable to hide its overvaluation
from the public at that point. Id. The court determined
that when the stock drop is inevitable, “it is far more
plausible that a prudent fiduciary would prefer to limit the
effects of the stock’s artificial inflation on the ESOP’s
beneficiaries through prompt disclosure.” Id. at 630.
Turning to the present case, we find that Appellants
have failed to plausibly allege that a prudent fiduciary in
Appellees’ position could not have concluded that earlier
disclosure would do more harm than good. Like the Fifth
Circuit in Martone, we find Appellants’ allegation based
on general economic principles—that the longer a fraud is
concealed, the greater the harm to the company’s
reputation and stock price—is too generic to meet the
requisite pleading standard. See Martone, 902 F.3d at 52627. But even considering these general economic
principles “as part of the overall picture,” as the Second
Circuit did in Jander, we reach the same conclusion. See
Jander, 910 F.3d at 630. We find particularly important
Appellants’ allegation that Appellees knew that
government regulators were conducting an investigation
into Wells Fargo’s sales practices since at least 2013 and
up until the disclosure in 2016. We find that a prudent
fiduciary—even one who knows disclosure is inevitable
and that earlier disclosure may ameliorate some harm to
the company’s stock price and reputation—could readily
conclude that it would do more harm than good to disclose
information about Wells Fargo’s sales practices prior to
the completion of the government’s investigation. See
Laffen, 721 F. App’x at 644. Relatedly, a prudent fiduciary
could conclude that “an unusually-timed disclosure[,]”

-App. 12asuch as one made by a plan fiduciary prior to the
conclusion of an investigation, “risks ‘spooking the
market,’ creating the potential for an outsized stock drop.”
Martone, 902 F.3d at 527. We conclude that, “[a]lthough
earlier disclosure may have ameliorated some harm to the
Fund, that course of action was not so clearly beneficial
that a prudent fiduciary could not conclude that it would
be more likely to harm the fund than to help it.” Graham
v. Fearon, 721 F. App’x 429, 437 (6th Cir. 2018).
Accordingly, we find that the district court did not err
in finding that Appellants have failed to plausibly plead
that a prudent fiduciary could not have concluded that
Appellants’ proposed alternative actions would do more
harm than good. Thus, Appellants have failed to state a
claim of breach of the duty of prudence.
B.
ERISA also imposes a duty of loyalty on plan
fiduciaries. 29 U.S.C. § 1104(a)(1) (“[F]iduciary shall
discharge his duties with respect to a plan solely in the
interest of the participants[.]”). Because the Dudenhoeffer
standard is limited to imprudence claims, Twombly3 and
Iqbal4 provide the proper pleading standard for disloyalty
claims: Appellants must allege sufficient facts to give rise
to a plausible inference that Appellees breached their
duty.5

3

Bell Atlantic Corp. v. Twombly, 550 U.S. 544 (2007).

4

Ashcroft v. Iqbal, 555 U.S. 1030 (2008).

5

Appellees argue that the Dudenhoeffer standard should apply to
the disloyalty claim because such a claim boils down to failure to
disclose inside information. The Supreme Court clearly limited the
Dudenhoeffer standard to imprudence claims. However, we agree
with the district court that the concerns that the Supreme Court cited
in relation to imprudence claims apply with equal force to disloyalty

-App. 13aAppellants first argue that Appellees breached their
duty of loyalty by failing to disclose to Plan participants
material information about Wells Fargo’s unethical and
unlawful sales practices. As support, Appellants cite a
number of Eighth Circuit cases for the proposition that
the duty of loyalty requires a fiduciary to disclose material
information about the company to plan participants where
such information could adversely affect a plan
participant’s interests. However, each of those cases
involved information about the plan, not non-public
information about the company. See, e.g., Shea v.
Esensten, 107 F.3d 625, 628-29 (8th Cir. 1997) (holding
fiduciary had a duty to disclose health maintenance
organization’s financial incentive scheme that discouraged
treating doctors from providing essential health care
referrals for conditions covered under the plan benefit
structure); Braden v. Wal-Mart Stores, Inc., 588 F.3d 585,
598 (8th Cir. 2009) (holding fiduciary had duty to disclose
“complete and accurate material information about the
Plan funds and the process by which they were selected”).
Moreover, other circuit courts have held that the duty
of loyalty does not require disclosure of non-public
information about the company that might impact the plan
participants. See, e.g., Lanfear v. Home Depot, Inc., 679
F.3d 1267, 1284 (11th Cir. 2012) (affirming dismissal of
claim of breach of duty of loyalty because “ERISA does
not explicitly impose a duty to provide participants with
claims. Dudenhoeffer, 573 U.S. at 423 (deeming legitimate the
“potential for conflict . . . because ESOP fiduciaries often are
company insiders and because suits against insider fiduciaries
frequently allege . . . that the fiduciaries were imprudent in failing to
act on inside information they had about the value of the employer’s
stock”). Accordingly, we find the district court did not err in
rigorously applying Twombly and Iqbal to the disloyalty claim.

-App. 14anonpublic information affecting the value of the company’s
stock”). As the Eleventh Circuit explained, there is good
reason for the distinction between plan information and
non-public information that may affect stock value: if
there were an affirmative duty to disclose non-public
information that would impact the stock, such a duty
“would improperly transform fiduciaries into investment
advisors.” Id. at 1285 (citing In re Citigroup ERISA Litig.,
662 F.3d 128, 143 (2d Cir. 2011), abrogated by
Dudenhoeffer, 573 U.S. at 409). Moreover, such an
affirmative duty would circumvent the Dudenhoeffer
standard and render it worthless; there would be no
reason to analyze whether a prudent fiduciary could have
concluded that disclosure of non-public information would
do more harm than good.
Second, Appellants argue that Appellees breached
their duty of loyalty due to conflicts of interest.
Specifically, Appellants allege that Appellees chose not to
disclose the unethical sales practices so as to not
jeopardize their own high-ranking positions. But, beyond
this conclusory allegation, Appellants fail to allege any
specific facts from which a court can infer that Appellees
were motivated by disloyal reasons in choosing not to
disclose information. Moreover, ERISA permits
“[p]ersons who serve as fiduciaries [to] also act in other
capacities, even capacities that conflict with the
individual’s fiduciary duties.” Trs. of the Graphic
Commc’ns Int’l Union Upper Midwest Local 1M Health &
Welfare Plan v. Bjorkedal, 516 F.3d 719, 732 (8th Cir.
2008). Thus, the fact that some fiduciaries also hold highranking positions in the company is insufficient to create
a plausible inference that Appellees failed to act loyally
due to conflicts of interest. See In re Bank of Am. Corp.
Sec., Derivative, & ERISA Litig., 756 F. Supp. 2d 330, 355
(S.D.N.Y. 2010) (“[T]he purported conflict would exist for

-App. 15aall corporate insiders, who are charged with managing the
affairs of the corporation; it would deprive the plans of
services of the most knowledgeable individuals.”); cf.
Singh, 882 F.3d at 150 (finding that “Plaintiffs fail to point
to any fact suggesting a conflict of interest other than
Defendants’ stock ownership” and thus “the complaint
fails to allege facts that would give rise to a plausible
inference that Defendants’ concern about the stock price
was self-serving”).
Appellants also argue that they have stated a
disloyalty claim based on conflicts of interest because they
allege that Appellees sold their own Wells Fargo shares at
an inflated price. However, as Appellees note, corporate
officers and directors sell their stock periodically. See
Pugh v. Tribune Co., 521 F.3d 686, 695 (7th Cir. 2008)
(noting that “executives sell stock all the time”). We find
that the fact that Appellees sold their Wells Fargo shares
at an inflated price, without more, is insufficient to give
rise to a plausible inference that Appellees breached their
duty of loyalty. See Singh, 882 F.3d at 150 (“We decline to
adopt a rule that would make stock ownership, without
more, synonymous with a plausible claim of fiduciary
disloyalty.”); cf. Coulter v. Morgan Stanley & Co. Inc., 753
F.3d 361, 368 (2d Cir. 2014) (per curiam) (“[A] conflict of
interest claim cannot be based solely on the fact than an
ERISA fiduciary’s compensation was linked to the
company’s stock.” (internal quotation marks omitted)).
We are persuaded by Appellees’ argument that
Appellants’ disloyalty claim “merely recasts the
imprudence claim” so as to circumvent the demanding
Dudenhoeffer standard. As Appellees note, Appellants’
disloyalty claim and imprudence claim are based on the
same alleged acts: failing to disclose the unethical sales
practices, and failing to freeze purchases in the Wells

-App. 16aFargo Funds. “Surely the [Supreme] Court did not lay
down the detailed requirements for pleading a breach of
the duty of prudence if all that was required was to label
the insufficient allegations as a breach of the duty of
loyalty.” In re Pilgrim’s Pride Stock Inv. Plan ERISA
Litig., No. 2:08-cv-472-JRG-RSP, 2016 WL 8814356, at *4
(E.D. Tex. Aug. 19, 2016).
Accordingly, we find that the district court did not err
in holding that Appellants have failed to sufficiently plead
a claim of breach of the duty of loyalty. Because the
district court properly dismissed Appellants’ claims of
breach of fiduciary duties, the district court also properly
dismissed Appellants’ derivative claims of co-fiduciary
liability and breach of the duty to monitor. See Brown v.
Medtronic, Inc., 628 F.3d 451, 461 (8th Cir. 2010) (holding
that “neither of [the derivative] claims can survive without
a sufficiently pled theory of an underlying breach”).
III.
For the foregoing reasons, the judgment of the district
court is affirmed.

-App. 17a-

APPENDIX B
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Case No. 16-CV-3405 (PJS/BRT)
IN RE: WELLS FARGO ERISA
401(k) LITIGATION
ORDER

Adam J. Levitt, Amy E. Keller, and Daniel R.
Ferri, DICELLO LEVITT & CASEY LLC;
Robert K. Shelquist and Rebecca A. Peterson,
LOCKRIDGE GRINDAL NAUEN P.L.L.P.;
Greg G. Gutzler, Richard M. Elias, and Tamara M.
Spicer, ELIAS GUTZLER SPICER LLC; W.
Daniel “Dee” Miles, III, and Claire E. Burns,
BEASLEY ALLEN CROW METHVIN PORTIS
& MILES, P.C.; Samuel E. Bonderoff, Jacob H.
Zamansky, Edward H. Glenn, and Justin
Sauerwald, ZAMANSKY LLC; Michael B.
Ershowsky, LEVI & KORSINSKY LLP; Carolyn
G. Anderson, June P. Hoidal, and Devon Holstad,
ZIMMERMAN REED LLP; and Douglas J. Nill,
DOUGLAS J. NILL, PLLC, for plaintiffs.

-App. 18aRussell L. Hirschhorn, Howard Shapiro, and
Lindsey Chopin, PROSKAUER ROSE LLP; and
Kirsten E. Schubert and Stephen P. Lucke,
DORSEY & WHITNEY LLP, for defendants.
Plaintiffs Francesca Allen, John Sterling Ross, and
Mary Lou Shank are current and former employees of
Wells Fargo & Company (“Wells Fargo”). All of them held
Wells Fargo stock in their 401(k) accounts. In September
2016, the price of that stock dropped sharply—and
plaintiffs suffered significant losses—after Wells Fargo
and the United States government announced that
thousands of Wells Fargo employees had engaged in
grossly unethical sales practices.
Plaintiffs then brought this lawsuit under the
Employee Retirement Income Security Act (“ERISA”),
29 U.S.C. § 1001 et seq., against Wells Fargo and
corporate insiders who served as fiduciaries of their 401(k)
plan. Plaintiffs alleged that defendants violated two
distinct duties under ERISA—the duty of prudence and
the duty of loyalty—by failing to disclose Wells Fargo’s
unethical sales practices prior to September 2016.
According to plaintiffs, if defendants had disclosed this
information earlier, the value of the Wells Fargo stock in
their 401(k) accounts would not have dropped as much as
it did.
Defendants moved to dismiss plaintiffs’ amended
complaint. ECF No. 113. Defendants argued that
plaintiffs’ prudence claim should be dismissed because
plaintiffs had not plausibly alleged—as Fifth Third
Bancorp v. Dudenhoeffer requires—“that a prudent
fiduciary in the defendant’s position could not have
concluded that [earlier disclosure of Wells Fargo’s sales
practices] . . . would do more harm than good to the fund

-App. 19a. . . .” 134 S. Ct. 2459, 2473 (2014). The Court agreed and
dismissed the prudence claim. In re Wells Fargo ERISA
401(k) Litig., No. 16-CV-3405 (PJS/BRT), 2017 WL
4220439 (D. Minn. Sept. 21, 2017).
Defendants also argued that plaintiffs had not pleaded
“a freestanding claim for breach of the duty of loyalty.”
ECF No. 155 at 15. The Court agreed that the amended
complaint did not clearly separate the prudence claim
from the loyalty claim. In re Wells Fargo, 2017 WL
4220439, at *7. The Court therefore dismissed plaintiffs’
loyalty claim but gave plaintiffs leave to replead that claim
more clearly in a second amended complaint. Id.
Plaintiffs responded by filing a second amended
complaint and reasserting their loyalty claim. Defendants
have now moved to dismiss that complaint. Defendants
argue that the Dudenhoeffer pleading standard should be
applied not only to prudence claims, but to loyalty
claims—and that, under that standard, plaintiffs’ loyalty
claim should be dismissed for the same reasons that their
prudence claim was dismissed. Defendants also argue
that, even if the Dudenhoeffer pleading standard is not
applied to plaintiffs’ loyalty claim, that claim should
nevertheless be dismissed.
I. APPLICATION OF DUDENHOEFFER TO
LOYALTY CLAIMS
Defendants first argue that, even though
Dudenhoeffer described only what was necessary to plead
viable prudence claims, its pleading standard should also
be applied to loyalty claims. See Dudenhoeffer, 134 S. Ct.
at 2464 (“We limit our review to the duty- of-prudence
claims.”). To fully understand defendants’ argument—and
why the Court ultimately rejects it—some background is
necessary.

-App. 20aPrior to 1995, the federal courts were burdened with a
substantial number of abusive securities-fraud actions.
The filing of a securities-fraud action seemed to follow on
the heels of every substantial drop in the price of the stock
of a publicly traded company. Congress eventually
concluded that “nuisance filings, targeting of deep-pocket
defendants,
vexatious
discovery
requests,
and
‘manipulation by class action lawyers of the clients whom
they purportedly represent’ had become rampant.”
Merrill Lynch, Pierce, Fenner & Smith Inc. v. Dabit, 547
U.S. 71, 81 (2006) (quoting H.R. Conf. Rep. No. 104-369, at
31 (1995)).
To curb these perceived abuses, Congress passed the
Private Securities Litigation Reform Act of 1995
(“PSLRA”), Pub. L. 104-67, 109 Stat. 737. Among the
PSLRA’s features was the imposition of heightened
pleading standards on certain securities- fraud actions.
See Dabit, 547 U.S. at 81-82. As the Ninth Circuit
explained, “Congress sought to reduce the volume of
abusive federal securities litigation by erecting procedural
barriers . . . . such as heightened pleading standards.” In
re Silicon Graphics Inc. Sec. Litig., 183 F.3d 970, 977-78
(9th Cir. 1999).
In the wake of the enactment of the PSLRA, the
plaintiffs’ bar came up with a strategy to evade the
heightened pleading standards. That strategy involves
“tak[ing] what is essentially a securities-fraud action and
plead[ing] it as an ERISA action.” Wright v. Medtronic,
Inc., No. 09-CV-0443 (PJS/AJB), 2010 WL 1027808, at *1
(D. Minn. Mar. 17, 2010). “Plaintiffs’ attorneys are able to
evade the PSLRA in this manner—as well as take
advantage of the strict duties imposed on fiduciaries by
ERISA—by suing not on behalf of those who purchased
the stock of a company as members of the investing public,

-App. 21abut instead on behalf of those who purchased the stock of
a company as participants in a defined-contribution plan
sponsored by that company.” Id. The centerpiece of these
ERISA stock-drop cases is typically a claim that the
fiduciaries of a 401(k) plan breached their duty of
prudence by directing the plan to buy or hold shares of a
company’s stock, when they knew or should have known
that the stock was overpriced.
As these ERISA stock-drop cases proliferated, federal
courts began to have a number of concerns, including the
concern that companies would be deterred from offering
employee
stock
ownership
plans
(“ESOPs”).
Dudenhoeffer, 134 S. Ct. at 2470. The Supreme Court
described this concern as follows:
ESOP plans instruct their fiduciaries to invest
in company stock, and [29 U.S.C.] § 1104(a)(1)(D)
requires fiduciaries to follow plan documents so
long as they do not conflict with ERISA. Thus, in
many cases an ESOP fiduciary who fears that
continuing to invest in company stock may be
imprudent finds himself between a rock and a
hard place: If he keeps investing and the stock
goes down he may be sued for acting imprudently
in violation of § 1104(a)(1)(B), but if he stops
investing and the stock goes up he may be sued
for disobeying the plan documents in violation of
§ 1104(a)(1)(D).
Id.
To address this concern, many courts held that ESOP
fiduciaries who were sued under ERISA enjoyed a
“presumption of prudence.” This presumption was
“generally defined as a requirement that the plaintiff
make a showing that would not be required in an ordinary

-App. 22aduty-of-prudence case, such as that the employer was on
the brink of collapse.” Id. at 2463.
In Dudenhoeffer, the Supreme Court eliminated the
presumption of prudence, holding that “the law does not
create a special presumption favoring ESOP fiduciaries.”
Id. at 2467. Rather, the Supreme Court said, “the same
standard of prudence applies to all ERISA fiduciaries,
including ESOP fiduciaries . . . .” Id. The Supreme Court
acknowledged the concern that “the threat of costly dutyof-prudence lawsuits will deter companies from offering
ESOPs to their employees, contrary to the stated intent
of Congress.” Id. at 2470. But, the Supreme Court said,
“we do not believe that the presumption at issue here is an
appropriate way to weed out meritless lawsuits . . . .” Id.
According to the Supreme Court, a far better
“mechanism for weeding out meritless claims” is for
defendants to move to dismiss those claims under Federal
Rule of Civil Procedure 12(b)(6), and for district courts to
rigorously apply the standards of Ashcroft v. Iqbal, 556
U.S. 662 (2009), and Bell Atlantic Corp. v. Twombly, 550
U.S. 544 (2007). See Dudenhoeffer, 134 S. Ct. at 2471. In
particular, districts courts must closely examine a
complaint that asserts a prudence claim against an ESOP
fiduciary to ensure that the complaint pleads “enough
facts to state a claim to relief that is plausible on its face.”
Twombly, 550 U.S. at 570.
The Supreme Court wrapped up its Dudenhoeffer
opinion by setting forth various “considerations” intended
to guide lower courts in “apply[ing] the pleading standard
as discussed in Twombly and Iqbal . . . .” Dudenhoeffer,
134 S. Ct. at 2471. In insider- information cases such as
this one—that is, cases in which “a complaint faults
fiduciaries for failing to decide, on the basis of the inside
information, to refrain from making additional stock

-App. 23apurchases or for failing to disclose that information to the
public so that the stock would no longer be overvalued,”
id. at 2473—the Supreme Court identified “three points
[to] inform the requisite analysis,” id. at 2472. The third of
those points was the following:
Third, lower courts faced with such claims should
. . . consider whether the complaint has plausibly
alleged that a prudent fiduciary in the defendant’s
position could not have concluded that stopping
purchases—which the market might take as a
sign that insider fiduciaries viewed the
employer’s stock as a bad investment—or
publicly disclosing negative information would do
more harm than good to the fund by causing a
drop in the stock price and a concomitant drop in
the value of the stock already held by the fund.
Id. at 2473.
In its earlier order in this case, this Court
characterized this more-harm-than-good standard as
“very tough” and explained why “plaintiffs will only rarely
be able to plausibly allege that a prudent fiduciary ‘could
not’ have concluded that a later disclosure of negative
inside information would have less of an impact on the
stock’s price than an earlier disclosure.” In re Wells
Fargo, 2017 WL 4220439, at *2 (quoting Dudenhoeffer,
134 S. Ct. at 2473 (emphasis added)). After examining
plaintiffs’ amended complaint, the Court concluded that
“[p]laintiffs have failed to plead specific facts to make
plausible their allegation that, under the circumstances of
this particular case, a prudent fiduciary ‘could not have
concluded’ that a later disclosure would result in a smaller
loss to the Fund than an earlier disclosure.” Id. at *7
(quoting Dudenhoeffer, 134 S. Ct. at 2473). For that
reason, the Court dismissed plaintiffs’ prudence claim.

-App. 24aThat brings us to plaintiffs’ loyalty claim. Defendants
concede that Dudenhoeffer was explicitly limited to
prudence claims. But, say defendants, just about any
prudence claim can easily be recast as a loyalty claim. That
is particularly true in insider- information cases. By
definition, these are cases in which the defendant was a
corporate insider who served as the fiduciary of an ESOP
plan, the defendant received negative inside information
about the company, and the plaintiff alleges that the
defendant breached the duty of prudence by not disclosing
or otherwise acting upon that inside information. In that
context, defendants argue, turning a prudence claim into
a loyalty claim requires nothing more than adding the
allegation that, in failing to disclose or otherwise act upon
the inside information, the defendant was motivated by a
desire to protect his position as a corporate insider.
To this point, the Court agrees with defendants. And
the Court also agrees with defendants that—given how
easy it is for a plaintiff to convert a prudence claim into a
loyalty claim in an insider-information case—the Supreme
Court would have as much concern about these loyalty
claims as it had about the prudence claims in
Dudenhoeffer. After all, these loyalty claims place ESOP
fiduciaries “between a rock and a hard place” in the same
manner as the prudence claims discussed in
Dudenhoeffer. 134 S. Ct. at 2470. And thus, these loyalty
claims will deter companies from offering ESOP plans
unless district courts apply a “mechanism for weeding out
meritless claims.” Id. at 2471.
Here, however, is where this Court and defendants
part ways: Defendants argue that this Court should apply
the same “mechanism” for weeding out meritless loyalty
claims that Dudenhoeffer said should be applied for
weeding out meritless prudence claims. In particular,

-App. 25adefendants point to the Supreme Court’s admonition that,
in inside-information cases, “lower courts . . . should
. . . consider whether the complaint has plausibly alleged
that a prudent fiduciary in the defendant’s position could
not have concluded that stopping purchases . . . or
publicly disclosing negative information would do more
harm than good to the fund . . . .” Id. at 2473. Defendants
urge that this more-harm-than-good standard should be
applied to both prudence and loyalty claims. Given that
the Court has already held that plaintiffs’ prudence claim
does not meet the standard, defendants argue, the Court
must dismiss plaintiffs’ loyalty claim for the same reason.
The problem with defendants’ argument is that it
wrenches the more-harm-than-good standard out of
context. The Supreme Court was very clear in
Dudenhoeffer about how district courts should weed out
meritless prudence claims: by rigorously applying the
Iqbal/Twombly plausibility standard. And this Court is
confident that, if faced with the question, the Supreme
Court would hold that district courts should weed out
meritless loyalty claims in the same way: by rigorously
applying the Iqbal/Twombly plausibility standard. But a
judge who is applying the Iqbal/Twombly standard to a
loyalty claim must necessarily ask different questions
than a judge who is applying the Iqbal/Twombly standard
to a prudence claim, for the simple reason that the
elements of the two claims are not the same.
The duty of prudence requires fiduciaries to act “with
the care, skill, prudence, and diligence under the
circumstances then prevailing that a prudent man acting
in a like capacity and familiar with such matters would use
in the conduct of an enterprise of a like character and with
like aims.” 29 U.S.C. § 1104(a)(1)(B). This is an objective
standard; the subjective intentions of the fiduciary are

-App. 26airrelevant. See Braden v. Wal-Mart Stores, Inc., 588 F.3d
585, 595 (8th Cir. 2009). Thus, a plaintiff who brings a
prudence claim must plead and prove that a hypothetical
prudent person would not have acted as the fiduciary did
under the same circumstances. See Roth v. SawyerCleator Lumber Co., 16 F.3d 915, 917-918 & n.3 (8th Cir.
1994) (stating that it was “improper[]” for the district
court to “appl[y] a subjective test to the trustees’
conduct”).
By contrast, the duty of loyalty requires fiduciaries to
act “for the exclusive purpose of . . . providing benefits to
participants and their beneficiaries.” 29 U.S.C.
§ 1104(a)(1)(A)(i) (emphasis added). This is a subjective
standard; what matters is why the defendant acted as he
did. See A.F. v. Providence Health Plan, 173 F. Supp. 3d
1061, 1073 (D. Or. 2016) (noting that the duty of loyalty
“looks to the fiduciary’s subjective motivation in
determining whether the fiduciary is in compliance with
the rule”). Thus, a plaintiff who brings a loyalty claim does
not have to plead or prove anything about what a
hypothetical prudent person would have done under the
same circumstances; instead, the plaintiff must plead and
prove that the defendant acted to further his own interests
rather than the interests of the fund.
To illustrate: Suppose that two corporate officers
serve as fiduciaries of an ERISA plan that exclusively
holds their company’s stock. Both fiduciaries receive
inside information that one of the company’s key products
is defective and will likely have to be recalled. Both
fiduciaries also know that when this information is
ultimately disclosed, the price of the company’s stock will
plummet. Both fiduciaries decide to delay the disclosure
of the defect to the public. The first fiduciary delays
disclosure because he sincerely believes that a later

-App. 27adisclosure will result in less of an impact on the price of
the company’s stock—and thus less of an impact on plan
participants—because the company will be able to pair the
announcement of the defect with an announcement of a
specific plan to remedy the problem. The second fiduciary
delays disclosure because he is scheduled to receive a
bonus of 100,000 shares of company stock at the end of the
year, and he does not want the price of the company’s
stock to drop until he gets and sells those shares.
In this hypothetical, a plaintiff bringing a prudence
claim against the two fiduciaries would have to plead and
prove that a prudent person would not have delayed
disclosure of the defect. If the plaintiff did so, both
fiduciaries could be found to have breached the duty of
prudence; if the plaintiff failed to do so, neither fiduciary
could be found to have breached the duty of prudence. The
good intentions of the first fiduciary—and the bad
intentions of the second fiduciary—would be irrelevant.
By contrast, a plaintiff bringing a loyalty claim against
the two fiduciaries would have to plead and prove that the
reason that a particular fiduciary delayed disclosure of the
defect was to further his own interests, rather than the
interests of the fund participants. Because the first
fiduciary acted in subjective good faith, he could not be
found to have breached the duty of loyalty. But because
the second fiduciary did not act in subjective good faith, he
could be found to have breached the duty of loyalty. See
Tussey v. ABB, Inc., 850 F.3d 951, 958 (8th Cir. 2017) (“A
fiduciary can abuse its discretion and breach its duties by
acting on improper motives, even if one acting for the right
reasons might have ended up in the same place.”).1
1

At oral argument, defendants agreed with this description of the
contrasting nature of prudence and loyalty claims. See ECF No. 209
at 3-6. In their brief, however, defendants cite In re Target Corp.

-App. 28aIt makes sense, then, that a judge who is applying the
Iqbal/Twombly plausibility standard to a prudence claim
would ask “whether the complaint has plausibly alleged
that a prudent fiduciary in the defendant’s position could
not have concluded that stopping purchases . . . or publicly
disclosing negative information would do more harm than
good to the fund . . . .” Dudenhoeffer, 134 S. Ct. at 2473. At
the heart of any prudence claim is the question of what “a
prudent fiduciary in the defendant’s position” could have
done. But it makes no sense for a judge who is applying
the Iqbal/Twombly plausibility standard to a loyalty claim
to ask what “a prudent fiduciary in the defendant’s
position” could have done. That is irrelevant to a loyalty
claim—which, again, turns not on whether the fiduciary
acted prudently, but on whether the fiduciary acted “for
the exclusive purpose of . . . providing benefits to
participants and their beneficiaries.” 29 U.S.C.
§ 1104(a)(1)(A)(i). Hence, when defendants demand that
this Court apply the more-harm-than-good standard to
plaintiffs’ loyalty claim, defendants are demanding that

Securities Litigation, 275 F. Supp. 3d 1063, 1089 (D. Minn. 2017), to
argue that the duty of loyalty standard is objective. ECF No. 198 at
21 n.9. But when the Court reads In re Target in context, the Court
believes that the order was simply making the point that a fiduciary’s
decision should not be deemed disloyal just because it turns out to be
a poor decision in hindsight. In re Target, 275 F. Supp. 3d at 1089. To
the extent that In re Target suggests something more—specifically,
that whether a defendant has breached the duty of loyalty is evaluated
under an objective standard—the Court respectfully disagrees, for
the reasons described above. The only authority cited by In re Target
in support of its statement that the duty of loyalty standard “is
objective” is Braden. But Braden does not say that the duty of loyalty
is objective; instead, Braden says that ERISA’s “prudent person
standard is an objective standard.” See Braden, 588 F.3d at 595
(citation omitted and emphasis added)."

-App. 29aplaintiffs be required to plead something that they are not
required to prove. The law imposes no such requirement.
In sum, the Court finds that the concerns that
Dudenhoeffer expressed about prudence claims apply
with equal force to loyalty claims, and therefore that
judges must be as concerned about weeding out meritless
loyalty claims as they are about weeding out meritless
prudence claims. The Court also finds that the
“mechanism for weeding out meritless claims” described
in Dudenhoeffer—a rigorous application of the
Iqbal/Twombly plausibility standard—should be applied
to both loyalty and prudence claims. Dudenhoeffer, 134 S.
Ct. at 2471. This means identifying the elements that the
plaintiff must prove to recover on the particular claim and
ensuring that, with respect to each of those elements, that
the complaint pleads “enough facts” so that it “state[s] a
claim to relief that is plausible on its face.” Twombly, 550
U.S. at 570.
II. APPLICATION OF IQBAL AND TWOMBLY TO
PLAINTIFFS’ LOYALTY CLAIM
Applying the Iqbal/Twombly standard to plaintiffs’
loyalty claim, the Court finds that the claim is not
plausible, and thus the Court dismisses it.
To begin, the second amended complaint alleges that
the individual defendants breached their duty of loyalty by
“fail[ing] to avoid conflicts of interest.” ECF No. 186 ¶ 315.
It further alleges that defendants were “Wells Fargo
officers, employees, and Board members” who “were
incentivized to avoid doing or saying anything that would
harm the image or reputation of Wells Fargo . . . because
doing so would be reasonably likely to damage their
relationships within Wells Fargo and on the Board, and
thus harm their own careers or their places on the Board.”
Id. ¶ 317. But “the mere fact that a fiduciary had an

-App. 30aadverse interest does not by itself state a claim for relief.”
Morrison v. MoneyGram Int’l, Inc., 607 F. Supp. 2d 1033,
1058 (D. Minn. 2009). Specifically, ERISA does not
prohibit corporate officers from also serving as fiduciaries
of ESOPs. On the contrary, “[p]ersons who serve as
fiduciaries may also act in other capacities, even capacities
that conflict with the individual’s fiduciary duties. What
ERISA requires is that the fiduciary with two hats wear
only one [hat] at a time, and wear the fiduciary hat when
making fiduciary decisions.” Trustees of the Graphic
Commc’ns Int’l Union Upper Midwest Local 1M Health
& Welfare Plan v. Bjorkedal, 516 F.3d 719, 732 (8th Cir.
2008) (citation and internal punctuation omitted).
Plaintiffs concede that a fiduciary may serve as an
officer or employee of a company without violating
ERISA, but they claim that defendants went beyond
serving dual roles and breached their duty of loyalty by
“failing to disclose” “material information” about ongoing
misconduct at Wells Fargo. ECF No. 186 ¶¶ 321-22. But
this allegation still falls short of the mark. This Court has
previously held (following the lead of many other courts)
that ERISA should not be read to impose “an affirmative
duty on a corporate insider who acts as a fiduciary of a
defined-contribution plan to disclose to plan participants
nonpublic (i.e., ‘inside’) information about the corporation
that might affect the value of the corporation’s stock.”
Wright v. Medtronic, Inc., No. 09-CV-0443 (PJS/AJB),
2011 WL 31501, at *7 (D. Minn. Jan. 5, 2011). Rather,
“ERISA and the securities laws should be confined to
their respective spheres.” Id. “ERISA defines when a
fiduciary must disclose plan- and benefit-specific
information that is of interest to plan participants but not
to investors generally,” and “the securities laws define
when general financial and corporate information must be

-App. 31aprovided to the investing public—including, but obviously
not limited to, plan participants.” Id.
In this case, plaintiffs do not claim that defendants
misled them about “plan- and benefit-specific
information,” such as the terms of Wells Fargo’s 401(k)
plan. Cf. Braden, 588 F.3d at 598-600 (8th Cir. 2009)
(upholding a nondisclosure claim alleging that fiduciaries
failed to disclose material information about plan fund fees
and kickback payments). Instead, plaintiffs claim that
defendants failed to disclose inside corporate information
“that might affect the value of the corporation’s stock”—
information that would be of interest to every member of
the investing public. Wright, 2011 WL 31501, at *7. As the
Court held in Wright, defendants have no duty under
ERISA to disclose that information; any such duty would
arise under the securities laws, and, if defendants have
acted wrongly, they can be held accountable under those
laws. Id. Therefore, to the extent that plaintiffs’ loyalty
claim relies solely on defendants’ nondisclosure of inside
information about Wells Fargo’s present and future
financial condition, plaintiffs’ loyalty claim must be
dismissed.
A few paragraphs in the second amended complaint
could be read as alleging that defendants breached their
duty of loyalty not merely by failing to disclose inside
corporate information, but also by making affirmative
misrepresentations to the general public. See, e.g., ECF
No. 186 ¶¶ 146, 170-73, 322. And certainly, a fiduciary
“may not affirmatively miscommunicate or mislead plan
participants about material matters regarding their
ERISA plan when discussing a plan.” Kalda v. Sioux
Valley Physician Partners, Inc., 481 F.3d 639, 644 (8th
Cir. 2007) (citation and internal quotation marks omitted).

-App. 32aBut this does not save plaintiffs’ loyalty claim from
dismissal for several reasons.
First, the Court is not sure whether plaintiffs actually
mean to pursue an affirmative-misrepresentation claim.
In their brief, plaintiffs argue only that defendants
breached their duty of loyalty “[t]hrough their silence and
inaction.” ECF No. 202 at 23.
Second, if plaintiffs intended to plead an affirmativemisrepresentation claim, then they have abandoned it.
Defendants’ opening brief argued that any allegation in
the second amended complaint that defendants had “acted
disloyally by making misrepresentations” was insufficient
to state a claim for relief. ECF No. 198 at 23-24. Plaintiffs
said nothing in response to that specific argument. In fact,
plaintiffs’ response brief uses a form of the word
“misrepresent” only twice—once in a string cite for the
proposition that “courts have upheld conflict of interest
claims,” and once in a string cite for the proposition that
“Eighth Circuit precedent recognizes the ability, and even
the obligation, of fiduciaries to disclose material facts to
ERISA beneficiaries.” ECF No. 202 at 21-24.
Third, although a few paragraphs in the second
amended complaint could be read as alleging that
defendants made affirmative misrepresentations, nothing
in the complaint could be read as alleging that defendants
made such misrepresentations in their fiduciary
capacity. Public filings or communications that are “made
in a company’s corporate capacity—and not in its capacity
as an ERISA fiduciary—. . . do not, without more,
constitute fiduciary communications.” Morrison, 607 F.
Supp. 2d at 1054. The second amended complaint alleges
that defendants misled the general public in a media
interview, see ECF No. 186 ¶ 146; in Financial Industry
Regulatory Authority (“FINRA”) forms, id. ¶ 170-71; and

-App. 33ain a press release, see id. ¶¶ 172-73. None of these are
plausibly alleged to have been fiduciary communications.
Fourth, the second amended complaint does not allege
that plaintiffs chose to continue holding Wells Fargo stock
in their 401(k) account because of any affirmative
misrepresentation made by defendants. At best, the
second amended complaint only makes the general and
conclusory allegation that plaintiffs “lost a significant
portion of their retirement investments” “[a]s a direct and
proximate result of Individual Defendants’ fiduciary duty
breaches.” Id. ¶ 323. This allegation does not make
plausible any allegation of reliance. As this Court has
previously noted, “for plaintiffs to recover for defendants’
alleged misrepresentations to Plan participants, they
must show that a loss ‘result[ed] from’ the
misrepresentations.” Wright, 2011 WL 31501, at *4
(quoting 29 U.S.C. § 1109(a)). It is difficult to see “how a
loss could have ‘result[ed] from’ a misrepresentation made
to a Plan participant unless that participant read and
relied on the misrepresentation.” Id.
Fifth, and finally, the Court is skeptical that the
alleged misrepresentations identified in the second
amended complaint are actionable. For example, plaintiffs
allege that Wells Fargo falsely represented that it had
taken “deadly seriously” the accusation that its employees
had pushed unwanted products on customers. ECF No.
186 ¶ 146. This representation seems to be more of an
(unprovably false) statement of opinion rather than a
(provably false) statement of fact.
In short, plaintiffs allege that defendants acted
disloyally by failing to avoid conflicts of interest, by failing
to disclose inside corporate information to plan
participants, and (perhaps) by affirmatively misleading
the general public. For the reasons explained above, these

-App. 34aallegations are insufficient to make plausible the claim
that defendants breached their duty of loyalty under
ERISA. Therefore, plaintiffs’ loyalty claim is dismissed.
III. OTHER CLAIMS
In Count II of their second amended complaint,
plaintiffs replead their previously-dismissed prudence
claim solely for the purpose of preserving it for appeal.
The Court again dismisses this claim for the reasons
stated in its previous order. See In re Wells Fargo, 2017
WL 4220439, at *3-7.
Counts III and IV of the second amended complaint
are entirely derivative of Counts I and II in that they
allege that if one or more defendants breached the duty of
loyalty or prudence, other defendants should also be held
liable for that breach. Given that the Court has held that
plaintiffs have failed to plausibly allege that any of the
defendants breached their fiduciary duties under ERISA,
Counts III and IV also fail.
ORDER
Based on the foregoing, and on all of the files, records,
and proceedings herein, IT IS HEREBY ORDERED
that:
1.
Defendants’ motion to dismiss plaintiffs’
second amended complaint [ECF No. 196]
is GRANTED.
2.
Plaintiffs’ second amended complaint [ECF
No. 186] is DISMISSED WITH
PREJUDICE.
LET JUDGMENT BE ENTERED
ACCORDINGLY.
Dated: July 19, 2018

-App. 35as/Patrick J. Schiltz
Patrick J. Schiltz
United States District Judge

-App. 36a-

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Case No. 16-CV-3405 (PJS/BRT)
IN RE: WELLS FARGO ERISA
401(k) LITIGATION
ORDER

Adam J. Levitt, Daniel R. Ferri, and Amy E.
Keller, DICELLO LEVITT & CASEY LLC;
Robert K. Shelquist and Rebecca A. Peterson,
LOCKRIDGE GRINDAL NAUEN P.L.L.P.;
Richard M. Elias, Greg G. Gutzler, and Tamara M.
Spicer, ELIAS GUTZLER SPICER LLC; Lori G.
Feldman and Michael B. Ershowsky, LEVI &
KORSINSKY LLP; W. Daniel “Dee” Miles, III,
Rebecca D. Gilliland, and Claire E. Burns,
BEASLEY ALLEN CROW METHVIN PORTIS
& MILES, P.C.; Samuel E. Bonderoff, Jacob H.
Zamansky, Edward H. Glenn Jr., and Justin
Sauerwald, ZAMANSKY LLC; Carolyn G.
Anderson and June P. Hoidal, ZIMMERMAN
REED LLP; and Douglas J. Nill, DOUGLAS J.
NILL, PLLC, for plaintiffs.

-App. 37a-

Russell L. Hirschhorn, Joseph E. Clark, Howard
Shapiro, and Lindsey H. Chopin, PROSKAUER
ROSE LLP; and Kirsten E. Schubert and Stephen
P. Lucke, DORSEY & WHITNEY LLP, for
defendants.
This lawsuit—brought under the Employee
Retirement Income Security Act (“ERISA”), 29 U.S.C.
§ 1001 et seq.—is one of many actions in which “plaintiffs’
attorneys have taken what is essentially a securities fraud
action and pleaded it as an ERISA action in order to avoid
the demanding pleading requirements of the Private
Securities Litigation Reform Act of 1995 (‘PSLRA’), Pub.
L. 104–67, 109 Stat. 737.” Wright v. Medtronic, Inc., No.
09-CV-0443 (PJS/AJB), 2010 WL 1027808, at *1 (D. Minn.
Mar. 17, 2010). “Plaintiffs’ attorneys are able to evade the
PSLRA in this manner—as well as take advantage of the
strict duties imposed on fiduciaries by ERISA—by suing
not on behalf of those who purchased the stock of a
company as members of the investing public, but instead
on behalf of those who purchased the stock of a company
as participants in a defined-contribution plan sponsored
by that company.” Id.
In this lawsuit, the company at issue is defendant
Wells Fargo & Company (“Wells Fargo”), and the
plaintiffs at issue are current and former employees of
Wells Fargo who held the company’s stock in their 401(k)
accounts. The price of Wells Fargo stock dropped
sharply—and plaintiffs consequently suffered significant
losses—after Wells Fargo and the United States
government announced in September 2016 that thousands
of Wells Fargo employees had engaged in unethical sales
practices, including opening deposit accounts and issuing

-App. 38acredit cards without the knowledge or consent of
customers.
Plaintiffs allege that the fiduciaries of Wells Fargo’s
401(k) plan were corporate insiders who knew about the
improper sales practices long before the public
announcement. Plaintiffs now sue those fiduciaries,
arguing that they violated their duty of prudence under
ERISA by not disclosing the improper sales practices
prior to September 2016. According to plaintiffs, if the
fiduciaries had disclosed that inside information earlier,
the value of the Wells Fargo stock in plaintiffs’ 401(k)
accounts would not have dropped as much as it did
following the September 2016 announcement.
The Supreme Court considered a similar claim in Fifth
Third Bancorp. v. Dudenhoeffer, 134 S. Ct. 2459 (2014). In
Dudenhoeffer, the defendants argued that “the threat of
costly duty-of-prudence lawsuits will deter companies
from offering ESOPs to their employees.” Id. at 2470.
(“ESOPs” is an abbreviation for “employee stock
ownership plans.”) In response, the Supreme Court
emphasized that Fed. R. Civ. P. 12(b)(6)—as interpreted
in Ashcroft v. Iqbal, 556 U.S. 662 (2009), and Bell Atlantic
Corp. v. Twombly, 550 U.S. 544 (2007)—provides an
“important mechanism for weeding out meritless claims.”
Dudenhoeffer, 134 S. Ct. at 2471. The Supreme Court then
instructed district courts handling lawsuits challenging
the failure of ERISA fiduciaries to disclose inside
information to determine “whether the complaint has
plausibly alleged that a prudent fiduciary in the
defendant’s position could not have concluded that
. . . publicly disclosing negative information would do
more harm than good to the fund by causing a drop in the
stock price and a concomitant drop in the value of the
stock already held by the fund.” Id. at 2473.

-App. 39aThis is a very tough standard. Trying to predict the
impact of anything on the price of a company’s stock—like
trying to predict the impact of an athlete’s injury on an
upcoming game or the impact of a politician’s gaffe on an
upcoming election—is a highly speculative endeavor. An
ERISA fiduciary who is trying to figure out whether
earlier disclosure of negative inside information would
have more or less of an impact on a stock’s price than later
disclosure of that negative information is trying to predict
the future on the basis of information that is incomplete,
imperfect, and fluid. In light of the inherently uncertain
nature of this task, plaintiffs will only rarely be able to
plausibly allege that a prudent fiduciary “could not” have
concluded that a later disclosure of negative inside
information would have less of an impact on the stock’s
price than an earlier disclosure. Id. (emphasis added).
This is not that rare case. Plaintiffs have not plausibly
alleged that defendants could not have concluded that an
earlier disclosure of the unethical sales practices would
have done more harm than good. The Court therefore
dismisses plaintiffs’ amended complaint.
I. BACKGROUND
Wells Fargo sponsors a 401(k) plan (“the Plan”) for its
employees. ECF No. 54 ¶ 55. Eligible employees may
contribute their own money to their individual 401(k)
accounts. Id. ¶ 58. If they do, Wells Fargo matches their
contributions, dollar-for-dollar, up to a certain amount. Id.
¶ 61; ECF No. 116-1 § 5.1(a).
Two of the Plan’s investment funds—the Wells Fargo
Non-ESOP Fund and the Wells Fargo ESOP Fund—
“consist primarily of shares of Company Stock.” ECF No.
116-1 § 8.1(a)-(b). Wells Fargo’s matching contributions
are also “invested automatically in Wells Fargo stock.”
ECF No. 54 ¶ 62. At any given time, then, a large portion

-App. 40aof the Plan’s assets is invested in Wells Fargo stock. See
id. ¶ 60 (estimating that “approximately 34% of the 401(k)
Plan Assets . . . were invested in Wells Fargo common
stock” in 2016). Wells Fargo employees are not required
to keep their 401(k) money invested in Wells Fargo stock.
They may transfer their money into “any other
Investment Fund” maintained by the Plan, including
funds that do not invest in Wells Fargo stock. ECF No.
116-1 § 8.6(a).
The amended complaint alleges that Wells Fargo has
been engaging in widespread unethical sales practices
since at least 2005. See ECF No. 54 ¶¶ 88-103, 112, 163.
For example, Wells Fargo opened more than 1.5 million
deposit accounts for customers without their
authorization. Id. ¶¶ 92, 102. Wells Fargo also submitted
over 500,000 credit-card applications for customers
without their permission. Id. ¶¶ 93, 102. Because of these
improper sales practices, “federal banking regulators
announced [in September 2016] that Wells Fargo had
been fined $185 million.” Id. ¶ 169. That was the first
public disclosure of the unethical sales practices, and the
market value of Wells Fargo’s stock fell in response to the
disclosure. Id. ¶¶ 175, 186, 199.
Plaintiffs allege that the Plan’s fiduciaries—who were
also corporate insiders— “were aware of systemic
criminal and unethical conduct at the Company since as
early as 2005,” yet they failed to disclose this fraud to the
public. Id. ¶ 163. Plaintiffs claim that earlier disclosure
would have mitigated the impact on Wells Fargo’s stock
price that would inevitably result from the disclosure of
Wells Fargo’s fraud. See id. ¶ 208 (“Defendants . . . knew
that . . . the longer the fraud is permitted to fester, and the
longer the fraud is concealed, the greater the inflation and
the greater the ultimate damage upon revelation—which

-App. 41ais precisely what happened here.”); id. ¶ 220 (“[T]he
lengthy cover-up made the situation far worse for Plan
Participants.”). Plaintiffs also allege that the Plan’s
fiduciaries acted imprudently by failing to take other
corrective measures to protect participants, such as
“implementing processes to stop the known fraud”;
temporarily freezing stock purchases and sales to prevent
Plan participants from purchasing more Wells Fargo
stock at inflated prices; “[d]iscontinuing the automatic
investment” of matching contributions in Wells Fargo
stock; or purchasing a hedging product. Id. ¶ 229.
II. ANALYSIS
Plaintiffs allege that defendants violated their duties
of prudence and loyalty under ERISA. See 29 U.S.C.
§ 1104(a)(1)(A)-(B). The Court will address each of these
duties in turn.
A. Duty of Prudence
ERISA requires plan fiduciaries to manage their plans
prudently. 29 U.S.C. § 1104(a)(1)(B). ERISA generally
allows fiduciaries to invest plan assets “in the stock of the
company that employs the plan participants.”
Dudenhoeffer, 134 S. Ct. at 2463, 2465-66; see also 29
U.S.C. § 1104(a)(2) (exempting employee stock ownership
plans from ERISA’s diversification requirement). But in
some situations, it may be imprudent for a fiduciary to
allow plan participants to invest in overpriced stock.
As a general matter, plan fiduciaries may “prudently
rely on the market price” of a publicly-traded stock as “the
best estimate of” its value. Dudenhoeffer, 134 S. Ct. at
2471 (citation omitted). In other words, the duty of
prudence does not require plan fiduciaries to “outsmart a
presumptively efficient market.” Id. at 2472 (citation
omitted). Therefore, “allegations that a fiduciary should
have recognized from publicly available information alone

-App. 42athat the market was over- or undervaluing the stock are
implausible as a general rule, at least in the absence of
special circumstances.” Id. at 2471.
One such “special circumstance” occurs when a
fiduciary has inside information that a publicly-traded
stock is overpriced. See id. at 2472. In this situation, a
fiduciary cannot rely on the stock’s market price, because
the fiduciary knows that the market price is inflated. But
fiduciaries nevertheless face “unique challenges” when
they are accused of imprudently “fail[ing] to act on inside
information they had about the value of the employer’s
stock.” Amgen Inc. v. Harris, 136 S. Ct. 758, 759 (2016)
(latter quote from Dudenhoeffer, 134 S. Ct. at 2469). One
obvious challenge is that it is illegal for anyone, including
the fiduciary of an ERISA plan, to trade on the basis of
inside information. ERISA’s duty of prudence does not
“require an ESOP fiduciary to perform an action—such as
divesting the fund’s holdings of the employer’s stock on
the basis of inside information—that would violate the
securities laws.” Dudenhoeffer, 134 S. Ct. at 2472.
Given the difficult situation facing an ERISA
fiduciary, the Supreme Court in Dudenhoeffer established
a demanding pleading standard for “a claim for breach of
the duty of prudence on the basis of inside information.”
Id. To withstand a motion to dismiss such a claim, “a
plaintiff must plausibly allege [1] an alternative action that
the defendant could have taken [2] that would have been
consistent with the securities laws and [3] that a prudent
fiduciary in the same circumstances would not have
viewed as more likely to harm the fund than to help it.” Id.
Here, plaintiffs’ amended complaint meets only two of
these three requirements.

-App. 43a1. An Alternative Action
The amended complaint identifies five alternative
actions that the Plan’s fiduciaries could have taken to
protect the Plan’s assets. According to the amended
complaint, the Plan’s fiduciaries could have (1)
implemented processes to stop the fraud; (2) disclosed the
fraud to Plan participants, the government, and the
public; (3) frozen “further stock purchases (and sales)” to
“prevent[] Plan Participants from purchasing billions of
dollars of Wells Fargo stock at fraudulently-inflated
values”; (4) stopped matching employer contributions in
Wells Fargo stock; and (5) purchased a “hedging product”
to offset the anticipated losses that the Plan would incur
when Wells Fargo’s unethical sales practices came to
light. ECF No. 54 ¶ 229.
The implementation of any of these alternatives would
have required disclosure, however. Obviously, the
disclosure alternative would have required disclosure, but
the fiduciaries could not have implemented any of the
other alternatives without also disclosing the unethical
sales practices. Thus, if the fiduciaries did not violate their
duty of prudence when they failed to disclose, they also did
not violate their duty of prudence by failing to take the
other steps. Plaintiffs admitted as much at oral argument.
See ECF No. 161 at 74 (conceding that the other
alternatives are “entirely derivative of a disclosure
action,” so if plaintiffs “haven’t adequately pled a
disclosure claim,” the other alternatives “fall with it”).1
1

In fact, removing a fund as an investment option “without
explanation might be even worse” than straight-up disclosure.
Saumer v. Cliffs Nat. Res. Inc., 853 F.3d 855, 864 (6th Cir. 2017).
Removing a fund as an investment option without explanation “signals
that something may be deeply wrong inside [the] company” without
giving the market enough “information to gauge the stock’s true

-App. 44aThe Court will therefore focus on the disclosure
alternative.
2. Consistent with the Securities Laws
Defendants argue that early disclosure would have
been inconsistent with the securities laws, because, they
say, the securities laws do not require them to
“immediately” disclose “all information that might
conceivably affect” Wells Fargo’s stock price. ECF No.
115 at 18 (quoting In re Bos. Sci. Corp. Sec. Litig., 686
F.3d 21, 27 (1st Cir. 2012)). But defendants do not argue
that early disclosure would have violated any “provision of
the securities laws.” ECF No. 161 at 100. This is not
surprising, as one of the main goals of the securities laws
is to curb fraud and insider trading. Thus, an early
disclosure of Wells Fargo’s unethical sales practices would
have been consistent with both the letter and the spirit of
the securities laws.
3. More Harm Than Good
The problem for plaintiffs is the third Dudenhoeffer
requirement—viz., the requirement that they plausibly
allege that “a prudent fiduciary in the defendant’s position
could not have concluded that . . . publicly disclosing
negative information would do more harm than good to
the fund by causing a drop in the stock price and a
concomitant drop in the value of the stock already held by
the fund.” Dudenhoeffer, 134 S. Ct. at 2473.
This is a “fact-sensitive inquiry.” Harris v. Amgen,
Inc., 788 F.3d 916, 926 (9th Cir. 2014) (Kozinski, J.,
dissenting from denial of rehearing en banc). The
fiduciary’s decision should not be “evaluated from the
‘vantage point of hindsight.’” In re Target Corp. Sec.
value.” Harris v. Amgen, Inc., 788 F.3d 916, 925-26 (9th Cir. 2014)
(Kozinski, J., dissenting from denial of rehearing en banc)

-App. 45aLitig., No. 16-CV-1315 (JNE/BRT), 2017 WL 3267708, at
*19 (D. Minn. July 31, 2017) (quoting Roth v. SawyerCleator Lumber Co., 16 F.3d 915, 918 (8th Cir. 1994)). And
a prudent fiduciary may—indeed, must—consider
numerous factors in determining whether disclosure
would cause a fund more harm than good.
For example, just how serious is the alleged fraud?
See Smith v. Delta Air Lines Inc., 619 F. App’x 874, 876
(11th Cir. 2015) (dismissing a complaint that did not
allege that “the fiduciaries had material inside
information about [the company’s] financial condition”).
How much would disclosure affect the company’s stock
price in the short run? How about in the long run? See
Harris, 788 F.3d at 926. How many shares of company
stock does the Plan currently own? How many
additional shares will Plan participants purchase if
disclosure is delayed for a month? Or a year? See In re
Pilgrim’s Pride Stock Inv. Plan ERISA Litig., No. 2:08CV-472-JRG-RSP, 2016 WL 8814356, at *3, report and
recommendation adopted, ECF No. 203 (E.D. Tex. Oct.
4, 2016) (rejecting the plaintiffs’ argument that earlier
disclosure would have been better for the fund partly
because “[t]he million-plus shares already in the Plan
dwarf the small number that would have been added in
any given month by contributions to the Plan”).
Then there are factors that relate to the timing and
form of any disclosure. See Harris, 788 F.3d at 926
(noting that a “badly timed withdrawal could cause the
stock value to drop below its efficient-market level”).
How confident is the fiduciary that he or she has all
relevant information, so that a single complete and
accurate disclosure can be made? Should the fiduciary
wait to get more information before disclosing the fraud
so as to avoid a piecemeal “releas[e of] a disparate array

-App. 46aof half-truths and incomplete data to the market”? Id. at
927.
Should the fiduciary wait until the company’s fraud
can be disclosed simultaneously with some remedial
action, such as a settlement with the SEC, the
resignation of the company’s CEO, or the rollout of a
new company initiative to win back its customers’ trust?
Being able to pair an announcement of fraud with an
announcement of remedial action may cushion the bad
news and thus mitigate the drop in the stock price. Also,
would it be more beneficial to disclose the fraud through
normal channels rather than through the fiduciaries of a
401(k) plan? See Graham v. Fearon, No. 1:16 CV 2366,
2017 WL 1113358, at *5 (N.D. Ohio Mar. 24, 2017)
(observing that “an ‘unusual’ disclosure outside the
securities laws’ normal reporting regime could ‘spook’
the market, causing a more significant drop in price than
if the disclosure were made through the customary
procedures” (quoting In re BP P.L.C. Sec. Litig., No.
4:10- CV-4214, 2017 WL 914995, at *5 (S.D. Tex. Mar. 8,
2017))).
This list of considerations is not exhaustive, of
course. But it is sufficient to make the point that an
earlier disclosure is not always better than a later
disclosure. A dozen fiduciaries in the same position could
weigh the same factors and reach a dozen different (but
equally prudent) conclusions about whether, when, how,
and by whom negative inside information should be
disclosed.
Perhaps for that reason, most post-Dudenhoeffer
cases have come down on the side of the defendants.2
2

Two notable exceptions are Murray v. Invacare Corp., 125 F.
Supp. 3d 660, 667-69 (N.D. Ohio 2015) and Ramirez v. J.C. Penney
Corp., No. 6:14-CV-601-MHS-KNM, 2015 WL 5766498, at *4-5 (E.D.

-App. 47aFor example, in Loeza v. John Does 1-10, 659 F. App’x
44 (2d Cir. 2016), a group of JPMorgan employees
argued that the fiduciaries of JPMorgan’s 401(k) plan
acted imprudently by failing to disclose fraud to the
public. There, as here, the plaintiffs claimed that earlier
disclosure “would not have caused the Fund more harm
than good because ‘the longer a fraud goes on, the more
painful the [stock price] correction would be, as
experienced finance executives . . . reasonably should
have known.’” Id. at 45-46 (citation omitted). The Second
Circuit, however, held that these allegations were
“wholly conclusory and . . . insufficient” to meet
Dudenhoeffer’s pleading standard. Id. at 46.
Similarly, in Saumer v. Cliffs Natural Resources
Inc., 853 F.3d 855 (6th Cir. 2017), the plaintiffs claimed
that plan fiduciaries should have divulged inside
information about the company “so that the market
would correct downward and the fiduciary would cease
buying [the employer’s] stock at an inflated price.” Id.
at 863. But disclosing this information “would have
collapsed [the employer’s] stock price, hurting
participants already invested in the” fund. Id. at 864.
Therefore, the Sixth Circuit rejected the “plaintiffs’
nonpublic-information claims.” Id. at 865. Similarly, in
Whitley v. BP, P.L.C., 838 F.3d 523 (5th Cir. 2016), the
Fifth Circuit held that a prudent fiduciary “could very
easily conclude” that early disclosure of BP’s past safety
Tex. Sept. 29, 2015). But Murray relied heavily on a Ninth Circuit
decision that was later reversed by the United States Supreme Court
in Amgen Inc. v. Harris, 136 S. Ct. 758, 759-60 (2016). And Ramirez
likewise predated Amgen. See Graham v. Fearon, No. 1:16 CV 2366,
2017 WL 1113358, at *4 & n.5 (N.D. Ohio Mar. 24, 2017); In re BP
P.L.C. Sec. Litig., No. 4:10-CV-4214, 2017 WL 914995, at *3 & n.7
(S.D. Tex. Mar. 8, 2017).

-App. 48abreaches “would do more harm than good” to the plan.
Id. at 529.
Courts have even dismissed breach-of-prudence
claims when plaintiffs have made quite specific
allegations about the likely impact of disclosure on the
plan. For example, in Forte v. U.S. Pension Committee,
No. 15-CV-4936 (PKC), 2016 WL 5922653 (S.D.N.Y.
Sept. 30, 2016), the plaintiff alleged that “purchasers,
who were harmed, outnumbered the sellers, who
benefitted, by more than two to one.” Id. at *5. That
specificity did not satisfy the district court, which
dismissed the plaintiff’s claim on standing grounds but
faulted the plaintiff for failing to “plead any facts to
support his broad contention that ‘in virtually every
fraud case, the longer the fraud persists, the harsher the
[price] correction tends to be.’” Id. at *10 (citation
omitted). Similarly, in Graham, the plaintiffs alleged
that disclosure “near the very beginning of” the fraud
would have avoided “almost all of the artificial inflation
of [the employer’s] stock price that occurred” while
harming “virtually no Plan participants.” Graham, 2017
WL 1113358, at *5. And in BP, the plaintiffs offered
expert analysis stating that an earlier disclosure “would
likely have resulted in” a mere 3 to 5% drop in the stock
price, instead of the nearly 50% drop that later occurred
after the April 2010 Deepwater Horizon explosion. BP,
2017 WL 914995, at *4-5 (citation omitted). Yet in both
Graham and BP, the courts dismissed the plaintiffs’
prudence claims because the plaintiffs had failed to
plausibly allege that a prudent fiduciary could not have
concluded that disclosure would have caused the plan
more harm than good.
Plaintiffs argue that their case is different because it
involves fraud that was ongoing at the time that

-App. 49adefendants failed to disclose. Ongoing fraud is certainly
one factor that a prudent fiduciary might consider in
deciding whether early disclosure would better protect
the plan’s assets; after all, disclosing the fraud will
usually end the fraud, and less fraud will usually mean
less damage to the company. But ongoing fraud is not a
talisman that will always satisfy Dudenhoeffer’s
pleading standard. Rather, it is simply another “factor[]
[that] Defendants might have considered when deciding
whether to make” an earlier disclosure. In re JPMorgan
Chase & Co. ERISA Litig., No. 12-CV-4027 (GBD), 2016
WL 110521, at *4 (S.D.N.Y. Jan. 8, 2016), aff’d sub. nom.
Loeza v. John Does 1-10, 659 F. App’x 44 (2d Cir. 2016).
Here, the alleged presence of ongoing fraud does not
save plaintiffs’ prudence claim for at least two reasons:
First, other courts have rejected similar ongoingfraud claims. In Martone v. Whole Foods Market, Inc.,
No. 1:15-CV-877 RP, 2016 WL 5416543 (W.D. Tex. Sept.
28, 2016), for example, the plaintiffs alleged that Whole
Foods’ grocery stores “systematically overcharg[ed]
customers for pre-packaged foods.” Id. at *1. This fraud
went on for years. Id. And like plaintiffs here, the
plaintiffs in Whole Foods alleged that the negative
impact of Whole Foods’ fraud “w[ould] only get worse
the longer the fraud goes on.” Id. at *8. Even so, the
court dismissed the plaintiffs’ claims, reasoning that “a
prudent fiduciary could very easily conclude that
[corrective] actions would do more harm than good.” Id.
(quoting Whitley, 838 F.3d at 529).
At oral argument, plaintiffs tried to distinguish
Whole Foods by arguing that the fraud in that case was
not as bad as the fraud here. See ECF No. 161 at 47-49.
Specifically, plaintiffs claimed that the fraud in Whole
Foods did not go to the “core of the company’s business,”

-App. 50awhile the fraud here went to the core of Wells Fargo’s
“reputation” for putting its “customer[s] first.” Id. at 49.
The Court disagrees. A grocery store’s systematic
overcharging of its customers is as serious a matter as a
bank’s overly aggressive cross selling.
Second, and more importantly, a fiduciary’s
prudence or imprudence must be assessed in light of the
“totality of the circumstances.” Tatum v. RJR Pension
Inv. Comm., 761 F.3d 346, 368 (4th Cir. 2014) (emphasis
added; hyphens removed); see also Dudenhoeffer, 134 S.
Ct. at 2471 (describing this inquiry as “necessarily
. . . context specific”). The presence of ongoing fraud
may weigh in favor of earlier disclosure. But other
factors may weigh in favor of later disclosure. In this
case, for example, a large percentage of the Plan’s assets
was already invested in Wells Fargo stock. A prudent
fiduciary might have concluded that, although delaying
disclosure would result in a relatively small number of
shares of overpriced Wells Fargo stock being added to
the Plan, delaying disclosure would nevertheless benefit
the Plan because it would allow the company to make a
more complete and accurate disclosure, to pair a
disclosure with an announcement of remedial measures,
and to disclose through regular corporate channels
rather than through 401(k) fiduciaries—all of which
would help to mitigate the impact of disclosure on the
price of Wells Fargo stock. See Harris, 788 F.3d at 92627; Graham, 2017 WL 1113358, at *5.
In short, plaintiffs’ prudence claim largely rests on
their conclusory assertion that early disclosure of
corporate misconduct is always better for a plan than
later disclosure. That assertion is simply not true, as
multiple courts have recognized. Plaintiffs have failed to
plead specific facts to make plausible their allegation

-App. 51athat, under the circumstances of this particular case, a
prudent fiduciary “could not have concluded” that a
later disclosure would result in a smaller loss to the
Fund than an earlier disclosure. Dudenhoeffer, 134 S.
Ct. at 2473. Plaintiffs’ prudence claim must therefore be
dismissed.
B. Duty of Loyalty
An ERISA fiduciary is required not only to act with
prudence, but also to act with loyalty—that is, “solely in
the interest of the participants and beneficiaries
and . . . for the exclusive purpose of . . . . providing
benefits to participants and their beneficiaries.” 29 U.S.C.
§ 1104(1)(A)(i). In their briefs and then at oral argument,
plaintiffs insisted that they pleaded a breach-of-the-dutyof-loyalty claim that was independent from their breachof-the-duty-of-prudence claim. In other words, plaintiffs
argued that even if their prudence claim were to be
dismissed under Dudenhoeffer, they should be permitted
to proceed with their loyalty claim.
In fact, though, the amended complaint does not
clearly separate these two claims—that is, it does not
clearly explain how, say, defendants’ failure to make an
earlier disclosure of the unethical sales practices could
violate their duty of loyalty even if it did not violate their
duty of prudence. The Court will therefore dismiss
plaintiffs’ loyalty claim with leave to replead the claim in a
second amended complaint. If plaintiffs replead their
loyalty claim, they should specify exactly who breached
his or her duty of loyalty, exactly when, and exactly how.
After that, defendants may move to dismiss the claim. The
Court can then decide whether Dudenhoeffer’s pleading
requirements apply to a loyalty claim that is predicated on
the same facts as a (dismissed) prudence claim.

-App. 52aC. Fiduciary Status
Defendants argue that Wells Fargo, the Plan
administrators, and the Human Resources Committee
were not ERISA fiduciaries. Nothing seems to turn on
this argument as a practical matter. In any event, the
Court need not reach this question as to plaintiffs’
prudence claim because that claim is being dismissed
under Dudenhoeffer. If plaintiffs replead their loyalty
claim, defendants may reassert this argument in moving
to dismiss that claim.
ORDER
Based on the foregoing, and on all of the files, records,
and proceedings herein, IT IS HEREBY ORDERED
THAT:
1. Defendants’ motion to dismiss plaintiffs’
amended complaint [ECF No. 113] is
GRANTED.
2. Plaintiffs’ amended complaint is DISMISSED
WITH PREJUDICE, except that plaintiffs’
claim that defendants breached their duty of
loyalty under ERISA is DISMISSED
WITHOUT PREJUDICE.
3. Plaintiffs may file a second amended complaint
by Friday, October 27, 2017, in which they may
replead their loyalty claim.
Dated: September 21, 2017
s/Patrick J. Schiltz
Patrick J. Schiltz
United States District Judge

-App. 53a-

APPENDIX D

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MINNESOTA
Case No. 0:16-cv-03405 (PJS/BRT)
IN RE: WELLS FARGO
ERISA 401(K) LITIGATION

SECOND AMENDED CONSOLIDATED CLASS
ACTION COMPLAINT

Dated: October 27, 2017

-App. 54aTABLE OF CONTENTS
I.
II.
III.
IV.
V.
A.
B.
C.

D.

E.
F.
G.

H.

I.

NATURE OF THE ACTION .................................1
JURISDICTION AND VENUE............................4
PARTIES .................................................................. 4
DEFENDANT’S FIDUCIARY DUTIES ..........13
THE PLAN ..............................................................18
Wells Fargo Touted its Reputation for Trust
and Integrity ........................................................... 20
Cross-Selling Was Critical to Wells Fargo’s
Business Model ........................................................22
The Truth: Wells Fargo’s Cross-Selling
Metrics were a Façade, Masking a Rampant
Fake Accounts Scam. ..............................................27
Wells Fargo Senior Management Structured,
Implemented, and Rewarded the Systemic
Fraud ........................................................................32
The Plan Fiduciaries Knew About the Fraud,
Yet Concealed It For Their Own Benefit.............35
The OCC Investigation ...........................................49
Senior Management and Plan Fiduciaries
Enriched Themselves While Perpetuating
and Concealing the Fraud, Which Shows That
They Did Not Make Their Fiduciary
Decisions With The Exclusive Purpose of
Benefiting the Plan. ................................................53
The Inevitable Revelation of the Fraud
Destroyed Well Fargo’s Reputation and Its
Stock Price. ..............................................................54
Defendants Violated Their Fiduciary Duties
to the Plan ................................................................66

-App. 55aJ. Duty of Prudence: No Prudent Fiduciary
Could Have Concluded That Alternative
Actions For The Plan Would Have Cause
More Harm Than Good; Defendants’ Failure
to Consider and Implement Alternative
Actions Damaged The Plan....................................71
VI. CLASS ACTION ALLEGATIONS .....................84
VII. CLAIMS FOR RELIEF UNDER ERISA ........88
COUNT I ........................................................................89
COUNT II ......................................................................92
COUNT III ....................................................................94
COUNT IV .....................................................................96
VIII. CAUSATION..........................................................99
IX. REQUEST FOR RELIEF ..................................99

-App. 56aPlaintiffs, Francesca Allen, John Sterling Ross, and
Mary Lou Shank (collectively, “Plaintiffs”), individually
and on behalf of all other similarly-situated participants
in, and beneficiaries of, Wells Fargo & Company’s 401(k)
Plan (the “Class”), by their undersigned counsel, bring
this Second Amended Consolidated Class Action
Complaint against the defendants listed herein
(collectively “Defendants,” as defined below), for their
violations of Sections 409 and 502 of the Employee
Retirement Income Security Act (“ERISA”), 29 U.S.C.
§§ 1109 and 1132, alleging as follows:
I.
NATURE OF THE ACTION
“We found that Wells Fargo’s business model
imposed unrealistic sales quotas that, among other
things, incentivized employees to engage in highly
aggressive sales practices, creating the conditions for
unlawful activity….”
Michael N. Feuer,
Los Angeles City Attorney
September 20, 2016
“Failing to notify these customers about these sham
accounts, this isn’t cross-selling, this is fraud.”
Senator Pat Toomey (R-PA)
September 20, 2016
“When the Independent Directors of the Board
authorized this investigation, the purpose was to
examine the root causes of sales practice abuses and
to assess how issues of corporate structure and
culture as well as individual actions contributed to
the injuries inflicted upon Wells Fargo’s customers
and the extraordinary damage to Wells Fargo’s brand
and reputation, not merely to determine
compensation or disciplinary action.”

-App. 57aApril 10, 2017 Independent
Directors of the Board of Wells
Fargo & Company Sales
Practices Investigation Report
1.
Plaintiffs – Wells Fargo & Company (“Wells
Fargo” or the “Company”) “team members” and
participants in Wells Fargo’s 401(k) Plan (the “Plan”) –
bring this action concerning the Plan’s investments in
Wells Fargo stock individually, as representatives of the
Plan and on behalf of a class of all Plan participants and
beneficiaries (collectively “Participants”) for whose
individual accounts the Plan invested in funds that
invested primarily in Wells Fargo stock from January 1,
2014 through September 15, 2016 (the “Class Period”).
2.
Wells Fargo recently stated that it is
“committed to helping [its] clients achieve their
investment goals through advice that is regularly
reviewed and aligned to their objectives and risk
tolerance.” As described herein, Wells Fargo and its Plan
fiduciaries failed to show the same commitment to Plan
Participants.
3.
As is now well known, Wells Fargo was plagued
for years by a fraud epidemic, in which its low-level
employees were incentivized and pressured to open
millions of unauthorized accounts in the names of
unsuspecting Wells Fargo customers. Revelation of the
fraud undermined critical components of Wells Fargo’s
business model and key drivers of its stock price – crossselling and a reputation for truthfulness and integrity.
4.
Initially, when the fraud was revealed in
September 2016, Wells Fargo admitted to the opening of
approximately 2 million unauthorized accounts. In August
2017, however, Wells Fargo revealed that it had, in fact,
opened at least 3.5 million unauthorized accounts.

-App. 58a5.
Defendants, which include high-level Wells
Fargo executives and Board members, knew about the
epidemic for years, but failed to take any steps to stem the
fraud and, indeed, facilitated and fostered further fraud
by not disclosing it to the public.
6.
Defendants breached their duties of loyalty to
Plan Participants by failing to avoid conflicts of interests
which prevented them from taking any corrective actions,
including removing Wells Fargo stock as an investment
option, that would have prevented Plan participants from
purchasing inflated stock; and also by improperly
withholding from Plan Participants material, non-public
information about the long-running fraud epidemic.
7.
Defendants did not act for the exclusive purpose
of benefiting the Plan. Rather, they acted for their own
benefit by not daring to disrupt the status quo (which was
a culture of greed), to protect their own careers.
Defendants’ choice to maintain their own positions and
enhance their own financial interests by leaving Plan
Participants in the dark and continually investing Plan
Assets in stock that they knew to be artificially inflated is
the epitome of disloyalty.
8.
Even after Defendants knew that Wells Fargo’s
stock price was destined to drop upon the eventual public
disclosure, and would only drop more significantly the
longer the ongoing fraud epidemic was allowed to
continue, Defendants failed to take any actions to protect
Plan Participants from purchasing artificially-inflated
Wells Fargo stock.
9.
Thus, Defendants violated their ERISA
fiduciary duties to the Plan Participants, causing
hundreds of millions of dollars, if not more, in losses to the
Plan.

-App. 59aII.
JURISDICTION AND VENUE
10. Plaintiffs bring this action pursuant to 29 U.S.C.
§ 1132(a)(2) and (3), which provide that participants in an
employee retirement plan may pursue a civil action on
behalf of the plan to remedy breaches of fiduciary duties
and other prohibited conduct, and to obtain monetary and
appropriate equitable relief as set forth in 29 U.S.C.
§§ 1109 and 1132.
11. This case presents a federal question under
ERISA, and, therefore, this Court has subject matter
jurisdiction pursuant to 28 U.S.C. § 1331 and 29 U.S.C.
§ 1132(e)(1).
12. Venue is proper pursuant to 29 U.S.C.
§ 1132(e)(2) and 28 U.S.C. § 1391(b) and, based on
information and belief, because this is the district where
the Plan is administered and where breaches of fiduciary
duties giving rise to this action occurred.
III. PARTIES
Plaintiffs
13. Francesca Allen is a Plan Participant, within the
meaning of ERISA § 3(7), 29 U.S.C. § 1002(7), who
purchased and held, through the end of the Class Period,
Wells Fargo shares in her retirement investment portfolio
during the Class Period. From at least 2013 through the
present, Ms. Allen’s 401(k) Plan assets have included the
Wells Fargo employee stock ownership plan (“ESOP”)
and Non-ESOP Funds.
14. John Sterling Ross is a Plan Participant, within
the meaning of ERISA § 3(7), 29 U.S.C. § 1002(7), who
purchased and held, through the end of the Class Period,
Wells Fargo shares in his retirement investment portfolio
during the Class Period. From at least 2013 through the

-App. 60apresent, Mr. Ross’s 401(k) Plan assets have included the
Wells Fargo ESOP and Non-ESOP Funds.
15. Mary Lou Shank is a Plan Participant, within
the meaning of ERISA § 3(7), 29 U.S.C. § 1002(7), who
purchased and held Wells Fargo shares in her retirement
investment portfolio during the Class Period. From at
least 2013 through the present, Ms. Shank’s 401(k) Plan
assets have included the Wells Fargo ESOP Fund.
Defendants
16. ERISA requires every plan to provide for one or
more named fiduciaries who will have “authority to control
and manage the operation and administration of the plan.”
ERISA § 402(a)(1), 29 U.S.C. § 1102(a)(1).
17. ERISA treats as fiduciaries not only persons
explicitly named as fiduciaries under § 402(a)(1), 29 U.S.C.
§ 1102(a)(1), but also any other persons who, in fact,
perform fiduciary functions. Therefore, a person is a
fiduciary to the extent: “(i) he exercises any discretionary
authority
or
discretionary
control
respecting
management of such plan or exercises any authority or
control respecting management or disposition of its
assets, (ii) he renders investment advice for a fee or other
compensation, direct or indirect, with respect to any
moneys or other property of such plan, or has any
authority or responsibility to do so, or (iii) he has any
discretionary authority or discretionary responsibility in
the administration of such plan.” ERISA § 3(21)(A)(i), 29
U.S.C. § 1002(21)(A)(i).
18. Each of the named Defendants was a fiduciary
during the Class Period as defined by ERISA Section
3(21)(A), 29 U.S.C. § 1002(21)(A) – either as a named
fiduciary or de facto fiduciary – with respect to the Plan,
and owed fiduciary duties to the Plan and its Participants
under ERISA.

-App. 61aA.
Wells Fargo & Company
19. With $1.5 trillion in assets, Wells Fargo is one of
the nation’s largest financial services companies. Wells
Fargo is the Plan “sponsor” within the meaning of 29
U.S.C. § 1002(16)(B), is a participating employer in the
Plan, and provides funding for the Plan.
20. On information and belief, through its selection,
management and supervision of the Human Resources
Committee, the Employee Benefits Review Committee
(“EBRC”), the Director of Human Resources, and the
Director of Compensation and Benefits, Wells Fargo
exercises discretionary authority or discretionary control
concerning management of the Plan, as well as
discretionary authority and responsibility with respect to
the administration of the Plan. Therefore, the Company is
a fiduciary under 29 U.S.C. § 1002(21)(A).
B.
Director of Human Resources and Director of
Compensation and Benefits
21. The Plan Administrators, the Wells Fargo
Director of Human Resources, Hope Hardison, and the
Wells Fargo Director of Compensation and Benefits,
Justin Thornton, are “Named Fiduciar[ies]” under the
Plan. Plan § 2.29.1 The Plan Administrators are
empowered “[t]o adopt and enforce such rules and
regulations and prescribe the use of such forms as may be
necessary to carry out the provisions of the Plan,” Plan
§ 12.3(a), and they have “sole authority … to make any
determinations required in the administration of the
Plan.” Plan § 12.1. As the Plan Administrators, they have
full discretionary authority to administer and interpret
1

Unless otherwise noted, all citations to the “Plan” refer to the
Wells Fargo & Company 401(k) Plan, as Amended and Restated
January 1, 2015

-App. 62athe Plan and, therefore, are fiduciaries pursuant to 29
U.S.C. § 1002(21)(A).
C.
Wells Fargo Employee Benefits Review
Committee (EBRC)
22.
Per the Wells Fargo Summary Plan
Description, the investment options offered within the
401(k) Plan are monitored and reviewed periodically by
the EBRC, which has “authority to control or manage the
assets of the Plan.” Plan § 2.29. Therefore, the EBRC and
its members are fiduciaries under 29 U.S.C. § 1002(21)(A).
23. The Trust Agreement further states that the
EBRC “shall direct the Trustee as to matters involving
the investment of the Trust Fund,” Trust Agreement
§ 1.4, and “shall manage and control the Plan assets held
in the Trust Fund, and the Trustee shall be subject to the
directions of the [EBRC] or an Investment Manager, if
applicable, at all times regarding the investments of the
Trust Fund and other matters herein.” Trust Agreement
§ 3.1(a).
24. The EBRC members were all senior executives
with vested interests in maintaining the corrupt status
quo and inflating the Company’s cross-selling metrics.
They also had an interest in not blowing the whistle on
their colleagues and peers for fear of retribution (as
evidenced by Wells Fargo’s systemic firing of other
whistleblowers).
25. No publicly available plan documents limit,
circumscribe, or otherwise negate the ERBC’s duties and
responsibilities under trust law or ERISA mandates.
26. No publicly available document contains any
ERBC discussions regarding making the Plan match in
cash, and not Wells Fargo stock, regardless of whether a
Wells Fargo stock option was available as part of the plan.

-App. 63a27. Defendant John Shrewsberry is a Senior
Executive Vice President and Wells Fargo’s Chief
Financial Officer. He is responsible for the Company’s
financial management functions, including accounting and
control, financial planning and analysis, line of business
finance functions, asset-liability management, treasury,
tax management, investor relations, and the company’s
investment portfolios. He serves on the Wells Fargo
Operating, Management, and Market Risk Committees
and was a member of the EBRC from at least January 1,
2010 through May 14, 2014.
28. Defendant Kevin Oden is an executive vice
president and head of Operational Risk and Compliance
within Corporate Risk at Wells Fargo. Oden manages
second-line risk activities across information security,
financial crimes risk, model risk, operational risk,
regulatory compliance risk, and technology risk, and he
also serves on the Wells Fargo Management Committee.
Oden reports to Michael Loughlin, Senior Executive Vice
President and Chief Risk Officer. Prior to his current
position, Oden was the Chief Market & Institutional Risk
Officer, where his responsibilities included managing
market risk oversight, market risk regulatory capital
calculation, model risk management, counterparty credit
and issuer risk as well as country risk. Prior to that, Oden
was the head of Market Risk for Wells Fargo Securities.
He has been a member of the EBRC from at least
December 8, 2014 through the present.
29. Defendant Patricia Callahan is a recently
retired senior executive officer of Wells Fargo. From
2011-2015, she held the prominent role of Chief
Administrative Officer where she oversaw the company’s
brand, communications, reputation management and
stakeholder engagement efforts. She also served on Wells

-App. 64aFargo’s Corporate Responsibility Committee. She was a
member of the EBRC from at least January 1, 1999
through August 31, 2015.
30. Defendant Stanhope Kelly was a top executive
of Wells Fargo, serving as Wells Fargo’s lead regional
president for the Carolinas, covering retail, small business
and business banking operations until his retirement in
2014. He served on the EBRC from at least March 1, 2009
through June 30, 2014. Carrie Tolstedt, one of the
ringleaders and primary beneficiaries of the Wells Fargo
fake account scandal, was in close contact with Kelly,
commenting on his retirement: “When I think about the
definition of a great community banker, I think about Stan
Kelly.”
31. Defendant Dawn Martin Harp is a member of
the Wells Fargo Management Committee and serves as
the head of Wells Fargo Dealer Services. She is
responsible for the strategy, growth, and profitability of
Indirect Auto Finance and Commercial Services. Harp
served on the EBRC from at least March 1, 2016 to the
present.
32. Defendant Suzanne Ramos is a member of Wells
Fargo’s Management Committee. She serves as
Executive Vice President, Wells Fargo’s National
Affluent Sales Leader. She has served in that position
since January 2013. Prior to that, Ramos served as
Executive Vice President, Border Region President. She
has been a member of the EBRC since at least December
1, 2010.
33. Defendant James Steiner is the president of
Abbot Downing, a Wells Fargo brand that caters to ultrahigh net worth clients. Steiner has been a member of the
EBRC from at least July 1, 2011 to the present. He served

-App. 65aon Wells Fargo’s Management Committee during the
Class Period.
34. Defendant George Wick is the head of Principal
Investments for Wells Fargo Securities and reports to
Shrewsberry. He has been a member of the EBRC from
at least March 15, 2015 to the present. He served on Wells
Fargo’s Management Committee during the Class Period.
35. Defendant Martin Davis served as the head of
enterprise technology services, executive vice president
and chief technology officer for Wells Fargo until his
departure in mid-2015. He was a member of the EBRC
from at least March 1, 2009 through December 10, 2014.
36. Defendant Thomas Wolfe was head of the
Consumer Credit Solutions Group at Wells Fargo. The
Consumer Credit Solutions Group was a part of the
Consumer Lending Group. Wolfe retired on October 31,
2015. He was a member of the EBRC from at least March
1, 2012-August 31, 2014.
37. Based on (a) their roles within the Company; (b)
their participation in various committees with other
executives; and (c) their position on the EBRC, all EBRC
members knew, or should have known about: the
importance of cross-selling metrics to the Company’s
share price; the importance of Wells Fargo’s reputation;
the systemic fraud being committed and concealed; and
the resulting impact on Wells Fargo’s stock price from the
continued concealment and failure to correct the
fraudulent practices.
D.
Human Resources Committee of the Board
38. From at least January 1, 2010 through January
1, 2015, the Human Resources Committee of the Board
(“HRC”) was a “Named Fiduciary” under the Plan. Wells

-App. 66aFargo & Company 401(k) Plan, as Amended and Restated
January 1, 2010, at § 2.26.
39. Throughout the Class Period, the HRC had the
express authority to amend the Plan at any time. Plan
§ 13.1.
40. Accordingly, the HRC had, and has,
discretionary authority with respect to the management
and administration of the Plan.
41. According to answers provided by Wells Fargo
to the Senate Committee for Banking, Housing, and
Urban Affairs (“Senate Banking Committee”) in
November 2016, as top management of Wells Fargo
became aware of fraudulent practices in the Community
Banking segment of the Company, they informed the
HRC that they were “monitoring sales integrity in
Community Banking.”
42. The HRC members during the Class Period
were Lloyd H. Dean, John S. Chen, Susan E. Engel,
Donald M. James, and Stephen W. Sanger.
43. According to the HRC Charter, the HRC’s
purpose is to assist the Board “in fulfilling its
responsibilities relating to the overall compensation
strategy for the Company and the compensation of the
Company’s executive officers.”
44. Significantly, the HRC is tasked with
overseeing “the implementation of risk-balancing and risk
management methodologies for incentive compensation
plans and programs for senior executives and those
identified employees in a position to expose the Company
to material risk.”
45. The HRC Charter further states, in pertinent
part, that:

-App. 67a§ The HRC shall establish, in consultation
with senior management, the overall
strategy for the Company with respect to
incentive compensation and shall oversee
the Company’s incentive compensation
practices to help ensure that they are
consistent with the safety and soundness of
the Company and do not encourage
excessive risk-taking;
and
§ The HRC shall make recommendations to
the Board with respect to the Company’s
incentive compensation and equity-based
plans that are subject to Board approval,
discharge any responsibilities assigned to
the HRC by any of these plans, and
periodically review the Company’s stock
ownership
retention
guidelines
for
participants in the Company’s Long-Term
Incentive Compensation Plan.
46. Wells Fargo’s 2016 Annual Proxy further
reiterates the HRC’s primary responsibilities in both
establishing the Company’s incentive compensation
policies and monitoring any risk exposure created from
such policies, including:
§ Discharging the Board’s responsibilities
relating to the Company’s overall
compensation
strategy
and
the
compensation of its executive officers;
§ Overseeing the Company’s incentive
compensation practices so that they are
consistent with the safety and soundness of
the Company and do not encourage
excessive risk-taking, and reviewing and

-App. 68aapproving benefit and compensation plans
and arrangements applicable to executive
officers of the Company;
§ Evaluating the CEO’s performance and
approving and recommending the CEO’s
compensation to the Board for ratification
and approval, and approving compensation
for other executive officers and any other
officers or employees as the HRC
determines appropriate; and
§ Having the sole authority to retain or obtain
the advice of and terminate any
compensation consultant, independent legal
counsel or other advisor to the HRC, and
evaluating the independence of its advisors
in accordance with NYSE rules.
47. Based on (a) their roles on the Board, (b) the
scope of misconduct discussed below, and (c) senior
management informing them of the scandal and the
underlying mechanics, the HRC had actual knowledge of:
the importance of cross-selling metrics to the Company’s
share price; the importance of Wells Fargo’s reputation;
the systemic fraud being committed and concealed; and
the resulting impact on Wells Fargo’s stock price from the
continued concealment and failure to correct the
fraudulent practices.
48. Each Defendant identified above as a Plan
fiduciary is also subject to co-fiduciary liability under 29
U.S.C. § 1105(a)(1)-(3) because she, he, or it enabled other
fiduciaries to commit breaches of fiduciary duties, failed to
comply with 29 U.S.C. § 1104(a)(1) in the administration of
its duties, and/or failed to remedy other fiduciaries’
breaches of their duties, despite having knowledge of the
breaches.

-App. 69aIV.
DEFENDANTS’ FIDUCIARY DUTIES
49. ERISA imposes strict fiduciary duties upon
plan fiduciaries, none of which were eliminated,
circumscribed, or otherwise limited by the Plan
documents. ERISA § 404(a), 29 U.S.C. § 1104(a), states, in
relevant part, that:
[A] fiduciary shall discharge his duties with respect
to a plan solely in the interest of the participants
and beneficiaries and … for the exclusive purpose
of providing benefit to participants and their
beneficiaries; and defraying reasonable expenses
of administering the plan; with the care, skill,
prudence, and diligence under the circumstances
then prevailing that a prudent man acting in a like
capacity and familiar with such matters would use
in the conduct of an enterprise of like character and
with like aims; by diversifying the investments of
the plan so as to minimize the risk of large losses,
unless under the circumstances it is clearly
prudent not to do so; and in accordance with the
documents and instruments governing the plan
insofar as such documents and instruments are
consistent with the provisions of this title and Title
IV.
50. An ERISA fiduciary’s duties are derived from
the common law of trusts, and include the following, none
of which were eliminated, circumscribed, or otherwise
limited by the Plan documents.
51. The Duty of Loyalty: ERISA imposes on a plan
fiduciary the duty of loyalty – that is, the duty to
“discharge his duties with respect to a plan solely in the
interest of the participants and beneficiaries and … for the
exclusive purpose of … providing benefits to participants

-App. 70aand their beneficiaries….” ERISA § 404(a)(1)(A), 29
U.S.C. § 11404(a)(1)(A) (emphasis added).
52. The duty of loyalty requires fiduciaries to deal
fairly and honestly with plan members. In particular,
fiduciaries must not mislead plan members, and must
disclose material information that could adversely affect a
plan member’s interests in the plan.
53. The duty of loyalty entails a duty to avoid
conflicts of interest and to resolve them promptly when
they occur. A fiduciary must always administer a plan with
an eye toward the interests of the participants and
beneficiaries, regardless of the interests of the fiduciaries
themselves or of the plan sponsor. This inquiry and the
governing standard is necessarily subjective.
54. In 2013, right at the beginning of the Class
Period in this case, Wells Fargo itself issued a publication
entitled
“Your
Role
as
a
Fiduciary.”
https://www08.wellsfargomedia.com/assets/pdf/commerci
al/retirement-employee-benefits/perspectives/role-as-afiduciary.pdf. In this publication, Wells Fargo posed the
question: “What are my basic fiduciary responsibilities?”
Wells Fargo then answered the question in two separately
numbered paragraphs regarding the duty of loyalty and
the duty of prudence – “Abide by the exclusive benefit
rule” and, separately, “Act prudently.”
55. In 2016, Wells Fargo also issued a publication
entitled, “A look at the good, the bad, and the ugly of an
Employee Stock Ownership Plan.” In that publication,
Wells Fargo stated:
• “Employer stock in the plan places an
intense spotlight on plan fiduciaries.”

-App. 71a•

“The employer and the trustee have a
fiduciary responsibility to guard the
interests of plan participants.”
• “The employer and the trustees should
consult with legal counsel to make sure they
understand where their duty to the employer
stops and their fiduciary duty to the ESOP
and its participants begins.”
• “Fiduciary responsibilities must be taken
seriously. Consider a plan that invests
primarily in the stock of a single company —
the assets of the plan are not diversified.
Furthermore, the directors and officers of
that company have decision-making powers
over the plan, and often serve as plan
trustees.”
• “The employer and plan trustees are
fiduciaries, and a fiduciary must always act
in the best interest of the plan participants.
The risks are obvious and the liability is
real.”
56. The Duty of Prudence: ERISA also imposes on
a plan fiduciary the duty of prudence – that is, the duty “to
discharge his duties with respect to a plan solely in the
interest of the participants and beneficiaries and … with
the care, skill, prudence, and diligence under the
circumstances then prevailing that a prudent man, acting
in a like capacity and familiar with such matters would use
in the conduct of an enterprise of a like character and with
like aims….” ERISA § 404(a)(1)(B), 29 U.S.C.
§ 11404(a)(1)(B). This, by its very terms, is an inherently
objective analysis.
57. The duties of loyalty and prudence are
independent duties, each with different responsibilities

-App. 72aand each subject to different standards and inquiries. A
fiduciary must comply with each of these independent
duties under ERISA.
58. The duty of loyalty is separate and distinct from
the duty of prudence because it looks at an entirely
different question than the duty of prudence does –
namely, the duty of loyalty looks at whether the subjective
intent of the fiduciaries was to act for the exclusive
purpose of benefiting ERISA beneficiaries. In contrast,
the duty of prudence simply asks the objective question –
were the fiduciaries’ actions reasonable?
59. The Duty to Investigate and Monitor
Investment Alternatives: The duties of loyalty and
prudence also encompass a duty to conduct an
independent investigation into, and to continuously
monitor, the merits of the investment alternatives in a
plan, including employer securities, to ensure that each
investment is a suitable option for that plan.
60. The Duty to Monitor Appointed Fiduciaries:
Fiduciaries who have the responsibility to appoint other
fiduciaries have the further duty to monitor those
fiduciaries. The duty to monitor entails both giving
information to and reviewing the actions of the appointed
fiduciaries. The monitoring fiduciaries must ensure that
the appointed fiduciaries:
(a) possess the needed credentials and
experience, or use qualified advisors and
service providers to fulfill their duties;
(b) are knowledgeable about the operations of
the plan, the goals of the plan, and plan
participants’ behavior;
(c) are provided with adequate financial
resources to do their jobs;

-App. 73a(d) have adequate information to do their jobs of
overseeing the plan investments with
respect to company stock;
(e) have access to outside, impartial advisors
when needed;
(f) maintain adequate records of the
information on which they base their
decisions and analysis with respect to the
plan’s investment options; and
(g) report regularly to the monitoring
fiduciaries.
The monitoring fiduciaries must then review, understand,
and approve the conduct of the hands-on fiduciaries with
whom they are charged with monitoring.
61. The Duty to Disregard Plan Documents, if
Required: A fiduciary cannot avoid its fiduciary
responsibilities by relying solely on the language of plan
documents. While the basic structure of a plan may be
specified, within limits, by the plan sponsor, the fiduciary
cannot blindly follow the plan document if doing so leads
to an imprudent result. ERISA § 404(a)(1)(D), 29 U.S.C.
§ 1104(a)(1)(D)
62. Co-Fiduciary Liability: A fiduciary is liable, not
only for fiduciary breaches within the sphere of his own
responsibility, but also as a co-fiduciary in certain
circumstances.
63. Indeed, ERISA § 405(a), 29 U.S.C. § 1105(a),
states, in relevant part, that:
In addition to any liability which he may have
under any other provision of this part, a fiduciary
with respect to a plan shall be liable for a breach of
fiduciary responsibility of another fiduciary with

-App. 74arespect to the same plan in the following
circumstances:
(1) if he participates knowingly in, or
knowingly undertakes to conceal, an act or
omission of such other fiduciary, knowing such act
or omission is a breach; or
(2) if, by his failure to comply with section
404(a)(1) in the administration of his specific
responsibilities which give rise to his status as a
fiduciary, he has enabled such other fiduciary to
commit a breach; or
(3) if he has knowledge of a breach by such
other fiduciary, unless he makes reasonable efforts
under the circumstances to remedy the breach.
64. Non-Fiduciary Liability: Under ERISA, nonfiduciaries who knowingly participate in a fiduciary
breach may themselves be liable under ERISA
§ 502(a)(3), 29 U.S.C. § 1132(a)(3).
V.
THE PLAN
65. The Plan was established in 1953 and was
restated multiple times, including in 2010 and 2015.
66. The Plan is a “defined contribution” benefit plan
that is sponsored by Wells Fargo and available to eligible
employees of Wells Fargo and its subsidiaries. All
contributions to the Plan are held in the 401(k) Plan Trust.
67. The Plan is tax qualified under the Internal
Revenue Code as both an employee stock ownership plan
and as a 401(k)-qualified cash or deferred arrangement.
68. At all relevant times to this Complaint, the Plan
was a “defined contribution” or “individual account” plan
within the meaning of ERISA Section 3(34), 29 U.S.C.
§ 1002(34), in that the Plan provided for individual

-App. 75aaccounts for each Participant and for benefits based solely
upon the amount contributed to the Participant’s account,
and any income, expenses, gains, and losses, and any
forfeitures of accounts of other Participants which could
be allocated to such Participant’s accounts. As such, the
Plan is subject to ERISA.
69. An eligible employee can make salary deferral
contributions to the Plan. Salary deferral contributions to
the Plan are made from certified compensation earned
during the entire pay period containing the date in which
the employee salary deferral election is effective.
70. The Plan has more than 350,000 Participants
and contains total assets of approximately $35 billion.
71. On information and belief, as of 2016,
approximately 34% of the 401(k) Plan Assets, totaling
approximately $11 billion out of the total $35 billion, were
invested in Wells Fargo common stock.
72. Participants are eligible to receive employer
matching and employer discretionary profit sharing
contributions.
73. All matching contributions of the Plan are
invested automatically in Wells Fargo stock.
Wells Fargo ESOP Fund
74. Participant contributions to the Plan’s ESOP
Fund are invested primarily in Wells Fargo common stock
and such participation is available exclusively to Plan
Participants.
75. Dividends on the ESOP may be distributed or
passed through to Participants who are invested in the
ESOP Fund.

-App. 76aWells Fargo Non-ESOP Fund
76. Participant contributions to the Plan’s NonESOP Fund are invested primarily in Wells Fargo
common stock and such participation is available
exclusively to Participants.
77. Due to certain Internal Revenue Code
regulations, dividends declared or paid on Participants’
account balances in the Non-ESOP Fund are reinvested
within the Fund.
VI.
FACTUAL ALLEGATIONS
A.

Wells Fargo Touted its Reputation for Trust
and Integrity.
78. Trust and reputation are at the cornerstone of
the financial industry. Any breach of those principles will
have harsh consequences for a malefactor’s company
stock price.
79. Wells Fargo has consistently emphasized the
importance of trust, loyalty, and integrity to its business
model in its external communications.
80. Indeed, protecting its reputation is one of Wells
Fargo’s seven risk management principles. According to a
presentation at Wells Fargo’s 2014 Investor Day by Wells
Fargo’s Chief Risk Officer, Mike Loughlin, “reputation is
paramount” and Wells Fargo “strive[s] to minimize
activities that could damage the franchise.”
81. Wells Fargo has put its reputation for trust and
loyalty at the forefront of its public communications,
including the following examples:
a. On its website: “From the Gold Rush to the
early 20th Century, through prosperity,
depression and war, Wells Fargo earned a

-App. 77areputation of trust due to its attention and
loyalty to customers.”
b. In its Vision and Values (removed from their
website just recently): “Corporate America
is littered with the debris of companies that
crafted lofty values on paper but, when put
to the test, failed to live by them. We believe
in values lived, not phrases memorized….
We strive to be recognized by our
stakeholders as setting the standard
among the world’s great companies for
integrity and principled performance.
This is more than just doing the right thing.
We also have to do it in the right way.
Honesty, trust, and integrity are essential
for meeting the highest standards of
corporate governance…. We will not
engage in activities or business practices
that could cause damage to our
reputation….” (emphasis added).
c. In its Code of Ethics: “Integrity is not a
commodity. It’s the most rare and precious
of personal attributes. It is the core of a
person’s – and a company’s – reputation….
At Wells Fargo, holding ourselves to the
highest standards of ethical behavior is
nothing new … it’s been the cornerstone of
our culture since 1852!”
d. In its Corporate Social Responsibility
Report: “For 160 years, our customers have
trusted us with their financial assets. To
honor that trust, we hold ourselves to the
highest ethical standards. We regularly
monitor and refine our business practices

-App. 78aand risk management structure to ensure
there are appropriate controls in place to
reduce risks to our customers and
communities and ensure all team members
are performing honestly and with integrity.”
e. In its Corporate Governance Guidelines:
“One of the Board’s key responsibilities is to
ensure that the Company, through its
management, maintains high ethical
standards and effective policies and
practices designed to protect the
Company’s reputation, assets and
business.” (emphasis added).
f. In its Annual Reports: “Today, I sum up
Wells Fargo’s culture with this word:
‘Relationships.’ It captures the passion we all
share for serving our key stakeholders —
customers, communities, investors, and team
members. To earn their trust, we strive to
do the right thing and act under the
highest ethical standards were honesty,
trust, and integrity matter.” (2-14 Report;
emphasis added).
82. Wells Fargo’s public campaign emphasizing its
reputation for trust and loyalty was effective. Indeed,
Wells Fargo’s stock has received a higher price-to-book
multiple compared to other big banks because of this
reputation.
B.
Cross-Selling Was Critical to Wells Fargo’s
Business Model.
83. Attempting to capitalize on its reputation for
trust and loyalty, Wells Fargo engaged in an aggressive
marketing practice known as “cross-selling” – the sale of
multiple banking products to the same customer.

-App. 79a84. Cross-selling was central to Wells Fargo’s
business model and share price. The goal of Wells Fargo’s
high-pressure cross-selling strategy was to show steady
quarterly growth in the opening of customer accounts and,
most importantly, drive up the Company’s share price.
The multiple accounts held by many Wells Fargo
customers signaled to Wall Street that the Company
maintained deep relationships with its customers,
meaning the Company would continue making money
from them.
85. As stated in the Sales Practices Investigation
Report issued by the Board (“Board Report”), the
Community Bank’s sales model, of which cross-selling was
an integral part, “emphasized sales volume and relied
heavily on consistent year-over-year growth.”
86. Any apparent increase in customer accounts
gained through cross-selling was particularly important to
Wells Fargo, since it could be viewed as a testament to its
purportedly client-centric approach and heritage. In other
words, it enhanced the perception that Wells Fargo was
so good to its customers that those customers were
deepening their connection to Wells Fargo by opening
new accounts and adding new services at a record pace.
87. Wells Fargo promoted cross-selling so
aggressively that Former Chairman and CEO Richard
Kovacevich created a target for each customer called the
“Gr-eight initiative,” meaning eight add-on products per
household.
88. In Wells Fargo’s Vision and Values Statement,
cross-selling was described as “our most important
strategy.”
89. Cross-selling was so central to the Company’s
bottom line and financial metrics that Wells Fargo

-App. 80amanagement mentioned it 108 times at a two-day investor
conference in 2010.
90. Wells Fargo’s senior management knew of,
encouraged, and closely monitored the cross-selling
program. They regularly received updated cross-selling
data and discussed the push for cross-selling with
investors and securities analysts.
91. Wells Fargo’s Annual Reports are filled with
examples of the Company touting its cross-selling
strategies and the corresponding impact on its financial
results, including:
2010 Annual Report
• “Selling more products to our customers –
‘cross-selling’ – is very important to our
business model and key to our ability to
grow revenue and earnings.”
2011 Annual Report
• “Because we conduct most of our businesses
under the ‘Wells Fargo’ brand, negative public
opinion about one business could affect our
other businesses and also could negatively
affect our ‘cross-sell’ strategy.”
2012 Annual Report
• “Cross-sell of our products is an important part
of our strategy to achieve our vision to satisfy
all our customers’ financial needs. Our retail
bank household cross-sell was 6.05 products
per household in fourth quarter 2012, up from
5.93 a year ago. We believe there is more
opportunity for cross-sell as we continue to
earn more business from our customers. Our
goal is eight products per customer, which is
approximately half of our estimate of potential

-App. 81ademand for an average U.S. household. In
fourth quarter 2012, one of every four of our
retail banking households had eight or more of
our products.”
2013 Annual Report
• Our cross-sell strategy, diversified business
model and the breadth of our geographic reach
facilitates growth in both strong and weak
economic cycles. We can grow by expanding
the number of products our current customers
have with us, gain new customers in our
extended markets, and increase market share
in many businesses.”
2014 Annual Report
• “Our ability to grow primary customers is
important to our results because these
customers have more interactions with us,
have higher cross-sell and are more than twice
as profitable as non-primary customers.”
2015 Annual Report
• “An outcome of offering customers the products
and services they need, want and value is that
we earn more opportunities to serve them, or
what we call cross-sell. Cross-sell is the result
of serving our customers well, understanding
their financial needs and goals over their
lifetimes, and ensuring we innovate our
products, services and channels so that we earn
more of their business and help them succeed
financially. Our approach to cross-sell is needsbased as some customers will benefit from
more products, and some may need fewer.”

-App. 82a92. In addition to statements in its financial
disclosures, Wells Fargo made many other public
statements touting its alleged cross-selling success.
93. During quarterly earnings calls and investor
presentations, Wells Fargo’s CEO and other officials
consistently cited the Company’s alleged cross-selling
achievements as the key driver of its revenues and share
value. Following such calls and the release of Wells
Fargo’s financial disclosures, third-party analysts would
routinely give favorable value assessments of Wells Fargo
stock based on the Company’s claims regarding crossselling.
94. For example, on May 19, 2014, the day before
Wells Fargo’s Analyst Day, anticipating the Company’s
routine of emphasizing cross-selling, the Motley Fool
released an article entitled, “1 Reason Wells Fargo & Co
Will Remain the Biggest and Best Bank,” stating:
Cross-selling is one of the most cost-effective ways
for a bank to add to its deposit base, loan portfolio,
and other businesses. According to a recent report
by Fiserv, it costs banks 8-10 times more to gain a
new customer than it does to sell a new product to
an existing customer. The more products each
customer has with a bank, the longer the bank
retains those customers. Customer retention is one
of the keys to stability in banks, and cross-selling is
the best way to do it.
95. And during the May 20, 2014 Analyst Day, as
was customary, Wells Fargo proudly trumpeted its crossselling efforts and the financial results the Company had
achieved due to the effectiveness of its cross-selling
strategy. Chief Financial Officer John Shrewsberry
summarized it this way: “Our relationship focus and cross-

-App. 83asell capability is hopefully legendary at this point. It has
been our vision for decades. We’ve stuck to it.”
96. The very next day, UBS issued a report focusing
on the Company’s cross-selling:
Management is focused on growth and
execution of cross-selling strategy
[Wells Fargo]’s investor day highlighted a
growth strategy – the presentations mention
growth 116 times versus 39 mentions of
costs. The strategy for growth is unchanged
and focuses on cross-selling across all
products and client segments with particular
attention paid to cards, wealth management
(where pre-tax margin target was increased
from 22% to 25%) and corporate banking.
97. The reported cross-sell metrics, discussed
extensively by Wells Fargo and external analysts,
strongly distinguished Wells Fargo from its competitors,
adding significantly to Wells Fargo’s share price.
98. From 2009 to 2015, Wells Fargo reported a
steep incline in cross-sell success. Compared to the
industry average of three products per retail customer,
Wells Fargo reported approximately twice that amount,
as shown in the following chart published by The Wall
Street Journal:

-App. 84a-

99. The positive trend in the cross-sell results that
Wells Fargo touted in its Annual Reports, investor
presentations, and other public statements, coincides with
the positively-trending Company stock price throughout
the Class Period. Based on Wells Fargo’s fraudulent
cross-selling metrics, the marketplace investors rewarded
the Company’s stock price, which, from mid-2010 to
September 7, 2016, increased 111% – from approximately
$24 to $50.56 per share.
C.
The Truth: Wells Fargo’s Cross-Selling
Metrics were a Façade, Masking a Rampant
Fake Accounts Scam.
100. As is now known, far from being the trusted and
loyal bank it represented itself to be in external

-App. 85acommunications, Wells Fargo, through its senior
management’s direction, imposed an extremely
aggressive sales program on its branch employees and
encouraged its branch employees to engage in widespread
unlawful and unethical behavior, including creating
millions of fake accounts to meet unrealistic and heavyhanded goals.
101. In particular, in an effort to boost revenues and
inflate its stock price dating back to at least 2010 (and,
apparently, much earlier), Wells Fargo’s management
imposed on its branch offices daily quotas to achieve crosssell goals.
102. For example, if a customer had a checking
account, Wells Fargo employees were pressured to
engage in abusive sales practices to sign that customer up
for a savings account, a credit card and a debit card, online
banking services, and many other products, regardless of
whether the customer needed or wanted such products.
103. As recently discovered, Wells Fargo
management consistently coerced and threatened
employees to meet these unreasonable quotas and to
engage in fraudulent practices.
104. A common tactic involved creating a false
deposit account by moving a small amount of money from
the customer’s existing Wells Fargo account to open a new
one without customer authorization. In this scenario, the
Wells Fargo internal systems would give the employee
credit toward her sales goals for opening a new account,
and the accounts would often, in turn, generate fees for
Wells Fargo.
105. Another common tactic involved applying for
credit card accounts without customer authorization.
When customers later complained about receiving cards
they did not request, they were advised to simply destroy

-App. 86athe unrequested and unauthorized cards. At other times,
Wells Fargo employees would advise customers who did
not want credit cards that they would be sent a credit card
anyway, and instruct them to simply tear up the credit
card when they received it. But destroying the
unauthorized cards did not close the account, reimburse
unauthorized fees, or repair the effect on a customer’s
credit profile. Indeed, customers’ credit reports were
often negatively affected and customers were sometimes
forced to purchase costly identity theft protection services
to protect against further fraudulent activity. Among
other tactics, Wells Fargo employees targeted individuals
holding Mexican Consular cards because the lack of a
Social Security number made it easier to open numerous
fraudulent accounts.
106. Another practice was known as “pinning,” in
which a Wells Fargo banker obtained a customer’s debit
card number and set the PIN (often to 0000) without
customer authorization. Pinning allowed a Wells Fargo
banker to enroll a customer in online banking, for which
the employee received a sales credit. In order to bypass
computer prompts requiring customer contact
information, bankers would impersonate the customer
online and input false generic email addresses, such as
noname@wellsfargo.com to ensure that the transaction
was completed and that the customer was not alerted to
the activity.
107. Another practice, known as “bundling,” involved
Wells Fargo sales personnel telling customers that the
account they legitimately sought to open could be obtained
only with the purchase of additional accounts or products,
when the desired product was actually available on its
own. Employees were coached by managers to lie to
customers by telling them that each checking account

-App. 87aautomatically comes with a savings account, credit card,
or other products.
108. Yet another practice, known at Wells Fargo as
“sandbagging,” involved a banker delaying the opening of
a new account or processing a sale (without knowledge of
the account holder) until a time that was most beneficial
to Wells Fargo or the employee, such as when a new sales
reporting period commenced. New Year’s Day was an
especially common date to open “sandbagged” accounts
because of the Company’s “Jump into January” sales
program. This program required bankers to meet even
more aggressive sales goals than usual, which encouraged
bankers to hold onto, or not process, new accounts or other
requests until January 1. When customers inquired why
an account had not been opened promptly, they were given
false explanations, such as a “technical problem” or an
oversight that would be corrected eventually.
Sandbagging allowed Wells Fargo management to report
inflated first quarter sales.
109. Management pressured Wells Fargo employees
into engaging in a variety of other fraudulent tactics as
well. They would misrepresent to potential customers that
they would incur a monthly fee on their checking account
unless they opened a savings account, when this was not
the case. Wells Fargo employees would also misrepresent
that additional accounts did not have monthly fees when,
in fact, they did. Wells Fargo would then withdraw money
from customers’ authorized accounts to pay the fees
assessed by Wells Fargo on unauthorized accounts
opened in the customers’ names. In some cases, Wells
Fargo referred unauthorized, and thus unfunded,
accounts to collection agencies because the accounts had
negative balances.

-App. 88a110. There is also evidence that Wells Fargo
employees were routinely opening unauthorized accounts
for customers who they thought would not notice, such as
elderly clients or those who did not speak English as their
first language.
111. As one former Wells Fargo employee from
California recently confessed, employees would open as
many as ten unauthorized accounts in the names of
undocumented workers. As fees on those accounts
remained unpaid, Wells Fargo would charge off the
accounts, and the workers would start getting calls from
collection agencies.
112. In one poignant example demonstrating the
depth and financial entanglement of the fraud, a Wells
Fargo customer specifically rejected a request for
overdraft protection. However, ignoring the customer’s
specific rejection, the Wells Fargo branch authorized
overdraft protection and, to further the scam, opened an
unauthorized credit card for that customer and linked the
overdraft charges to the credit card. After several months,
the credit card company was pursuing the customer for
payment. The customer, however, had no knowledge of
the credit card, no knowledge that overdraft protection
was opened in violation of orders, and no knowledge that
the overdraft charges were being slipped onto the credit
card.
113. As in this example, in most cases, the fake
accounts went unnoticed by the customers.
114. After news of the scandal and the resulting $185
million regulatory fine broke on September 8, 2016,
numerous Wells Fargo employees confirmed that the
Company’s unethical and unlawful sales practices were
widespread and dated back to at least 2004.

-App. 89a115. Initially, in September 2016, Wells Fargo
announced that its employees opened at least 1.5 million
deposit accounts and submitted applications for at least
500,000 credit-card accounts without customer
authorization to do so during the period of 2011-2015.
116. Wells Fargo knew, however, that the problem
went far beyond these 2 million fake accounts announced
in September 2016. As Tim Sloan stated in October 2016,
the scandal “could get a little bit worse before it gets
better.”
117. In August 2017, Wells Fargo announced that,
after completing a more comprehensive review, its
employees had opened at least 3.5 million unauthorized
accounts from 2009 through September 2016.
D.
Wells Fargo Senior Management Structured,
Implemented, and Rewarded the Systemic
Fraud.
118. Wells Fargo senior management set sales goals
and designed an incentive system based on the sales goals,
with knowledge of the systemic fraud, thereby
encouraging and promoting that now-uncovered fraud.
119. As stated in the Board Report, sales goals were
set by bank leadership, pushed down to regions, and
ultimately pushed to retail bank branches. At each level,
employees were measured on how they performed relative
to the bank’s aggressive sales goals. Employees were
ranked against one another on their performance relative
to goals, and their incentive compensation and
promotional opportunities were determined relative to
those goals.
120. Senior management and the Board, including
each of the Defendants, had a vested interest in protecting
and maintaining the system, and concealing the rampant

-App. 90aabuse that their system had elicited. The cross-selling
system and successes under the system were integral to
their livelihoods.
121. This conflict loomed large as Defendants
learned of the rampant fraud, mass firings, retaliation
against whistleblowers, fraudulently-inflated cross-selling
reports in financial disclosures, regulatory investigations,
and dire consequences for the Company’s stock price.
122. Setting unreasonably high sales quotas and
threatening employees with termination if they failed to
meet these quotas, Wells Fargo management encouraged,
condoned, rewarded, and profited from thousands of its
employees stealing the confidential personal financial
information of Wells Fargo’s own customers and then
exploiting that protected information to open over 3.5
million unauthorized bank accounts and credit cards in
their names.
123. Indeed, Wells Fargo realized that its sales goals
were unattainable. It commonly referred to them as “50/50
plans,” because there was an expectation that only half the
regions would be able to meet them.
124. Wells Fargo’s sales quotas were generally
unattainable simply because not enough customers
interact with their banks on a daily basis, nor do they want
or need that many products, particularly from a single
provider.
125. Thus, thousands of Wells Fargo employees
faced a Hobson’s choice: fail to meet Wells Fargo
management’s unethical and unlawful demands and risk
losing their jobs, or succumb to the overwhelming
pressure to meet their quotas by any means possible. In
order to keep their jobs and support their families, many
employees resorted to opening accounts without customer
consent, using inaccurate or misleading information about

-App. 91apotential accounts to induce customers to open them, and
engaging in other high-pressure sales tactics to coerce
customers into opening additional accounts.
126. As Shrewsberry admitted after the scam was
revealed, the quotas and demands Wells Fargo
management imposed on branch office employees were so
unreasonable that many employees, at risk of being fired
otherwise, were compelled to “game” the system, stating
that the problem stemmed from “people trying to meet
their minimum goals to hang onto their job.”
127. Only after getting caught, fined and publicly
rebuked has Wells Fargo management feigned contrition
to the marketplace. Wells Fargo CEO and Chairman
Stumpf (who knew of the fraud as early as 2007, but did
nothing) testified before the Senate Banking Committee
in September 2016:
I want to apologize to all Wells Fargo customers. I
want to apologize for violating the trust our
customers have invested in Wells Fargo. And I
want to apologize for not doing more sooner to
address the causes of this unacceptable activity.
That said, I accept full responsibility for all
unethical sales practices in our retail banking
business…. We should have done more sooner to
eliminate unethical conduct and unintended
incentives for that conduct to occur.
128. Stumpf “retired” a few days later.
129. The man who replaced Stumpf as Wells Fargo
CEO, Defendant Tim Sloan, acknowledged in a speech to
Wells Fargo employees that the Company did not respond
to the problems in its branches soon enough and that
Wells Fargo’s upper management inappropriately dodged
responsibility for the bad behavior and wrongly placed
blame on branch employees. He further admitted to a loss

-App. 92aof trust in the Company: “To regain the trust we have lost,
we must continue to be transparent with all our
stakeholders and go beyond what has been asked of us by
our regulators.”
130. Sloan further stated in March 2017: “We made
some significant mistakes. We had an issue as it relates to
our incentive compensation plan. We should have dealt
with it soon. We should have dealt with it faster. We had
to own up for that. We let our stakeholders down. It’s
affected the reputation. We’ve got to rebuild that trust,
and that’s my primary responsibility now. . . . I wouldn’t
call us a victim, because again, what happened at Wells
Fargo was our responsibility.”
E.
The Plan Fiduciaries Knew About the
Fraud, Yet Concealed It For Their Own
Benefit.
131. Since at least 2005, Wells Fargo senior
management, including Plan fiduciaries, knew that the
Company’s incentive structure was inducing some
employees to secretly sign up customers for unauthorized
and unwanted accounts and other banking products to
generate record, albeit fabricated, cross-selling metrics
and concomitant share price growth.
132. In 2005, the Human Resources Department
directly received specific information regarding
fraudulent accounts, forged customer signatures, and
unsolicited credit cards.
133. The volume of reported allegations of employee
involvement in sales practice-related misconduct steadily
increased from 288 in the second quarter of 2007 to 1,469
in the fourth quarter of 2013. The number of terminations
or resignations relating to sales practice misconduct
increased from 61 terminations or resignations in the
second quarter of 2007 to 447 in the fourth quarter of 2013.

-App. 93a134. Defendant Hardison was aware of the scandal
and its implications for Wells Fargo. Indeed, Hardison
had actual knowledge of: the importance of cross-selling
metrics and Wells Fargo’s reputation to the Company’s
share price; the systemic fraud being committed and
concealed; and the resulting impact on Wells Fargo’s
stock price from the continued failure to correct the
fraudulent practices and the Company’s concealment
thereof.
135. In her position leading the Human Resources
Department since 2010, Hardison led “a team that
develops and implements people strategies to support
Wells Fargo’s business objectives, as well as the
management of compensation and benefits.” Indeed,
thousands of employees were fired and disciplined during
her tenure because of fraudulent sales practices.
136. Hardison was certainly made aware of the
repeated instances of Wells Fargo employees stealing a
customers’ identities, opening unauthorized accounts, and
violating multiple banking laws. Indeed, the Human
Resources Department that Hardison headed was directly
informed, as early as 2005, about Wells Fargo’s crossselling problems.
137. Hardison was also aware of whistleblowers
raising alarm bells regarding the systemic fraud.
Hardison knew that Wells Fargo employees were
elevating concerns about abusive sales practices and
unlawful conduct, among other things, to Wells Fargo
senior management.
138. As alleged in numerous, recently-filed, antiretaliation lawsuits, multiple whistleblowers came
forward during the Class Period to executives in
Defendant Hardison’s department – Human Resources –
to complain about pressure to hit Wells Fargo cross-

-App. 94aselling targets and the illicit conduct that making those
targets engendered. For their honesty, Wells Fargo fired
these would-be whistleblowers.
139. For example, according to an article in The New
York Times, one Wells Fargo employee was fired just
three days after calling the Company’s so-called “ethics
hotline,” and subsequently ended up living in his truck.
According to CNN Money, a single mother was fired soon
after submitting a similar whistleblowing report – and was
then accused by Wells Fargo of falsifying documents.
Such complaints were known, or should have been known,
by Defendant Hardison, Wells Fargo’s Director of Human
Resources.
140. The Board Report confirms Hardison’s
knowledge of the fraud epidemic within Wells Fargo. It
states that “Hardison was aware of sales practice issues
throughout her tenure as HR Director” and that she
understood these issues to be “pervasive” after the Los
Angeles/Orange County investigation in late 2013.
141. Knowledge of the systemic fraud extended well
beyond the Human Resources department. Indeed, Wells
Fargo’s corporate management and Board members were
all well aware of the systemic fraud throughout the Class
Period.
142. On September 20, 2016, Wells Fargo’s former
CEO, John Stumpf, testified before the Senate Banking
Committee that he learned of the ongoing fraud in 2013.
He further testified that the knowledge that there was an
ongoing fraud issue that had yet to be solved “got to the
corporate level in 2013 because progress was not being
made, and the board level in 2014….”
143. As revealed in the Board Report, Stump
specifically asked in November 2013 for the number of
terminations associated with sales integrity violations. He

-App. 95awas informed that 1% of employees had been terminated
for such violations. As the Board Report recognizes, this
number only reflects employees caught engaging in sales
practice misconduct.
144. Likewise, the Board Report states that Sloan’s
“knowledge of sales practice issues . . . increased after
publication of the Los Angeles Times article . . . in
December 2013.”
145. Defendant Shrewsberry, Wells Fargo’s CFO,
was also intimately familiar with the cross-selling scandal.
Shrewsberry was carefully monitoring the cross-selling
scandal and had elevated it to one of the most dire
problems at the Company years before the scandal
became public in September 2016.
146. In an April 14, 2015 Reuters interview,
Shrewsberry said that Wells Fargo was aware that some
employees had pushed unwanted and unneeded products
on customers, stating: “We have to be cautious and make
sure we’re not creating incentives for people to sell
products and provide services that are not in the best
interest of the customer. We take that deadly seriously,
and we have for a long time.” (emphasis added). This
statement was false and misleading. Shrewsberry knew
that Wells Fargo was, in fact, creating such incentives and
was sitting on a powder keg of regulatory and legal
problems. It was also misleading because Wells Fargo did
not take this issue “deadly seriously.” In reality,
Shrewsberry and other Plan fiduciaries were carefully
concealing that: they fostered the perverse incentive
system; the incentive system and employee misconduct
had spun wildly out of control; and Wells Fargo was on the
verge of devastating regulatory actions, crushing legal
actions, and public blowback. Shrewsberry’s carefully-

-App. 96aworded statement was yet another step in the Wells Fargo
concealment campaign.
147. The incentive structure, referenced by
Shrewsberry, was squarely within the charter of the HRC,
which included various Risk Committee members who had
been apprised by senior management of the cross-selling
fraud being perpetrated across Wells Fargo.
148. Shrewsberry also said: “Wells Fargo looks into
allegations of inappropriate cross-selling pressure and
wants to set up the right incentives for workers” and
further stated that: “While sales quotas are part of a
‘scorecard’ for bankers in Wells Fargo branches, it is not
the only measurement used to evaluate performance.”
149. Shrewsberry, one of Wells Fargo’s top
executives, is integrally involved in all aspects of company
strategy and serves on the EBRC. With his prominent
position as the CFO and a lead member on the Wells
Fargo Operating, Management, and Market Risk
Committees, he had a fiduciary obligation to remain
abreast of, and inform others, of risk to the company,
including inappropriate behavior by employees under the
guise of cross-selling. Indeed, under the Sarbanes-Oxley
Act of 2002 (“SOX”), Shrewsberry was required to
personally certify – and did personally certify – that the
Company had adequate financial and operational controls.
Thus, Shrewsberry would have been, or should have been,
apprised of all aspects of the cross-selling scandal.
150. Shrewsberry, among his other committee
positions, served alongside Chief Administrative Officer
and Human Resources Director Hope Hardison, Chief
Risk Officer Michael Loughlin, General Counsel James
Strother, Chief Auditor David Julian, new CEO Tim
Sloan, and former CEO John Stumpf, on Wells Fargo’s
Operating Committee. Each of these executives was

-App. 97aaware of the cross-selling scandal and its importance to
the Company’s stock price.
151. On or around September 13, 2016, Plan fiduciary
Shrewsberry acknowledged the materiality of the
misconduct, the scope and breadth of which had been
concealed from the public, including Plan Participants:
“The pattern of behavior that we’ve seen here is
something that needs to stop. It is not acceptable to do
things that are designed to increase either individual or
firm bottom lines by deceiving customers or passing along
charges that are either invisible or they don’t know
about.”
152. At the same conference where Shrewsberry,
speaking on behalf of the Company, stated that the
unacceptable conduct needed to stop, he further stated
that Wells Fargo would develop a new compensation
model for employees that gives “incentives for people to
behave in a manner that’s consistent with our principles.”
153. Shrewsberry also spoke on behalf of the
Company when he said: “The people who we’re talking
about here weren’t the high performers. It was really
more at the lower end of the performance scale, where
people apparently were making bad choices to hang on in
their job.”
154. Defendant Oden also served on the EBRC with
Shrewsberry. Oden is and was a member of the corporate
risk leadership team, where he reported to Loughlin, the
Chief Risk Officer and a Management Committee
member along with Shrewsberry. Oden’s responsibilities
include managing regulatory compliance risk, which
would have required knowledge about the regulatory
investigations (discussed below) of the extensive fraud
within Wells Fargo. Oden was, therefore, privy to details

-App. 98aof the Wells Fargo fraud and the impending regulatory
fines.
155. Defendant Callahan was another EBRC
member who was immersed in the details of the crossselling scandal (until she retired just before the scam was
publicly revealed). Callahan served on the Corporate
Responsibility Committee, which Stumpf testified was
notified of the ongoing cross-selling scandal in 2014.
Because Callahan oversaw the Company’s reputation
management, she understood the severe implications that
the scandal would have on Wells Fargo’s reputation and,
therefore, its stock price.
156. According to the Board Report, Defendant
Callahan “had substantial influence at Wells Fargo. . . .
Stumpf characterized her as a confidante and trusted
advisor. Callahan also worked extensively with the Board,
including, at various times, as the primary contact in
management for the HRC and the Corporate
Responsibility Committee.”
157. Defendants Callahan and Hardison were
members of the Enterprise Risk Management
Committee, the “management committee through which
significant risks were reported, evaluated and escalated to
the Board by senior members of management.” The
ERMC met approximately monthly and “provided the
Board quarterly assessments of the largest risks facing
Wells Fargo.” The ERMC was specifically informed in
April 2014 that there were approximately 1,000 employees
terminated for sales violation in 2013.
158. Defendants Callahan and Hardison were also
members of the Team Member Misconduct Executive
Committee (“TMMEC”), which received reports on
various forms of misconduct by employees, including sales
integrity violations. Reports included the number of sales

-App. 99aintegrity allegations and cases. Michael Bacon (head of
Corporate
Security,
which
includes
Internal
Investigations) characterized sales integrity violations as
a matter of concern to the TMMEC.
159. According to the Board Report, “Hardison and
Callahan were very concerned about the number of people
being fired by the Community Bank. Hardison in
particular was concerned that the Community Bank was
blindly firing people and not looking for a root cause of the
problem, while Callahan was also concerned about the
reputational risk arising from the firings.”
160. As further stated in the Board Report, in April
2014, Hardison was “vocal in expressing her
dissatisfaction with the efforts made by the Community
Bank to understand and fix the problems, noting that it
appeared that they had not really done anything.” And
“Callahan’s sense was that the Community Bank was not
doing enough fast enough to address the sales practice
issues, but she did not push the pace of its efforts.”
161. Defendant Thornton was also directly aware of
the cross-selling scandal. Thornton served on the
Management Committee along with Defendants
Shrewsberry and Oden, among others. Further, while the
Company was firing thousands of employees for
fraudulent misconduct, and firing whistleblowers for
reporting on the misconduct, Thornton had front-line
responsibility for those issues since he was responsible for
their benefits and severances.
162. Further, based on Thornton’s role at the
Company, he had actual knowledge of: (a) the importance
of cross-selling metrics and Wells Fargo’s reputation to
the Company’s share price; (b) the systemic fraud being
committed and concealed; and (c) the resulting impact on
Wells Fargo’s stock price from the continued failure to

-App. 100acorrect the fraudulent practices and the Company’s
concealment thereof.
163. Additionally, with respect to the board, Stumpf
testified that “in 2014 various committees of the board
were made aware of [the ongoing fraud scandal] – the risk
committee, the audit and examination, the corporate
responsibility.” Likewise, as stated in the Board Report,
“[i]n February 2014, following publication of newspaper
articles critical of Wells Fargo’s practices in Los Angeles,
and continuously thereafter, management identified sales
practices as a ‘noteworthy risk’ to the Board and Risk
Committee.”
164. And Wells Fargo further admitted in its sworn
responses to the U.S. Senate that the Risk Committee was
apprised by management of “noteworthy risk issues,
which included, among other risks, sales conduct and
practice issues affecting customers and management’s
efforts to address those risks.”
165. Pursuant to the Risk Committee Charter, the
Risk Committee met at least quarterly before and during
the Class Period. The Risk Committee met with Wells
Fargo’s Chief Risk Officer, who is charged with
communicating any significant risk issues to the Risk
Committee. Michael Loughlin is Wells Fargo’s Chief Risk
Officer. Beneath him, on his Corporate Risk Leadership
Team during the Class Period, were Claudia Russ
Anderson and Kevin Moss, who were responsible for
monitoring risk within, respectively, Wells Fargo’s
community banking and consumer lending lines of
business.
166. As stated in the Board Report, Loughlin became
“more concerned about sales practices in October 2013,”
and in January 2014 he included sales practices in a
Significant Enterprise Risks memorandum to the Board.

-App. 101a167. The Risk Committee includes, among other
Directors, Dean and Sanger, who are also members of the
HRC. Because the HRC’s charter requires it to oversee
“the implementation of risk-balancing and risk
management methodologies for incentive compensation
plans and programs for senior executives and those
identified employees in a position to expose the Company
to material risk,” the systemic fraud being caused by the
onerous Wells Fargo incentive system would have been
(or should have been) at the very top of their threat list.
168. Further, Wells Fargo admitted in sworn
answers provided to the Senate in November 2016 that
management informed the HRC that it was “monitoring
sales integrity in Community Banking.”
169. Below
is
a
diagram
showing
the
interconnectedness of the Defendant fiduciaries, and how
not a single one was isolated from knowledge of the
rampant fraud:

-App. 102a-

170. With full knowledge of the ongoing fraud, Wells
Fargo management – which included Plan fiduciaries like
Hardison – took numerous steps to actively conceal the
cross-selling fraud by knowingly and intentionally filing
misleading, inaccurate, and incomplete Financial Industry
Regulatory Authority (“FINRA”) forms regarding
employees fired for cross-selling fraud.
171. According to a November 2, 2016 letter written
by three United States Senators to new-CEO Tim Sloan,
Wells Fargo deliberately misled FINRA about the
reasons for employees’ dismissals: “It would appear that
Wells Fargo concealed key information from regulators

-App. 103athat may have revealed the bank’s misdeeds long before
the September 2016 settlement [with regulators].”
172. Wells Fargo’s active concealment of its scheme
as it related to regulator investigations went well beyond
its FINRA lies, however. For example, in July 2016, the
same time that the OCC sent a Supervisory Letter to the
Company, Wells Fargo announced that Tolstedt would be
“retiring,” never mentioning the massive fraud
perpetrated by her division, and failing to disclose pending
investigations into the rampant misconduct by regulators.
173. The Wells Fargo press release concerning
Tolstedt’s “retirement” evidences the Company’s
concealment campaign. Although Wells Fargo’s senior
management and Plan fiduciaries knew that Tolstedt’s
Community Banking division had engaged in rampant
fraud against customers for many years, the Company’s
official press release in July 2016 contained a statement
by Stumpf extolling Tolstedt’s role at Wells Fargo as a
“champion” for customers: “A trusted colleague and dear
friend, Carrie Tolstedt has been one of our most valuable
Wells Fargo leaders, a standard-bearer of our culture, a
champion for our customers, and a role model for
responsible, principled and inclusive leadership.”
174. And Tolstedt is not the only senior executive to
furtively “retire” under the impending doom of the scam.
On information and belief, there are other senior
executives who have been allowed to “resign” or “retire”
on amicable terms (with no disclosure of wrongdoing)
rather than be fired for their knowledge of, and role in, the
illegal fraud.
175. Still other Wells Fargo senior executives were
privately disciplined, removed, or replaced without the
Company revealing to Plan Participants or the public that

-App. 104athose actions were connected, in any manner, to the
fraudulent misconduct or regulatory investigations.
176. For example, Claudia Russ Anderson, the
Company’s risk officer charged with helping to police the
division that created millions of fake accounts, took a sixmonth unpaid “leave of absence” (announced to employees
back in June 2016), and was later replaced in her position.
Anderson was a member of the corporate risk team, along
with Defendant Oden, and a member of the EBRC.
Anderson’s boss was Michael Loughlin, the Chief Risk
Officer, who reported to Defendants Dean and Sanger, in
their roles as members of the Risk Committee, as well as
Wells Fargo management. Further, Loughlin was a
member of the Operating Committee with Defendants
Hardison and Shrewsberry.
177. Despite
knowledge
of
the
crushing
consequences of the rampant fraud continuing and
inevitably being discovered, Defendants concealed the
conduct until the proverbial gun was pointed at their head.
But why did they choose, month after month, and year
after year, to not stop the fraud and to not tell the truth?
Why did they choose to let the Plan invest billions of their
retirement dollars into the company stock that the
Defendants knew was artificially inflated by reason of the
false cross-selling metrics? Because the Defendants
wanted to protect themselves. They wanted to keep their
lofty positions and that required that they continue to
“play ball,” just like Enron executives and their hopelessly
conflicted auditors, Arthur Andersen.
178. Indeed, as former bank regulator William Black
(now a law professor at University of Missouri-Kansas
City), stated, “[t]he only folks who win when fraud is
allowed to fester are the elite bank officers running the
fraud,” and that “[i]t would be far better for the bank, as

-App. 105awell as for the investors in the bank, for these frauds to
come out as quickly as possible, so they end as quickly as
possible.”2
179. The subjective motivation of Defendants was
clearly to protect themselves in the corporate ladder, and
not to help the vast swaths of workers simply trying to
provide for their families. Indeed, the contemporaneous
meeting minutes of the EBRC reflect no analysis or any
stated concerns about Plan Participants’ interests arising
from the artificial stock inflation resulting from the fake
accounts scheme.
180. The April 2011 Harvard Business Review
published a piece called “Ethical Breakdowns,”
chronicling the powerful and deleterious impact of
conflicts of interest. It discussed well-known cases like the
Ford Pinto and Barry Bonds. As is appropriate here, the
authors wrote: “It does little good to simply note that
conflicts of interest exist in an organization. A decade of
research shows that awareness of them doesn’t
necessarily reduce their untoward impact on decision
making. Nor will integrity alone prevent them from
spurring unethical behavior, because honest people can
suffer from motivated blindness. Executives should be
mindful that conflicts of interest are often not readily
visible and should work to remove them from the
organization entirely, looking particularly at existing
incentive systems.”3

2

https://www.thestreet.com/story/14357634/1/trump-rollback-ofcfpb-arbitration-rulecould-hurt-investors.html (last visited Oct. 26,
2017).
3

https://hbr.org/2011/04/ethical-breakdowns (last visited Oct. 26,
2017).

-App. 106a181. In fact, there is not a shred of evidence that the
Defendants ever even considered trying to protect Plan
Participants. Documents produced to date show that
Defendants never engaged in any analysis or thought as
to whether Plan Participants would be best served by
continuing to funnel money into Wells Fargo stock.
F.
The OCC Investigation
182. In addition to knowledge of the rampant fraud,
termination of thousands of employees for engaging in the
same conduct for the same reasons, and awareness of the
devastating impact soon to befall the stock (while
simultaneously protecting themselves), Wells Fargo
senior executives, including Plan fiduciaries, were acutely
aware of ongoing regulatory investigations related to the
fraudulent misconduct.
183. In February 2013, the Office of the Comptroller
of the Currency (“OCC”) issued a Supervisory Letter
which required Wells Fargo to develop an operational risk
compliance program to address widespread problems in
its business practices. In defiance of the admonitions,
particularly coupled with ample evidence from prior
internal complaints, the Company continued down the
path of fraud, inaction, and concealment.
184. Following the receipt of additional complaints
by consumers and bank employees alleging improper
sales practices, OCC examiners initiated meetings with
Wells Fargo senior executives to further evaluate Wells
Fargo’s business practices, including cross-selling.
185. In early 2014, the OCC directed Wells Fargo to
address its weaknesses in compliance and to establish a
comprehensive compliance risk management program
related to unfair and deceptive practices, including its
cross-selling sales practices. Again, the Company took

-App. 107ainsufficient measures to address the problems, and the
fraud, inaction, and concealment continued.
186. OCC examiners met with Wells Fargo
management throughout 2014 in furtherance of their
examination of Wells Fargo’s corporate governance
practices, which included an assessment of Wells Fargo’s
cross-selling and sales practices.
187. From at least 2014 and onwards, Wells Fargo
senior executives and Plan fiduciaries, most notably, but
not limited to, Defendants Hardison, Shrewsberry and
Oden, knew the OCC was examining the Company’s
practices. Nonetheless, the Company continued to foster
the cross-selling fraud, continued concealing it, and did
nothing to protect the Plan from the impending peril.
188. The OCC’s ongoing review of Wells Fargo’s
corporate governance and compliance practices, including
those relating to cross-selling, continued into 2015. This
included continued meetings with Wells Fargo’s
management. In March 2015, the OCC completed a multiyear assessment of Wells Fargo’s compliance
management systems, and identified the need for Wells
Fargo to improve its risk management and corporate
governance relating to operational and compliance risk.
189. In February 2015, the OCC conducted an
examination of Wells Fargo’s Community Bank
Operational Risk Management, which included evaluating
the Community Bank division’s sales practices oversight.
In April 2015, the OCC issued a Supervisory Letter
requiring Wells Fargo to address the corporate
governance of sales practices within its Community Bank
division.
190. Three months later, in June 2015, the OCC
issued another Supervisory Letter to the Company, citing
an “inappropriate tone at the top,” and addressing Wells

-App. 108aFargo’s lack of adequate control and oversight structure
in light of: (a) Wells Fargo’s emphasis on product sales
and cross-selling; (b) Wells Fargo’s lack of an enterprisewide sales practices oversight program; (c) Wells Fargo’s
lack of an effective enterprise-wide customer complaint
process; and (d) the lack of a formalized governance
process to oversee sales practices.
191. The June 2015 Supervisory Letter further
instructed Wells Fargo to take specific remedial actions,
such as to reevaluate its compensation and sales incentive
plans, and to independently assess and improve it sales
oversight processes. The OCC further instructed Wells
Fargo to remediate any consumer harm that resulted
from the sales practices at issue. Wells Fargo failed to
comply with any of these directives.
192. Additionally, the June 2015 Supervisory Letter
ordered Wells Fargo to retain an independent consultant
to review its sales practices and to assess consumer harm.
The consultants that Wells Fargo retained issued their
findings in October 2015, February 2016, and May 2016.
193. In July 2015, the OCC issued a Notice of
Deficiency to Wells Fargo that cited Wells Fargo’s
failures to comply with the OCC’s safety and soundness
expectations.
194. On July 16, 2016, the OCC issued a Report of
Examination, in which the OCC found and concluded that
Wells Fargo failed to address the previous corrective
directives, that Wells Fargo’s sales practices were
unethical and harmed customers, and that Wells Fargo
management had not promptly responded to these issues.
In addition, the OCC issued a letter to Wells Fargo,
stating that Wells Fargo had engaged in unsafe and
unsound banking practices.

-App. 109a195. The Board Report admits that regulatory
scrutiny was recognized within the Company. It stated:
“In May 2015 . . . [r]egulatory scrutiny increased as well.
From May 2015 until settlements were announced in
September 2016, the Board’s and Risk Committee’s
meetings addressed sales practice issues, responding to
regulatory concerns and remediating customer harm.”
196. As further stated in the Board Report,
“[t]hroughout the spring and summer [of 2016],
management advised the Board of ongoing settlement
discussions with the Los Angeles City Attorney, the
CFPB, and the OCC.”
197. Wells Fargo senior executives, including Plan
fiduciaries, thus intentionally flouted regulator directives
and investigations, and, instead, concealed the misconduct
in order to increase Wells Fargo’s profits and maximize
personal gains.
198. The public was unaware that Wells Fargo was
under OCC investigation and scrutiny over its crossselling sales practices. Wells Fargo did not disclose the
material information regarding the internal complaints,
nor the OCC’s regulatory letters, actions, and findings.
199. Wells Fargo’s campaign of concealment
included affirmative acts to mislead and conceal the
Company’s widespread campaign of deceit and customer
abuse. Wells Fargo also intentionally withheld material
information from the public – including Plan Participants
– about pending regulatory investigations. In sum,
Defendants were aware of systemic criminal and unethical
conduct at the Company since as early as 2005, through
internal and external reports and regulatory
investigations, yet Defendants actively concealed the
scope and extent of the problem from the public (including
Plan Participants), failed to protect Plan assets, and

-App. 110asignificantly increased the inevitable harm to Plan
Participants caused by years of additional misconduct and
concealment.
G.
Senior Management and Plan Fiduciaries
Enriched Themselves While Perpetuating
and Concealing the Fraud, Demonstrating
That They Did Not Make Their Fiduciary
Decisions With the Exclusive Purpose of
Benefiting the Plan.
200. While concealing the systemic misconduct, and
taking no actions to protect Plan Participants, Defendants
took affirmative actions to benefit themselves from the
systemic criminal conduct and the active concealment of
that conduct by senior Wells Fargo executives. In so
doing, Defendants violated their duty of loyalty because
their state of mind and consequent actions were not
motivated for the exclusive purpose of the Plan; rather,
they were motivated to benefit themselves.
201. Indeed, Defendants were trading their own
artificially-inflated Wells Fargo shares for vast personal
benefit, while they allowed Plan Participants to continue
buying shares of Wells Fargo stock at prices artificially
inflated by the Company’s concealment of the ongoing
fraud.
202. Defendant Shrewsberry disposed of over
240,000 shares of Wells Fargo stock at inflated market
prices during the Class Period.
203. Defendant Hardison disposed of over 70,000
shares of Wells Fargo stock at inflated market prices
during the Class Period.
204. Defendant Sanger disposed of over 10,000
shares of Wells Fargo stock at inflated market prices
during the Class Period.

-App. 111a205. Defendant Engel disposed of over 10,000 shares
of Wells Fargo stock at inflated market prices during the
Class Period, including selling almost 2,000 shares of
artificially inflated Wells Fargo stock on the open market.
206. Defendant Dean disposed of over 10,000 shares
of Wells Fargo stock at inflated market prices during the
Class Period, including selling over 2,000 shares of
artificially inflated Wells Fargo stock on the open market.
207. Defendant Chen disposed of over 2,000 shares of
Wells Fargo stock at inflated market prices during the
Class Period.
208. During the period in which Defendants had
actual or constructive knowledge of Wells Fargo’s
widespread criminal activity relating to its cross-selling
fraud, they reaped the benefits of the inflated stock price
and related bonuses, resulting in exorbitant compensation
and profits.
H.
The Inevitable Revelation of the Fraud
Destroyed Wells Fargo’s Reputation and Its
Stock Price.
209. While Wells Fargo management withheld
material information and rewarded themselves, Company
investors (with the 401(k) Plan being one of the largest),
paid a heavy price for the Company’s misconduct,
mismanagement, and, perhaps most notably, deliberate
deception.
210. While Wells Fargo’s bad conduct was common
knowledge to its senior leadership for many years, the
public revelation of that conduct in September 2016 took
the marketplace and Plan Participants by surprise due to
Defendants’ campaign of concealment.
211. On September 8, 2016, federal banking
regulators announced that Wells Fargo had been fined

-App. 112a$185 million for a host of illegal banking practices related
to the cross-selling scandal. The settlement included
penalties of $100 million assessed by the Consumer
Finance Protection Bureau (“CFPB”) (the largest penalty
in the history of that agency), $35 million by the OCC, and
$50 million by the City of Los Angeles (the largest such
penalty in the history of the City Attorney’s office). The
OCC simultaneously issued a cease and desist order
outlining the Company’s unsafe and unsound practices.
212. Specifically, in the Consent Order, the OCC
made several findings, including that the Company’s
“incentive compensation program and plans within the
Community Bank Group were not properly aligned with
local branch traffic, staff turnover, or customer demand,
and they fostered the unsafe or unsound sales practices …
and pressured Bank employees to sell Bank products not
authorized by the customer.”
213. Significantly, the OCC rejected any notion that
Wells Fargo’s illegal behavior was somehow isolated in
scope or duration, concluding instead that “the Bank
engaged in reckless unsafe or unsound banking practices
that were part of a pattern of misconduct.” The OCC
required full restitution to the Bank’s customers.
214. The CFPB’s Consent Order similarly found,
among other things, that Wells Fargo’s “employees
opened hundreds of thousands of unauthorized deposit
accounts and applied for tens of thousands of credit cards
without consumers’ knowledge or consent.”
215. In the news conference announcing the
penalties, regulators said that Wells Fargo employees
opened roughly 1.5 million bank accounts and applied for
565,000 credit cards that may not have been authorized by
customers in the 2011-2015 timeframe.

-App. 113a216. The regulators stated that these practices
reflected serious flaws in the internal culture and
oversight at Wells Fargo. As Richard Cordray, director of
the CFPB, explained, “The gravity and breadth of the
fraud that occurred at Wells Fargo cannot be pushed aside
as the stray misconduct of just a few bad apples. The
stunning nature and scale of these practices reflects
instead the consequences of a diseased orchard.”
217. The fallout from the scandal was immediate and
devastating to Wells Fargo’s reputation, its market value,
and Plan assets. And, as information continued to leak out
to the marketplace regarding the Company’s misconduct,
Wells Fargo’s stock price continued to be detrimentally
affected as a direct result thereof.
218. Lawmakers throughout the government
promptly delivered stinging criticisms of the Company,
with Senator Elizabeth Warren at the forefront,
describing Wells Fargo’s behavior as a “staggering
fraud.” Treasury Secretary Jack Lew commented: “The
pattern of behavior that we’ve seen here is something that
needs to stop. It is not acceptable to do things that are
designed to increase either an individual or firm’s bottom
line by deceiving customers or passing on charges that are
either invisible or they don’t know about.” Comptroller of
the Currency Thomas Curry echoed these sentiments,
stating: “These practices … undermine the fundamental
trust that goes to the heart of the bank-customer
relationship. They are unacceptable and have no place in
the federal banking system.”
219. On September 20, 2016, the Senate Banking
Committee held a hearing on the matter (the “Senate
Hearing”), and Committee members from both parties
lambasted Stumpf and the Company. Below are just a few
of the statements the Senators directed to Stumpf:

-App. 114a•

•

•

•

Senator Elizabeth Warren: “You squeezed
your employees to the breaking point so you
could cheat customers and drive up the
value of your stock. And when it all blew up,
you kept your job, your multi-million dollar
bonuses, and went on TV and blamed
thousands of $12-an-hour employees trying
to meet cross-sell quotas. You should resign.
You should be criminally investigated by the
Department of Justice and Securities and
Exchange Commission.”
Senator Pat Toomey: “Wells Fargo wasn’t
cross-selling. Failing to notify these
customers about these sham accounts, this
isn’t cross-selling, this is fraud.”
Senator Toomey: “You state unequivocally
that there are no orchestrated effort or
scheme [sic], as some have called it, by the
company. But when thousands of people
conduct the same kind of fraudulent
activity, it’s a stretch to believe that every
one of them independently conjured up this
idea of how they would commit this fraud.”
Senator Warren: “You keep saying, ‘The
board, the board,’ as if they’re strangers you
met in a dark alley…. You are not passive
here. If you have nothing to do, then what
are you doing serving as chairman of the
board? If you have no opinion on the most
massive fraud to hit this bank since the
beginning of time, how do you get to
continue getting a check as chairman of the
board?”

-App. 115a220. After the hearing, the harsh criticism continued.
Ed Mierzwinski, consumer program director at the U.S.
Public Interest Research Group, said Stumpf’s apology
was not enough to contain the scandal. “I think the CEO
of Wells Fargo failed to disprove that it was a massive
fraud,” said Mierzwinski, who attended the hearing. “No
senator believed him.”
221. On September 29, 2016, the U.S. House of
Representatives Financial Services Committee held a
hearing (the “House Hearing”) on the matter, during
which Representative Brad Sherman criticized Stumpf for
his position that the non-disclosed information relating to
the broad and systematic fraud scheme “was not
material.” Examples of Sherman’s admonitions include
(emphasis added):
• “This sham was not an attempt to steal a few
million dollars in fees from your customers,
although that’s important, because you
could say that a few million dollars wasn’t
material. What was material was the price
of your stock. You opened two million phony
accounts and then went and told … and it
had to be material because you were
bragging about it to the people investing in
your stock – that you had higher
penetration rates, more accounts per
customer, that the number of banking
customers that had credit cards had grown
from the mid-20% up to 42%, so it had to be
material. You were talking about it. The
peak firings, according to your own
documents, was in 2013, so you knew you
had a problem then.”

-App. 116a• “Why didn’t you tell shareholders our
penetration rates are phony, our new
accounts are phony accounts, and when we
tell you we’re deepening our relationship
with our customers, we’re doing so by
putting them through the wringer. What
internal audit system did you have that
assured you that you didn’t have a material
problem?”
• “Mr. Stumpf, you were bragging … you were
firing, according to your own documents,
the highest number of people in 2013, but
bragging about your penetration rates, the
number of accounts opening, in 2014, so you
knew it was material to shareholders and
you knew it was a phony number that you
had fired people for falsifying.”
• “You fired 5,300 people. You took 5,300 good
Americans and turned them into felons,
with a system that you created, benefited
from, and drove your stock price up by
bragging about your levels of new
accounts.”
222. On November 18, 2016, Senator Sherrod Brown
of the Senate Banking Committee harshly criticized Wells
Fargo for providing unsatisfactory written responses to
questions that the Committee submitted to it. Senator
Brown questioned how “Wells Fargo can restore the trust
of its customers if it continues to ignore or dodge basic
questions about the causes and consequences of the fraud
that it permitted for years.”
223. Further, on November 18, 2016, the OCC
announced that it was restricting the Company from
offering departing executives “golden parachute”

-App. 117apayouts, and that the Company must get the OCC’s
permission before it changes its business plans, hires or
fires senior executives, or revamps its Board of Directors.
224. Since the scandal was revealed to the public in
September 2016, many additional investigations have
been launched at both the federal and state level, certain
of which may result in criminal indictments and further
damage to the Wells Fargo and its shareholders.
225. Federal prosecutors in U.S. Attorney’s Offices
in New York, California, and North Carolina have opened
investigations into Wells Fargo’s sales practices.
226. The State of California has also opened a
criminal investigation on allegations of identity theft.
227. And on November 2, 2016, Wells Fargo
confirmed that the SEC is investigating it for its
fraudulent sales practices, along with a myriad of other
state, local, and federal government agencies.
228. The rampant misconduct and management’s
campaign of concealment resulted in fines of $185 million,
an approximate 12% drop in the Company’s stock (a loss
of approximately $22 billion in market capitalization),
numerous stock downgrades, and significant lost business
(e.g., New York City, the State of California, the State of
Illinois, the Commonwealth of Massachusetts, and the
State of Ohio).
229. More recently, after Wells Fargo announced, in
August 2017, that the total number of unauthorized
accounts was at least 3.5 million, the Senate Banking
Committee held yet another hearing to address Wells
Fargo’s misconduct. Senator Warren called for Mr.
Sloan’s firing, and Senator Schatz suggested the
revocation of the Company’s charter. Mr. Sloan admitted

-App. 118athat “The bank’s leaders acted too slowly and too
incrementally. That was unacceptable.”
230. Wells Fargo’s systemic fraud, and prolonged
concealment of it from the marketplace, has devastated its
reputation among its customers, the financial services
industry, government representatives and regulators, and
the public at large, thereby devastating its share price:
a. The Wall Street Journal reported on
September 9, 2016: “A $185 million fine is
small change for Wells Fargo & Co.,
which had profit last year of almost $23
billion. But the reputational blow from
claims of ‘widespread illegal’ sales
practices could prove costly…. But in the
case of Wells Fargo, banking specialists,
analysts and investors say the damage
may be just starting. ‘This scandal, easy
to understand and not nearly as complex
as mortgage-backed securities, seriously
undermines Wells Fargo’s Main Street
image,’ wrote Ian Katz, director at
research firm Capital Alpha Partners
LLC. Those allegations could hurt the
bank’s ability to attract new customers,
could prompt current customers to look
for another bank and affect the amount of
products and services Wells Fargo is able
to sell to new or existing customers, said
Allen Tischler, a senior vice president at
Moody’s who focuses on U.S. banks.”
b. “The
regulators’
findings
are
consequential for a bank such as Wells
Fargo, which historically has had strong
customer satisfaction scores and a

-App. 119areputation for sound risk management,”
Moody’s analyst Allen Tischler wrote.
“We do expect some immediate damage
to Wells Fargo’s reputation from this
embarrassing episode.”
c. In its most recent quarterly earnings
report, Wells Fargo reported: (i) doubledigit percentage drops in bank account
openings; (ii) declines in bank branch
traffic; (iii) new account openings had
taken a nosedive – customers opened 25
percent fewer checking accounts and
applied for 20 percent fewer credit cards
in September compared with a year ago;
(iv) a gauge of customer loyalty – which
asks customers whether they would
recommend Wells Fargo to family and
friends — was also down in September.
Wells Fargo executives acknowledged
that customers may have shunned the
bank as the result of the scandal.
d. On December 16, 2016, Wells Fargo
reported that (i) new consumer checkingaccount openings continued to fall in
November, down 41% from the previous
November; and (ii) new credit card
applications fell 45% from the previous
November.
e. According to a recent survey, fourteen
percent (14%) of Wells Fargo customers
have decided to leave the bank, with
another thirty percent (30%) considering
other alternatives, including walking out
the door.

-App. 120af. On June 20, 2017, Barron’s ranked Wells
Fargo as the least respected company in
the United States (of “the 100 largest
components of the Standard & Poor’s 500
(based on the index’s composition as of
April 19)”). Barron’s stated that “Wells
Fargo suffered a quick and severe loss of
investor respect in the past year, and
would up plunging to last place . . . The
bank was faulted for numerous lapses,
including opening millions of fictitious or
unauthorized
customer
accounts.
Further reputational harm came from
the wide spread view that management
was too slow in owning up to and fixing
the problems. Wells, which ranked No. 7
as recently as 2015, got 54 Don’t Respect
votes, the most by far of any company on
this year’s list.”
231. Indeed, Wells Fargo’s misconduct and years of
concealment will continue to have long-lasting detrimental
effects. This is especially harmful to Wells Fargo because
banking, and particularly retail banking, is an industry
built on customer trust and the integrity of the bank – the
very things Wells Fargo repeatedly promoted and
emphasized while it engaged in its above-described trust
and integrity-killing scheme.
232. As explained above, Wells Fargo has taken
great pains to try to set itself apart from its competitors
with a reputation based on integrity and honesty. Thus,
the negative effect when that reputation is destroyed is
that much greater.
233. Investor Place, an investing and financial news
site, summarized it as follows:

-App. 121aThe scale of the deception was so vast that it was
immediately clear that the company’s incentive
system bears a large part of the blame. With their
jobs on the line, lower-level WFC employees did
what it took to make their numbers. That’s not an
excuse in any way for their behavior, but the blame
ultimately lies with Wells Fargo. Eliminating sales
goals helps ensure that the bank doesn’t have
another such scandal. It’s also important for optics.
WFC needs to be seen moving swiftly and
decisively to address the problem. But it doesn’t
help Wells Fargo stock. It certainly does
nothing for WFC’s once-sterling reputation as
the ‘cleanest’ of the big banks. In fact, Wells
Fargo will never get its name back in quite the
same way.
(Emphasis added).
234. Reputational damage leads to the public’s loss of
confidence in a bank and negatively affects the bank’s
consumer sales and ultimately its revenue and profits as it
is likely that both current customers and prospective
customers will refrain from doing business with a bank
that they cannot trust.
235. In addition to the above facts, on September 29,
2016, California’s State Treasurer announced that, due to
the actions of Wells Fargo described herein, it would
suspend its business relationship with Wells Fargo for one
year. This is estimated to cost Wells Fargo over $700
million, not to mention the inevitable ripple effects of such
a public rebuke.
236. Likewise, on October 3, 2016, Illinois’s State
Treasurer announced that Illinois would suspend most
business with Wells Fargo for one year, amounting to
approximately $30 billion in transactions.

-App. 122a237. Ohio, Massachusetts, Pennsylvania, and others
followed suit.
238. The key principles of good corporate
governance are transparency, integrity, responsibility,
and fairness. Until Wells Fargo can once again prove to
the public that it possesses good corporate governance
and integrity, its reputation will continue to be harmed
and market confidence in the Company will remain low.
239. The damages to Wells Fargo’s cross-selling
platform are immense. The metrics they touted, and the
consequent praise bestowed upon them by analysts and
the investor marketplace, were fraudulent, calling into
question Wells Fargo’s number one competitive
advantage. And because Wells Fargo fostered and
concealed the fraud for so long, it had to entirely abandon
any type of incentive system for legitimate and beneficial
cross-selling.
240. Moody’s issued a report stating that revelations
that bank employees had opened the accounts are “highly
disturbing” and that the “deficiencies” uncovered by the
CFPB and other government investigators show that the
bank’s “vaunted cross-selling capabilities were inflated.”
241. Wells Fargo’s wrongful conduct directly caused
a substantial drop in Wells Fargo’s stock price. For
example, between the close of the market on September 7,
2016, the day before Wells Fargo’s fines and the partial
extent of the scandal were first disclosed, and September
15, 2016, Wells Fargo’s stock price declined from $49.77
per share to $46.15 per share, representing a loss of more
than $18 billion in market capitalization and resulting in
losses to the Plan of $1 billion. The Wells Fargo price drop
stands in stark contrast to the S&P 500 index, which,
during that same time frame, increased 8.7%.

-App. 123a242. And immediately after news of the fraud went
public, J.P. Morgan downgraded Wells Fargo stock, with
analyst Vivek Juneja warning that the Company has
suffered a “material reputational hit” and that “mounting
public scrutiny” of the unauthorized account openings
“will result in additional investigations.”
243. Similarly, on October 4, 2016, Raymond James
downgraded Wells Fargo stock, stating that it has a
“cloudy outlook on Wells Fargo as the company undergoes
additional investigations, lawsuits and fines in connection
to the misconduct.”
244. And on October 4, 2016, Fitch downgraded its
outlook on Wells Fargo from stable to negative, warning
that Wells Fargo may lose its AA credit rating for the first
time in two decades because of damage to its reputation
and profits from the scandal.
245. Standard & Poor’s likewise downgraded Wells
Fargo from stable to negative, “saying risks for the
magnitude of the reputational damage have increased in
the wake of the unauthorized accounts scandal and the
potential for ongoing legal and regulatory investigations.”
246. On October 12, 2016, Zacks Equity Research
stated, as a reason to sell, that “Wells Fargo is likely to
face further troubles following the recent $190-million
settlement tied with opening of millions of unauthorized
accounts.” Specifically, Zacks noted: “‘Cross-selling,’
which has been the company’s key strength in recent
years, drew regulators’ attention as they found thousands
of employees of the bank unlawfully enrolled consumers
in products and services without their knowledge or
consent in order to receive incentives for meeting sales
targets.” Zacks further noted that Wells Fargo “faces
suspension of business relations with states including

-App. 124aIllinois and California and cities such as Chicago and
Seattle.”
I.
Defendants Violated Their Fiduciary Duties
to the Plan.
247. Defendants breached their fiduciary duties
owed to the Plan and Plan Participants, including the
fiduciary duties set forth in ERISA § 404, 29 U.S.C.
§ 1104, and Department of Labor Regulations, 29 C.F.R.
§ 2550. As a result of these breaches, Defendants are
liable to the Plan for all losses resulting from each such
fiduciary duty breach.
248. Defendants’ failure to act prudently, loyally, and
competently has resulted in losses to the Plan and its
Participants because of the significant drop in the
Company’s stock price immediately upon the news of the
scandal, causing not less than hundreds of millions of
dollars in Plan losses.
249. Because Defendants knew or should have
known the precise nature of the fraud, and the impact it
would have on Wells Fargo’s cross-selling program and
reputation when the scheme was inevitably discovered,
Defendants also knew that: (a) the value of Wells Fargo
stock was artificially inflated; and (b) the value of Wells
Fargo stock would be materially and detrimentally
affected once this non-public and nondisclosed fraud was
disclosed following the Company’s prolonged cover-up;
and (c) the longer the fraud is permitted to fester, and the
longer the fraud is concealed, the greater the inflation and
the greater the ultimate damage upon revelation – which
is precisely what happened here.
250. A prudent and loyal fiduciary would have
recognized that the inevitable disclosure of the broad and
systemic fraudulent scheme, after the prolonged time
period for which it was concealed, would severely and

-App. 125adetrimentally affect the Plan’s investment of employees’
retirement savings in Wells Fargo stock and would
inevitably result in significant losses.
251. And most importantly, no prudent and loyal
fiduciary could have concluded that failing to stop the
fraud and continuing to cover up the scandal – amidst
government investigations and knowing that the truth
would inevitably be revealed – was a proper (or legal)
course of conduct. Indeed, common sense tells us this, as
confirmed by the Motley Fool’s summary on September
27, 2016 concerning the Wells Fargo scandal: “Sometimes
the cover-up is worse than the crime.”
252. Rather than honor their fiduciary obligations to
the Plan, Defendants chose to protect Company
executives, and their own positions, at the expense of the
Plan Participants. Executives were lauded and rewarded
with millions of dollars of bonuses and stock options based
on cross-selling “successes,” motivating Defendants to do
nothing that would reveal the fraudulent practices or
indicate their materiality, in essence, kicking the
proverbial can down the road.
253. Plan Participants invested in Wells Fargo stock,
on the other hand, did not have full knowledge of the widereaching fraudulent scheme or of Wells Fargo’s
regulatory problems. Unlike Defendants, Plan
Participants did not know that more than 5,000 employees
had been fired as part of the scheme or that millions of
unauthorized accounts had been opened on behalf of
unsuspecting customers over a period of several years.
They did not know of the existence or reach of numerous
regulatory investigations. They did not know that Wells
Fargo executives were “retiring” as a result of the
rampant misconduct or that large regulatory fines were
imminent. They did not know that Wells Fargo’s

-App. 126aconcealed fraud was distorting the Company’s financial
results and artificially inflating its stock price. And they
did not know that when their retirement assets were
invested in Wells Fargo stock, they were overpaying and
would inevitably suffer losses when the Company’s illfated campaign of concealment was exposed, and when the
Company would be forced to stop its fraudulent practices.
254. Accordingly, any Plan Participants who
purchased Wells Fargo stock during the Class Period did
so at artificially-inflated prices. Additionally, any Plan
Participant who purchased or held Wells Fargo stock
during the Class Period suffered investment losses, and
also lost out on gains experienced in alternative
investments under the Plan.
255. As fiduciaries, Defendants were obligated to
consider whether the nonpublic information to which they
were privy regarding the breadth and systemic extent of
the fraud would be material to investors and, specifically,
Plan Participants. And it was, indisputably, material.
256. At the very least, Defendants should have
evaluated the non-disclosed information in light of the
total mix of information. Had Defendants done so, they
would have readily determined that the information would
be material to the market, shareholders, and Plan
Participants. There is more than a substantial likelihood
that a reasonable investor would have viewed this broad
and systemic fraud as having significantly altered the total
mix of information available. In fact, the market reaction
to the disclosure, following the sustained nature of the
fraud and the corresponding coverup, definitively proves
this point.
257. But Defendants never even attempted to engage
in such an analysis, further proving that their interests

-App. 127aand motives were not to benefit Plan Participants, but,
rather, to conceal the fraud to benefit themselves.
258. Indeed, Defendants never initiated any
investigation, analysis, or inquiry regarding the impact of
the concealed and ongoing wrongdoing on the Plan
because they weren’t even considering the Plan’s
interests.
259. Defendants’ repeated decision to continue
pouring employees’ money into the Plan was not
predicated on a subjective intent to benefit the Plan; it was
done solely with the intent of preserving Defendants’ own
place in the Company hierarchy and to keep their own
personal financial engines humming. This conflict of
interest led to concealment and that led to substantial
Plan losses, to the detriment of Plaintiffs and the other
Class members. And it all stemmed from Defendants’
greed. That is classic disloyalty under ERISA or
otherwise.
260. A materiality analysis requires both a
quantitative analysis and a qualitative analysis which
turns on what a reasonable investor would find important
in making an investment decision, including the potential
impact of corporate activities upon the company’s
reputation and share value.
261. The omitted information about Wells Fargo’s
broad and systemic fraud was material because, among
other reasons: (a) the omission masked the fact that Wells
Fargo’s touted cross-selling successes were both a sham
and unsustainable; (b) such an omission masked changes
in earnings or sales trends; (c) the omission concerns the
Banking and Retail Services divisions, each of which plays
a significant role in operations and profitability; (d) the
omission related directly to Wells Fargo’s reputation,
specifically its position of trust with its own customers;

-App. 128aand (e) the omissions involve the concealment of unlawful
transactions.
262. Accordingly, the undisclosed fraud not only
inflated Wells Fargo stock price but likely also violated
the federal securities laws. In addition, the lengthy coverup made the situation far worse for Plan Participants.
263. At its most fundamental level, Defendants had
an obligation at least to consider the interests of the Plan
and put those interests first. They did not do so. An
examination of Defendants’ documents, however, reveals
that not a single analysis or inquiry was made into the
interests of the Plan in the face of the Company’s
devastating ongoing harm. That fact alone establishes a
violation of the duty of loyalty. Defendants could not have
been acting for the Plan if they never even considered the
Plan’s interests (as their “exclusive purpose”), as is
required by ERISA.
264. The reasonable and easily foreseeable results of
Wells Fargo’s nondisclosure of the broad and systemic
fraud were material, including: (a) large regulatory fines;
(b) shareholder lawsuits; (c) consumer lawsuits; (d) civil
fines; (e) loss of stock value; (f) the adverse effect on Wells
Fargo’s reputation; (g) dismantling of the legitimate
aspects of the cross-selling program; and (h) and Wells
Fargo’s employees’ losses resulting from the Plan’s
continued investment in Wells Fargo stock.
265. Any tension between the securities law and
Defendants’ fiduciary obligations is one of their own
making. Fiduciaries without disclosure obligations under
the federal securities laws, as well as those with such
obligations, have it within their power to prevent harmful
investments by Plan Participants. Fiduciaries without
disclosure obligations should act to protect Plan
Participants as soon as they know or should know that

-App. 129amaterial information for which disclosure is required
under securities laws is not being released to the public.
Fiduciaries with securities law disclosure obligations
should act to protect the Plan Participants under ERISA
as soon as the federal securities laws require disclosure.
266. The fact that certain fiduciary Defendants
decided not to act at an early stage does not mean that
ERISA fiduciary duties do not apply thereafter. Rather,
it means quite the opposite. It means that they are
continuing to violate their fiduciary duties by not acting.
J.
Duty of Prudence: No Prudent Fiduciary
Could Have Concluded That Alternative
Actions For The Plan Would Have Caused
More Harm Than Good; Defendants’ Failure
to Consider and Implement Alternative
Actions Damaged The Plan.
267. Under the specific facts of this case, no prudent
fiduciary could have concluded that alternative actions for
the Plan would have caused more harm than good.
268. To comply with their duty of prudence,
Defendants were required to take alternative actions for
the Plan because the underlying fraud, and concealment
thereof, went to the very heart of Wells Fargo’s two key
drivers of share value – cross-selling and a reputation for
truthfulness and loyalty. Wells Fargo repeatedly touted
these key aspects of their business model and share value,
and analysts and the investing public relied on these
aspects to drive up share value for years.
269. And because the nature of the fraud and related
investigations was such that it was inevitable that the
existence and facts of the scheme were ultimately going to
be unearthed and disclosed, taking alternative action was
mandatory to protect the Plan.

-App. 130a270. Among the alternative actions available to
Defendants, which no prudent fiduciary would have
deemed to cause more harm than good to the Plan, were
the following to fulfill their ERISA duties of prudence:
a.
Adequately implementing processes to stop the
known fraud and to mitigate the adverse
consequences of the known fraud, including but
not limited to, an earlier, comprehensive, and
genuine investigation into the known
wrongdoing; the protection of whistleblowers;
and the implementation of compliance
requirements and reporting measures as
required and suggested by regulators. As is
evidenced by the actions and statements of
Wells Fargo after the scandal was revealed on
September 8, 2016, Wells Fargo had the ability
to implement practical solutions to prevent the
fraudulent practices. During a November 3,
2016 investor conference, Wells Fargo
announced, through CEO Tim Sloan and retail
banking head Mary Mack, “that Wells Fargo is
moving quickly to put in place new rules for its
workers that will prevent the sort of culture
that lead to the scandal….” The alternative
action of developing processes to stop the
known fraud (such as revising the incentive
structure, which they have now abolished
entirely) would necessarily have benefitted the
Plan. Solely by way of example, other measures
that could have been undertaken include: (i)
introducing risk management guidelines
regarding the sale and cross-sale of services,
and more importantly, the Bank’s central
values,
ethos
and
compliance-based
performance requirements; reviewing and

-App. 131a-

b.

testing regulatory compliance and risk
management by the Board of Directors and
management (including those responsible for
Wells Fargo’s 401(k) Plan) and held such
individuals responsible and accountable;
seeking forfeiture from Board members and/or
management and employees for any personal
investment gains, compensation and/or benefit
packages obtained during and as a result of the
illegal and unethical activities within the
Community Banking division; (ii) conducting
risk assessment analyses, workshops and
training at all levels of the organization; and/or
(iii) appointing an independent monitor to
oversee the actions of the Board, management
and 401(k) plan fiduciaries to mitigate the harm
caused to customers, employees and investors
(including the plaintiffs in this action) and
ensure that the Bank’s regulatory compliance
and risk management are effective and lead to
sound sales practices by the Company. Had
Wells
Fargo
adequately
implemented
processes to stop the known fraud, it would
have, at least, reduced the ultimate amount of
fraudulent activity and demonstrated its
dedication to integrity. This would necessarily
have benefitted the Plan because, upon the
eventual revelation of the fraud, there would
have been, at least, less of a negative impact on
Wells Fargo’s reputation and on Wells ability to
continue engaging in acceptable sales practices
that it has now had to curtail.
Undertaking truthful and complete public
disclosure earlier, by Board members and
managers to the public, including participants

-App. 132ain, and beneficiaries of, Wells Fargo’s 401(k)
Plan, and to government regulators including,
but not limited to, the OCC, CFPB, SEC,
FDIC, and DOL, in order to protect customers
and investors, especially Plan Participants,
against the known fraud. This alternative
action would also have been necessarily more
beneficial to the Plan than what the Plan
fiduciaries actually did, which was to permit the
fraud to fester and then to actively conceal the
scandal for years. By making an early and
truthful disclosure, the benefits would have
been multi-fold: (1) the fraud would have been
reduced significantly in scope because the
disclosure was a strong signal that employee
fraud was being taken seriously and it was not
tolerated, (2) investors would have thereby
received some assurance that the Company was
taking the issue seriously and taking actions to
remedy it, and (3) the Company’s reputation for
integrity would have been far less damaged as
opposed to the active concealment and
disingenuous posturing after the fact (including
Stumpf’s ill-fated and scripted positioning
during the Senate Hearing). It would have also
given Plan Participants a fair opportunity to
make informed decisions about the investment
of their monies under the Plan. Further, by
making an earlier disclosure, it would have led
to the stock no longer being artificially inflated
in the market, and would have significantly
reduced the amount of artificially-inflated stock
purchased by the Plan Participants. In sum, no
prudent fiduciary could have deemed an earlier
truthful and accurate disclosure would have

-App. 133a-

c.

d.

caused more harm than good when the problem
was going to be unearthed eventually,
particularly in light of extensive regulatory
investigations and increasing pressure due to
the pattern of firing thousands of employees,
including whistleblowers. Like a Ponzi scheme,
the end was coming; rather than reducing the
losses much earlier, Wells Fargo Plan
fiduciaries let the scheme go until everyone lost
everything;
Freezing further stock purchases (and sales) by
the 401(k) Plan earlier, when the extent of the
fraud, its inevitable effect on the Company’s
reputation, and the increased harm that would
occur from continued concealment became
clear. The rationale for this alternative action,
which would have necessarily benefitted the
Plan, is similar to the above. By freezing further
stock purchases and sales, Plan fiduciaries
would have prevented Plan Participants from
purchasing billions of dollars of Wells Fargo
stock at fraudulently-inflated values;
Discontinuing the automatic investment under
the Plan of the employer contributions into
Wells Fargo stock. The fact that the Company
defaulted employer matching contributions into
Wells Fargo stock is particularly problematic
because 34% of the Plan was invested in Wells
Fargo stock and, as the Company knows, since
it is one of the largest third-party
administrators for 401(k) plans, and as found by
the Pension Research Council at The Wharton
School, University of Pennsylvania, “most
401(k) plan participants are characterized by

-App. 134a-

e.

4

profound inertia.”4 This alternative action could
not possibly have caused damage to the Plan.
Rather, it would have provided the benefit of
diversification and decreased the amount of
Wells Fargo common stock purchased at
fraudulently-inflated values;
Purchasing a hedging product. Defendants
could have used their authority as fiduciaries to
divert some of the Plan’s funds into a low-cost
hedging product that would behave in a
countercyclical fashion vis-à-vis Wells Fargo
stock. Products such as the ESOP Protection
Trust, designed by StockShield, LLC, are
structured as irrevocable trusts which pool
funds together from a group of financially
healthy and diverse companies for a fixed
period of time. Applicants are thoroughly
screened and vetted for the benefit and
protection of other participating companies.
The trust is managed by an independent third
party. During a fixed time period, the pooled
funds are invested in safely and securely,
typically in U.S. Treasury securities. At the
conclusion of the fixed period, the trust restores

Pension Research Council, The Wharton School, University of
Pennsylvania Olivia S. Mitchell, Gary R. Mottola, Stephen P. Utkus,
and Takeshi Yamaguchi, The Inattentive Participant: Portfolio
Trading Behavior in 401(k) Plans: “Most workers in defined
contribution retirement plans are inattentive portfolio managers: only
a few engage in any trading at all, and only a tiny minority trades
actively. Using a rich new dataset on 1.2 million workers in over 1,500
plans, we find that most 401(k) plan participants are characterized
by profound inertia. Almost all participants (80%) initiate no trades,
and an additional 10% makes only a single trade, in a two-year
period.” (Emphasis added)

-App. 135alosses caused by declines in price of company
stock. Typical products offering this protection
only require annual cash deposits of 1-2%.
However, if the trust is not required to restore
any losses to participating companies, refunds
of over half of the amount of the annual
contributions are typically issued to
participants. This can bring the cost of
participation down to 0.10% per year. Second,
should the participant’s stock appreciate in
value during the fixed period, the participant
retains all of the benefit of that appreciation,
and all of the benefit of any dividends paid. No
fiduciary would deem this alternative action to
do more harm than good because it provides the
Plan, and other investors, with the benefits of
protecting against the inevitable fallout from
the scandal. If Plan fiduciaries pursued a
hedging strategy, the effect of the artificial
share inflation would have been significantly
less, thereby benefitting Plan Participants
instead of harming them under the path Wells
Fargo actually took.
271. Despite having these corrective options – and
other options – available to the Company, Defendants
failed to take any of these actions to protect Plan
Participants.
272. No prudent fiduciary could deem that no
corrective action – particularly considering Wells Fargo’s
systematic concealment and simultaneous self-dealing –
would be better than performing one or more of the above
alternative actions. Indeed, the radical drop in Wells
Fargo’s stock price following disclosure of the prolonged
Company misconduct and cover-up proves this point.

-App. 136a273. Where a known, ongoing fraud exists – and,
therefore, a disclosure (or possibly a corrective disclosure)
is separately required by the securities laws – a plan
fiduciary’s overarching objective must be to stop the fraud
and prevent the plan from continuing to purchase
artificially-inflated stock while the fraud continues. This is
particularly true in this case when the concealed fraud
related to Wells Fargo’s own professed key drivers of
stock value – cross-selling and its reputation.
274. Because Wells Fargo had an obligation under
the securities laws to disclose the material information
relating to the fraud, a prudent and loyal fiduciary could
not have concluded that taking alternative corrective
actions would have caused more harm than good to Plan
assets. And even if Wells Fargo did not have an obligation
under the securities laws to disclose the material
information, no prudent and loyal fiduciary could have
concluded that taking other alternative actions would
cause more harm than good to Plan assets. In failing to do
so, Wells Fargo severely damaged its reputation, which
the marketplace values, particularly in the banking field.
As stated in the 2016 Journal of International Banking
Law and Regulation in an article entitled Fraudsters at
the Gate: How Corporate Leaders Confront and Defeat
Institutional Fraud: “Banks and banking rely on trust.
Trust can take years, if not decades, to establish, but can
be lost in an instant.” And as the Charlotte Observer
stated: “The allegations have marred the reputation of
Wells Fargo, the third-largest U.S. bank by assets and the
nation’s biggest home lender.”
275. Tim Sloan, new CEO of Wells Fargo, echoed this
principle and confirmed Wells Fargo’s corrupt culture and
the impact it had on the Company: “There are things that
need to be fixed within our culture. There are weaknesses

-App. 137awithin it that must change. If my top priority as CEO is to
restore the trust we've lost, then I also need to make it safe
to talk about the problems that got us here – no matter
where they began, no matter where the responsibility
lies.”
276. Defendants knew – or should have known – that
disclosure of the fraud was going to happen one way or
another. The federal securities laws required disclosure.
Wells Fargo was being investigated by multiple
regulatory agencies; the fruits of those investigations
were eventually going to become public and thus reveal
the truth about the Company’s misconduct – indeed, that
is exactly what ended up happening. Whistleblowers were
coming forward; sooner or later one of them was going to
get the ear of the government or the media. Thus, the
question was not whether they could prevent a stock drop
due to Wells Fargo’s fraud, but when that drop would
occur, and how severe it would be. Defendants should have
recognized that the sooner they acted, the less severe the
drop, and, therefore, the less harm to the Plan and to Plan
Participants.
277. If Defendants had undertaken a corrective
public disclosure at any time prior to the news of the
scandal breaking on September 8, 2016, then every Plan
Participant who purchased Wells Fargo stock between
that point and September 8, 2016 would not have
purchased Wells Fargo stock at an artificially inflated
price caused by concealment of the scandalous fraud.
278. Further, any reasonably prudent fiduciary
would have foreseen that delaying any corrective action,
including the disclosure of the broad and systemic fraud,
would exacerbate the negative impact on Company stock
value that would occur upon revelation of the fraud, and
would have acted prudently by taking one or more of the

-App. 138aalternative actions described above in order to adhere to
their ERSIA fiduciary duties. This principle was
poignantly echoed by Stumpf during his Senate
testimony: “We should have done more sooner.”
279. If Defendants had taken steps to eliminate the
fraud in combination with corrective public disclosure
near the very beginning of Wells Fargo’s herein-described
fraudulent conduct, almost all of the artificial inflation of
Wells Fargo’s stock price that occurred could have been
avoided, and virtually no Plan Participants would have
been harmed. But as the fraud went on, Plan Participants
unknowingly continued making purchases at artificially
high prices, and thus the harm to Plan Participants
steadily increased. As two experts framed the issue:
If the fraud occurs on one day at the beginning of
the class period so that the gap between the value
line and the price line appears immediately, the
bias will be small because only investors who
purchased the securities in the first few days of the
class period are affected by the error. However, if
the fraud consists of a series of omissions and
misrepresentations so that the gap between the
price line and the value line widens slowly, the
inflation will be overstated for a much larger
group of purchasers.
Bradford Cornell and R. Gregory Morgan, Using Finance
Theory to Measure Damages in Fraud on the Market
Cases, 37 UCLA L. Rev. 883, 911 (1990) (emphasis added).
280. Defendants knew that the longer fraud persists,
particularly when it relates to a company in an industry in
which trust is paramount and the company touts its
reputation for trust, and when senior executives are
knowingly concealing it while self-dealing, the harsher the

-App. 139acorrection, and the slower the price recovery, will more
likely be when the fraud is finally revealed.
281. When a public company like Wells Fargo
prolongs a fraud, the price correction when the truth
emerges is that much harsher, because not only does the
price have to be reduced by the amount of artificial
inflation, but it is reduced by the damage to the company’s
overall reputation for trustworthiness as well. Some
experts estimate that reputational damage can account for
as much as 60% of the price drop that occurs when a fraud
is revealed. This figure, moreover, increases over time. So,
the earlier a fraud is corrected, the less reputational
damage a company is likely to suffer.
282. This reputational damage is not merely
theoretical. Economists and finance experts have
conducted numerous empirical studies on the matter, and
concluded that “the reputational penalty” a company
suffers because it perpetrates a prolonged fraud is
significantly greater than any regulatory fines or other
penalties that may occur—in fact, the reputational penalty
is “7.5 times the sum of all penalties imposed through the
legal and regulatory system.” Jonathan M. Karpoff, D.
Scott Lee, and Gerald S. Martin, The Cost to Firms of
Cooking the Books, Journal of Financial and Quantitative
Analysis, Vol. 43, No. 3 (Sept. 2008). Moreover, “[f]or each
dollar that a firm misleadingly inflates its market value,
on average, it loses this dollar when its misconduct is
revealed, plus an additional $3.08 … [of which] $2.71 is
due to lost reputation.” See id. (emphasis added). And
this reputational damage, unsurprisingly, increases the
longer the fraud goes on. Id.
283. Rather than protecting the Plan, Defendants
continued to offer and to allow investment of the Plan’s
assets in Company stock, even as Wells Fargo continued

-App. 140ato conceal the scandal and perpetrate the systemic fraud
scheme. Defendants’ breaches, and consequent damage to
the Plan, were exacerbated by the fact that Defendants
continued defaulting matching contributions into the
Wells Fargo common stock, which resulted in a massive
concentration of assets in the stock. As of 2016,
approximately 34% of Plan assets (a staggering $11
billion) of Plan Participants’ retirement assets had been
invested in Wells Fargo stock.
284. The Plan was devastated by Defendants’ breach.
Upon information and belief, over the course of the Class
Period, the Plan was a net purchaser of Wells Fargo stock
by a margin of at least $1.5 billion, showing that far more
Plan Participants were damaged than could have possibly
benefited from serendipitously selling during the inflation
window.
285. Given that the ongoing fraud was going to
inevitably be unearthed (and it was), undertaking
alternative action – such as the above-listed exemplars –
would not have done more harm to the Plan than good.
Rather, taking such alternative action would have
protected the Plan and avoided the large Plan losses that
resulted from the continuation of the broad and systemic
fraud scheme and the delayed disclosure of the non-public
material information regarding the scheme.
286. No publicly available document shows that
Defendants considered dropping Wells Fargo stock as a
401(k) investment option.
287. No publicly available document shows that
Defendants considered eliminating Wells Fargo stock as
the 401(k) match.
288. No publicly available document shows that
Defendants discussed selling Wells Fargo stock held in
the 401(k) plan and converting the proceeds to cash.

-App. 141a289. No publicly available document shows that
Defendants discussed stopping Wells Fargo stock
purchases on a temporary basis in the 401(k) plan.
290. No publicly available document shows that the
Defendants made any decision regarding what to do with
the Wells Fargo stock match in light of the cross-selling
issues. Doing nothing is not the same as making a decision
to not make changes. It is a breach of fiduciary and trust
principles to not make a decision in light of information
indicating the duties of loyalty and prudence have been
implicated and may be breached.
291. In light of the lack of discussion regarding the
401(k) plan and the cross-selling issues, there is no record
from which to discern any alternative action Defendants
may have taken, much less whether any of those items
never discussed may cause more harm than good to Plan
Participants.
292. ERISA, the plan documents, and trust
principles all mandate disclosure, discussions, and
decisions be made by trustees or fiduciaries when there is
an appearance of disloyalty or conflict of interest.
293. ERISA, the plan documents, and trust
principles all create a burden on the trustee or fiduciary
to rebut the appearance of disloyalty or a conflict of
interest, even if, after disclosure, there is no actual
showing of disloyalty or conflict of interest.
294. Under the circumstances alleged herein, in
order to prevent greater harm caused by delayed
corrective actions and disclosure, Plan fiduciaries needed
to make inquiries and take prudent alternative actions to
avoid continued fraud and continued investment in
artificially-inflated Company stock that would inevitably
fall. Defendants failed to do that and the Plan and Plan
Participants were damaged thereby.

-App. 142a295. Had Defendants fulfilled their fiduciary duties
of prudence under ERISA and chosen to implement
alternative action(s), such as those listed above, they
would have protected the Plan from unreasonable and
predictable losses exacerbated by years of additional
fraud and concealment. Such actions would have certainly
done more good than harm to the Plan and Plan
Participants.
VI.
CLASS ACTION ALLEGATIONS
296. Plaintiffs bring this action individually and on
behalf of all others similarly situated as a class action
pursuant to the provisions of Rules 23(a), (b)(1), (b)(2), and
(b)(3) of the Federal Rules of Civil Procedure.
297. The Class is defined as follows:
All persons who were Participants of the Wells
Fargo & Company 401(k) Plan at any time between
January 1, 2014 through September 15, 2016 (the
“Class Period”) and whose Plan accounts suffered
losses, as defined by ERISA, through investments
in Wells Fargo common stock (the “Class”).
298. Excluded from the Class are Defendants,
governmental entities, and the Judge and Magistrate
Judge to whom this case is assigned and their immediate
families. Plaintiffs reserve the right to revise the Class
definition based on information learned through
discovery.
299. Certification of Plaintiffs’ claims for class-wide
treatment is appropriate because Plaintiffs can prove the
elements of their claims on a class-wide basis using the
same evidence as would be used to prove those elements
in individual actions alleging the same claim.
300. Numerosity – Federal Rule of Civil
Procedure 23(a)(1). The members of the Class are so

-App. 143anumerous that individual joinder of all the members is
impracticable. On information and belief, there were not
less than 350,000 Plan Participants during the time period
relevant to this action. The precise number of Class
members and their addresses is presently unknown to
Plaintiffs, but may be ascertained from Wells Fargo’s
books and records. Class members may be notified of the
pendency of this action by recognized, Court-approved,
notice dissemination methods.
301. Commonality and Predominance – Federal
Rules of Civil Procedure 23(a)(2) and 23(b)(3).
Numerous common questions of law and fact exist as to
Plaintiffs and the other Class members. Such questions
Class include, but are not limited to:
a. Whether Defendants caused the Plan to invest
its assets in funds and other investment products
offered or managed by Wells Fargo subsidiaries and
affiliates;
b. Whether Defendants caused the Plan to
imprudently invest its assets in funds invested in Wells
Fargo stock;
c. Whether Defendants breached their fiduciary
duties by engaging in the conduct described herein;
d. Whether Defendants breached their duty of
loyalty by failing to avoid conflicts of interest;
e. Whether Defendants breached their duty of
loyalty by failing to disclose material information to
Plan Participants;
f. Whether Wells Fargo breached its duty to
monitor the Plan’s fiduciaries to ensure the Plan was
being managed in compliance with ERISA;

-App. 144ag. Whether Defendants are additionally or
alternatively liable, as co-fiduciaries, for the unlawful
conduct described herein pursuant to 29 U.S.C. § 1105;
h. Whether the Plan and its Participants suffered
losses as a result of Defendants’ fiduciary breaches;
i. Whether Defendants are liable under 29 U.S.C.
§ 1132(a)(3) to disgorge the revenues they earned as a
result of the fiduciary breaches that occurred;
j. The proper form of equitable and injunctive
relief; and
k. The proper measure of monetary relief.
Defendants have engaged in a common course of
conduct toward Plaintiffs and the other Class members.
The common issues arising from this conduct that affect
Plaintiffs and the other Class members predominate over
any individual issues. Adjudication of these common
issues in a single action has important and desirable
advantages of judicial economy.
302. Typicality – Federal Rule of Civil Procedure
23(a)(3). Plaintiffs’ claims are typical of the other Class
members’ claims because, among other things, all Class
members were comparably injured through the abovedescribed uniform misconduct.
303. Adequacy of Representation – Federal Rule
of Civil Procedure 23(a)(4). Plaintiffs are adequate Class
representatives because their interests do not conflict
with the interests of the other Class members they seek
to represent; Plaintiffs have retained counsel competent
and experienced in complex commercial and class action
litigation, including ERISA litigation; and Plaintiffs
intend to vigorously prosecute this action. Class members’
interests will be fairly and adequately protected by
Plaintiffs and their counsel.

-App. 145a304. Superiority – Federal Rule of Civil Procedure
23(b)(3). A class action is superior to any other available
means for the fair and efficient adjudication of this
controversy, and no unusual difficulties are likely to be
encountered in the management of this class action. The
damages or other financial detriment suffered by
Plaintiffs and each of the other Class members are small
compared to the burden and expense that would be
required to individually litigate their claims against
Defendants, thus rendering it impracticable for Class
members to individually seek redress for Defendants’
wrongful conduct. Even if Class members could afford
individual litigation, the court system could not.
Individualized litigation creates a potential for
inconsistent or contradictory judgments, and increases
the delay and expense to all parties and the court system.
By contrast, the class action device presents far fewer
management difficulties and provides the benefits of
single adjudication, economy of scale, and comprehensive
supervision by a single court. This is particularly true
here, where Defendants, as Plan fiduciaries, were
obligated to treat all Class members similarly as Plan
Participants under written Plan documents and ERISA,
which impose uniform standards of conduct on fiduciaries.
305. Declaratory and Injunctive Relief – Federal
Rule of Civil Procedure 23(b)(2). Defendants have acted
or refused to act on grounds generally applicable to
Plaintiffs and the other Class members, thereby making
appropriate final injunctive and declaratory relief, as
described below.
306. Risk
of
Inconsistent/Dispositive
Adjudications – Federal Rule of Civil Procedure
23(b)(1). Class certification under Rule 23(b)(1) is merited
here because prosecution of separate actions by individual

-App. 146aClass members would create the risk of (a) inconsistent or
varying adjudications with respect to individual Class
members that would establish incompatible standards of
conduct Defendants; or (b) adjudications with respect to
individual Class members that would, as a practical
matter, be dispositive of the interests of the other Class
members not parties to the adjudication or substantially
impair or impede their ability to protect their interests.
VII. CLAIMS FOR RELIEF UNDER ERISA
307. At all relevant times, Defendants were and
acted as fiduciaries within the meaning of ERISA
§ 3(21)(A), 29 U.S.C. § 1002(21)(A).
308. ERISA § 502(a)(2), 29 U.S.C. § 1132(a)(2),
provides, in pertinent part, that a civil action may be
brought by a participant for relief under ERISA§ 409, 29
U.S.C. § 1109.
309. ERISA § 502(a)(3), 29 U.S.C. § 1132(a)(3),
provides, in pertinent part, that a participant may seek
appropriate equitable relief for a violation of Title I of
ERISA.
310. Plaintiffs, therefore, bring this action under the
authority of ERISA § 502(a) for Plan-wide relief under
ERISA § 409(a) to recover losses sustained by the Plan
arising out of the Defendants’ breaches of their fiduciary
duties for violations under ERISA § 404(a)(l) and ERISA
§ 405(a), and ERISA § 502(a)(3) for appropriate equitable
relief to remedy violations of Title I of ERISA.
COUNT I
Breach of Fiduciary Duty of Loyalty in Managing
and Administering Plan (Against All Individual
Defendants)
311. Plaintiffs incorporate all factual allegations in
the preceding paragraphs as if fully set forth herein.

-App. 147a312. As alleged above, Hope Hardison, Justin
Thornton, John Shrewsberry, Kevin Oden, Patricia
Callahan, Stanhope Kelly, Dawn Martin Harp, Suzanne
Ramos, James Steiner, George Wick, Martin Davis,
Thomas Wolfe, Lloyd Dean, John Chen, Susan Engel,
Donald James, and Stephen Sanger (the “Individual
Defendants”) were fiduciaries during the Class Period
within the meaning of ERISA § 3(21)(A), 29 U.S.C.
§ 1002(21)(A), in that they exercised discretionary
authority or control over the administration and/or
management of the Plan or disposition of the Plan’s assets.
313. The Individual Defendants had a duty of loyalty
pursuant to ERISA § 404, 29 U.S.C. § 1104(a)(1).
314. As part of their duty of loyalty, the Individual
Defendants had a duty to avoid conflicts of interest.
315. The Individual Defendants failed to avoid
conflicts of interest, and thus breached their duty of
loyalty.
316. No later than January 1, 2014, the Individual
Defendants had information concerning sales practices
within Wells Fargo that was inconsistent with Wells
Fargo’s public statements concerning its standards for
honesty, trust, and integrity, and the success of its crossselling strategy.
317. The Individual Defendants, however, as Wells
Fargo officers, employees, and Board members, were
incentivized to avoid doing or saying anything that would
harm the image or reputation of Wells Fargo, and thus
potentially reduce its share price or jeopardize the jobs of
their superiors and colleagues, because doing so would be
reasonably likely to damage their relationships within
Wells Fargo and on the Board, and thus harm their own
careers or their places on the Board.

-App. 148a318. In addition, the Individual Defendants had
relationships with their colleagues within Wells Fargo and
on the Board that would dissuade them from doing or
saying anything that would harm the image or reputation
of Wells Fargo, and thus jeopardize the careers and
positions of their colleagues within Wells Fargo and on the
Board.
319. The Individual Defendants, therefore, had a
conflict of interest between taking actions to protect Plan
Participants that would, or potentially could, reveal
negative information about Wells Fargo, and protecting
their own careers and positions, as wells as those of their
colleagues.
320. Individual Defendants were further conflicted
because they were selling their own stock during the Class
Period. Individual Defendants had a conflict of interest
because taking any action to protect Plan Participants
that might have reduced the artificial inflation in Wells
Fargo’s share price, such as revealing the facts giving rise
to the artificial inflation to Plan Participants or
temporarily halting investment in Wells Fargo’s share
price, was at odds with their own profiting from
artificially-inflated Wells Fargo stock.
321. Further, as part of their duty of loyalty,
Individual Defendants had a duty to deal fairly and
honestly with all Plan Participants, which includes a duty
to disclose material information that could adversely
affect a Plan Participant’s interests.
322. Individual Defendants failed to deal fairly and
honestly with Plan Participants, and thus breached their
duty of loyalty, by failing to disclose to Plan Participants
that there was a pervasive issue of sales practice
misconduct within the Community Bank, resulting in
hundreds of terminations and resignations a year, that

-App. 149awas inconsistent with Wells Fargo’s public statements
concerning its culture of honesty and integrity, and its
successes in cross-selling. After all, “lying is inconsistent
with the duty of loyalty owed by all fiduciaries[.]” Varity
Corp. v. Howe, 516 U.S. 489, 506 (1996) (quoting Peoria
Union Stock Yards Co. v. Penn Mut. Life Ins. Co., 698
F.2d 320, 326 (7th Cir. 1983)) (other citations omitted).
323. As a direct and proximate result of Individual
Defendants’ fiduciary duty breaches alleged herein, the
Plan and Plan Participants suffered damage to and/or lost
a significant portion of their retirement investments in an
amount to be determined at trial.
324. Had Individual Defendants complied with their
fiduciary obligations, Plan Participants would have
avoided foreseeable losses from transactions in Wells
Fargo stock and thereby eliminated, or at least reduced,
losses to the Plan.
COUNT II
Breach of Fiduciary Duty of Prudence in Managing
and Administering Plan5
(Against All Defendants)
325. Plaintiffs incorporate all factual allegations in
the preceding paragraphs as if fully set forth herein.
326. As alleged above, all Defendants were
fiduciaries during the Class Period within the meaning of
ERISA § 3(21)(A), 29 U.S.C. § 1002(21)(A), in that they
exercised discretionary authority or control over the
administration and/or management of the Plan or
disposition of the Plan’s assets.
5

Recognizing that the Court has dismissed Plaintiffs’ Duty of
Prudence claim with prejudice, Plaintiffs include this claim here
strictly to preserve it for purposes of appeal.

-App. 150a327. Under ERISA, fiduciaries who exercise
discretionary authority or control over management of a
Plan or disposition of a Plan’s assets are responsible for
ensuring that investment options made available to
Participants under a Plan, as well as employer matching
investments, are prudent and not artificially inflated in
value.
328. Furthermore, such fiduciaries are responsible
for ensuring that all investments in the Company’s stock
in the Plan were prudent and not artificially inflated in
value, and that such investments are consistent with the
purpose of the Plan.
329. Defendants are liable for losses incurred as a
result of Wells Fargo’s stock being artificially inflated in
price during the Class Period, and thus imprudent and
inconsistent with the Plan’s purposes.
330. A fiduciary’s duty of prudence requires it to
disregard Plan documents or directives that it knows or
reasonably should have known would lead to an imprudent
result or would otherwise harm Plan Participants or
beneficiaries. ERISA § 404(a)(1)(D), 29 U.S.C.
§ 1104(a)(1)(D).
331. Thus a fiduciary may not blindly follow Plan
documents or directives that would lead to an imprudent
result or that would harm Plan Participants or
beneficiaries, nor may it allow others, including those
whom they direct or who are directed by the Plan,
including Plan trustees, to do so.
332. Defendants breached their duty of prudence to
the Plan and Plan Participants. During the Class Period,
Defendants engaged in an illegal scheme to hide or conceal
material adverse facts about the broad and systemic fraud
scheme. Defendants knew that Wells Fargo stock had
become artificially inflated in value and that Plan

-App. 151aParticipants lacked sufficient and material information to
evaluate its prudence and appropriateness as an
investment option for Plan Participants’ retirement
savings. Accordingly, Defendants should have taken
appropriate alternative actions, as detailed above, but
failed to do so.
333. Defendants knew or should have known that
Plan Participants did not have full and complete
information about the Company, and thus were unable to
make fully informed decisions about whether to purchase
Company stock, hold Company stock, or invest in
alternatives under the Plan.
334. As a direct and proximate result of Defendants’
fiduciary duty breaches alleged herein, the Plan and Plan
Participants suffered damage to and/or lost a significant
portion of their retirement investments in an amount to be
determined at trial. Had Defendants complied with their
fiduciary obligations, Plan Participants would have
avoided foreseeable losses from transactions in Wells
Fargo stock and thereby eliminated, or at least reduced,
losses to the Plan.
COUNT III
Co-Fiduciary Liability
335. Plaintiffs incorporate all factual allegations in
the preceding paragraphs as if fully set forth herein.
336. This count alleges co-fiduciary liability against
all Defendants (the “Co- Fiduciary Defendants”).
337. As alleged above, during the Class Period, the
Co-Fiduciary Defendants were fiduciaries pursuant to
ERISA § 402(a)(1), 29 U.S.C. § 1102(a)(1), or de facto
fiduciaries within the meaning of ERISA § 3(21)(A), 29
U.S.C. § 1002(21)(A), or both. Defendants were thus

-App. 152abound by the duties of loyalty, exclusive purpose, and
prudence.
338. As alleged above, ERISA § 405(a), 29 U.S.C.
§ 1105(a), imposes liability on a fiduciary, in addition to
any liability which he may have under any other provision,
for a breach of fiduciary responsibility of another fiduciary
with respect to the same Plan if he knows of a breach and
fails to remedy it, knowingly participates in a breach, or
enables a breach. The Co-fiduciary Defendants breached
all three of these provisions.
339. Knowledge of a Breach and Failure to Remedy:
ERISA § 405(a)(3), 29 U.S.C. § 1105(a)(3), imposes cofiduciary liability on a fiduciary for a fiduciary breach by
another fiduciary if he has knowledge of a breach by such
other fiduciary, unless he makes reasonable efforts under
the circumstances to remedy the breach. Upon
information and belief, each Defendant knew, or was
reckless in not knowing, of the breaches by the other
fiduciaries and made no efforts, much less reasonable
efforts, to remedy those breaches.
340. Knowing Participation in a Breach:
ERISA§ 405(a)(1), 29 U.S.C. § 1105(a)(1), imposes liability
on a fiduciary for a breach of fiduciary responsibility of
another fiduciary with respect to the same Plan if he
participates knowingly in, or knowingly undertakes to
conceal, an act or omission of such other fiduciary,
knowing such act or omission is a breach.
341. Various fiduciary Defendants knowingly or
recklessly participated in the breaches of other fiduciary
Defendants because, as alleged above, they had actual
knowledge of, or were reckless in not knowing, the facts
that rendered the Company stock an imprudent
retirement investment and, yet, ignoring their oversight
responsibilities, permitted certain Defendants to breach

-App. 153atheir duties. Moreover, as alleged above, each of the
Defendants participated in the management and/or
administration of the Plan’s improper investment in the
artificially inflated Company stock and, upon information
and belief, knowingly or recklessly participated in the
improper management of that investment by the other
Defendants.
342. Enabling a Breach: ERISA § 405(a)(2), 29
U.S.C. §1105(a)(2), imposes liability on a fiduciary if, by
failing to comply with ERISA §404(a)(1), 29 U.S.C.
§1104(a)(1), in the administration of his specific
responsibilities which give rise to his status as a fiduciary,
he has enabled another fiduciary to commit a breach.
343. As a direct and proximate result of Defendants’
fiduciary duty breaches alleged herein, the Plan, and
Plaintiffs, and the other Plan Participants, were damaged
and sustained losses in an amount to be determined at
trial.
344. Pursuant to ERISA §§ 409, 502(a)(2) and (a)(3),
29 U.S.C. §§ 1109, 1132(a)(2) and (a)(3), the Co-Fiduciary
Defendants are liable to restore the losses to the Plan
caused by their breaches of fiduciary duties alleged in this
Count and to provide other equitable relief as appropriate.
COUNT IV
Failure to Monitor Fiduciaries
(Against Defendants Wells Fargo & Company,
Patricia Callahan, and Hope Hardison)
345. Plaintiffs incorporate all factual allegations in
the preceding paragraphs as if fully set forth herein.
346. Under ERISA, a person with authority to
appoint, maintain, and remove plan fiduciaries is a
fiduciary with respect to that exercise of authority.

-App. 154a347. Defendant Callahan, as Chief Administrative
Officer, and Defendant Hardison, as Director of Human
Resources, had the authority to appoint and remove
EBRC members from January 1, 2014 through July 31,
2015.
348. Wells Fargo had the authority to appoint and
remove the Plan Administrators, Defendants Hardison
and Thornton, because it had the authority to appoint and
remove the Chief Administrative Officer and the authority
to appoint and remove the Director of Human Resources.
Thus, Wells Fargo also effectively had the authority to
appoint and remove EBRC members.
349. Persons empowered to appoint and remove
fiduciaries have a duty to monitor those appoints, which
includes a duty to act upon discovery that appointed
fiduciaries are not performing properly.
350. A monitoring fiduciary must ensure that the
monitored fiduciaries are performing their fiduciary
obligations, including those with respect to the investment
and monitoring of Plan assets, and must take prompt and
effective action to protect the Plan and its Participants
when the monitored fiduciaries fail to perform their
fiduciary obligations in accordance with ERISA.
351. Defendants Callahan and Hardison knew that
Wells Fargo stock had become artificially inflated during
the Class Period. Defendants Callahan and Hardison
further knew that members of the EBRC knew that Wells
Fargo stock had become artificially inflated during the
Class Period. Defendants Callahan and Hardison further
knew that members of the EBRC were improperly
allowing Plan Participants, who did not know of the
artificial inflation or the facts giving rise to the artificial
inflation, to invest in artificially inflated Wells Fargo
stock.

-App. 155a352. Defendants Callahan and Hardison did not take
any action; including the removal of EBRC members,
demanding that EBRC members disclose to Plan
Participants the facts giving rise to Wells Fargo stock’s
artificial inflation, demanding that EBRC members
remove Wells Fargo stock as an investment option, or
disclosing (themselves) the facts giving rise to Wells
Fargo stock’s artificial inflation; to protect Plan
Participants from the improper performance of EBRC
members. Defendants Callahan and Hardison thus
breached their duty to monitor.
353. Wells Fargo knew that Wells Fargo stock had
become artificially inflated during the Class Period. Wells
Fargo further knew that Defendants Callahan, Hardison,
Thornton, and members of the EBRC knew that Wells
Fargo stock had become artificially inflated during the
Class Period. Wells Fargo further knew that Defendants
Callahan, Hardison, Thornton, and members of the
EBRC, in their capacity as fiduciaries, were improperly
allowing Plan Participants, who did not know of the
artificial inflation or the facts giving rise to the artificial
inflation, to invest in artificially inflated Wells Fargo
stock.
354. Wells Fargo did not take any action; including
the removal of Plan Administrators or EBRC members,
demanding that Plan Administrators or EBRC members
disclose to Plan Participants the facts giving rise to Wells
Fargo stock’s artificial inflation, demanding that Plan
Administrators or EBRC members remove Wells Fargo
stock as an investment option, or disclosing (itself) the
facts giving rise to Wells Fargo stock’s artificial inflation;
to protect Plan Participants from the improper
performance of the Plan Administrators and EBRC
members. Wells Fargo thus breached its duty to monitor.

-App. 156a355. As a consequence of the foregoing breaches of
the duty to monitor, the Plan, Plaintiffs, and the other
Plan Participants, were damaged and sustained losses in
an amount to be determined at trial. Had Defendants
Callahan, Hardison, and Wells Fargo not abrogated their
duties to monitor, Plan Participants would have avoided
foreseeable damages and losses.
356. Pursuant to 29 U.S.C. §§ 1109(a), 1132(a)(2), and
1132(a)(3), Wells Fargo is liable to restore to the Plan all
losses suffered as a result of the fiduciary breaches that
resulted from their failure to properly monitor the Plan’s
fiduciaries, and subsequent failure to take prompt and
effective action to rectify any observed fiduciary breaches.
VIII. CAUSATION
357. As discussed in detail above, the Plan suffered
not less than hundreds of millions of dollars in damages
and losses because Defendants breached their fiduciary
duties by, among other things, allowing substantial Plan
assets to be invested in Wells Fargo stock during the
Class Period and not disclosing material information to
Plan Participants.
358. Had Defendants properly discharged their
fiduciary and co-fiduciary duties by taking any of the
above-described alternative actions, the Plan and Plan
Participants would have avoided the damages and losses
that they sustained.
IX.
REQUEST FOR RELIEF
WHEREFORE, Plaintiffs, individually and on behalf
of the other Class members, respectfully request that the
Court grant the following relief:
(a)
Determining that this action may proceed as a
class action under Rule 23(b)(1), Rule 23(b)(2), and Rule
23(b)(3) of the Federal Rules of Civil Procedure.

-App. 157a(b) Designating Plaintiffs as Class Representatives
and Plaintiffs’ counsel as Class Counsel;
(c)
Declaring that Defendants breached their
fiduciary duty of loyalty under ERISA;
(d) Declaring that Defendants breached their
fiduciary duty of prudence under ERISA;6
(e)
Compelling Defendants to personally restore to
the Plan all losses that the Plan incurred as a result of the
above-described fiduciary duty breaches, and to restore
the Plan to the position it would have been in but-for this
unlawful conduct;
(f)
Requiring Defendants to disgorge all revenues
received from the Plan, and/or equitable relief pursuant to
29 U.S.C. 1132(a)(3) in the form of an accounting for
profits, imposition of constructive trust, or a surcharge
against Defendants as necessary to effectuate said relief,
and to prevent Defendants’ unjust enrichment;
(g) Enjoining Defendants from any further
violations of their ERISA fiduciary responsibilities,
obligations, and duties;
(h) Granting other equitable relief to redress
Defendants’ illegal practices and to enforce the provisions
of ERISA as may be appropriate;
(i)
Awarding pre-judgment interest;
(j)
Awarding attorneys’ fees and costs pursuant to
29 U.S.C. § 1132(g) and/or the common fund doctrine; and
(k) Awarding such other relief as the Court deems
equitable and just.

6

See note 5, supra.

-App. 158a-

Dated: October 27, 2017
LOCKRIDGE GRINDAL NAUEN P.L.L.P.
By:

/s/ Robert K. Shelquist
Robert K. Shelquist, #21310X
Rebecca A. Peterson, #392663
100 South Washington Avenue, Suite 2200
Minneapolis, Minnesota 55401
Telephone: (612) 339-6900
rkshelquist@locklaw.com
rapeterson@locklaw.com
Plaintiffs’ Liaison Counsel
Adam J. Levitt (admitted pro hac vice)
Amy E. Keller (admitted pro hac vice)
Daniel R. Ferri (admitted pro hac vice)
DICELLO LEVITT & CASEY LLC
Ten North Dearborn Street, Eleventh Floor
Chicago, Illinois 60602
Telephone: (312) 214-7900
alevitt@dlcfirm.com
akeller@dlcfirm.com
dferri@dlcfirm.com
Plaintiffs’ Interim Lead Counsel
Richard M. Elias (admitted pro hac vice)
Greg G. Gutzler (admitted pro hac vice)
Tamara M. Spicer (admitted pro hac vice)
ELIAS GUTZLER SPICER LLC

-App. 159a130 South Bemiston Avenue, Suite 302 St.
Louis, Missouri 63105
Telephone: (314) 274-3311
relias@egslitigation.com
ggutzler@egslitigation.com
tspicer@egslitigation.com
Michael B. Ershowsky (admitted pro hac vice)
LEVI & KORSINSKY LLP
30 Broad Street, 24th Floor
New York, New York 10004
Telephone: (212) 363-7500
mershowsky@zlk.com
W. Daniel “Dee” Miles, III
(admitted pro hac vice)
Claire E. Burns (admitted pro hac vice)
BEASLEY ALLEN CROW METHVIN
PORTIS & MILES, P.C.
218 Commerce Street
Montgomery, Alabama 36103
Telephone: (334) 269-2343
Dee.Miles@beasleyallen.com
Claire.Burns@beasleyallen.com
Samuel E. Bonderoff (admitted pro hac vice)
Jacob H. Zamansky (admitted pro hac vice)
Edward H. Glenn (admitted pro hac vice)
Justin Sauerwald (admitted pro hac vice)
ZAMANSKY LLC
50 Broadway, 32nd Floor
New York, New York 10004
Telephone: (212) 742-1414
samuel@zamansky.com

-App. 160ajake@zamansky.com
eglenn@zamansky.com
justin@zamansky.com
Plaintiffs’ Executive Committee
Carolyn G. Anderson, #275712
June P. Hoidal, #033330X
Devon Holstad, #0398107
ZIMMERMAN REED LLP
1100 IDS Center, 80 South 8th Street
Minneapolis, Minnesota 55402
Telephone: (612) 341-0400
carolyn.anderson@zimmreed.com
june.hoidal@zimmreed.com
devon.holstad@zimmreed.com
Douglas J. Nill, #0194876
DOUGLAS J. NILL, PLLC
D/B/A FARMLAW
2050 Canadian Pacific Plaza
120 South Sixth Street
Minneapolis, Minnesota 55402
Telephone: (612) 573-3669
dnill@farmlaw.com
Additional Counsel for Plaintiffs and the
Proposed Class

